<html>
<title> - EVALUATION OF THE PROCESS TO ACHIEVE VBA GOALS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             EVALUATION OF THE PROCESS TO ACHIEVE VBA 
                                 GOALS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         MONDAY, JULY 14, 2014

                               __________

                           Serial No. 113-80

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                                 _____________
                                 
                                 
                            U.S. GOVERNMENT PUBLISHING OFFICE
89-379                           WASHINGTON : 2015                            
         
         
________________________________________________________________________________________         
         
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>  
       
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                         Monday, July 14, 2014

Evaluation of the Process to Achieve VBA Goals...................

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman.......................................     1
    Prepared Statement...........................................   105

Hon. Michael Michaud, Ranking Minority Member....................     4
    Prepared Statement...........................................   108

                               WITNESSES

Kristen Ruell, J.D., Authorization Quality Services 
  Representative, Pension Management Center, Philadelphia Reginal 
  Office, VBA, U.S. Dept. of VA..................................     6
    Prepared Statement...........................................   109

Ronald Robinson, USA, Ret., Senior Veterans Service 
  Representative, AFGE Local 520, Columbia Regional Office, VBA, 
  U.S. Dept. of VA...............................................     9
    Prepared Statement...........................................   112

Javier Soto, Esq., Former Rating Veterans Service Representative, 
  Executive Vice President, Local AFGE 1594, St. Petersburg 
  Regional Office, VBA U.S. Dept. of VA..........................    10
    Prepared Statement...........................................   122

Ms. Linda Halliday, Asst. Inspector General for Audits and 
  Evaluations, Office of Inspector General, U.S. Dept. of VA.....    56
    Prepared Statement...........................................   125

    Accompanied by:

        Mr. Brent Arronte, Director of San Diego Benefits 
            Inspections Division, Office of Audits and 
            Evaluations, Office of Inspector General, U.S. Dept. 
            of VA

Hon. Allison A. Hickey, Under Secretary for Benefits, VBA, U.S. 
  Dept. of VA....................................................    58
    Prepared Statement...........................................   138

    Accompanied by:
        Ms. Diana Rubens, Director of Philadelphia Regional 
            Office, VBA, U.S. Dept. of VA
    and
        Mr. Thoms Murphy, Director of Compensation Service, VBA, 
            U.S. Dept. of VA

Mr. Daniel Bertoni, Director of Education, Workforce, and Income 
  Security, U.S. GAO.............................................    60
    Prepared Statement...........................................   146

                   MATERIALS SUBMITTED FOR THE RECORD

Questions From: HVAC and Responses From: VA......................   164


             EVALUATION OF THE PROCESS TO ACHIEVE VBA GOALS

                         Monday, July 14, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 7:30 p.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present:  Representatives Miller, Lamborn, Bilirakis, Roe, 
Flores, Denham, Runyan, Benishek, Huelskamp, Coffman, Wenstrup, 
Cook, Walorski, Jolly, Michaud, Brown, Takano, Brownley, Titus, 
Kirkpatrick, Ruiz, McLeod, Kuster, O'Rourke, and Walz.
    Also present:  Representatives Fitzpatrick, Meehan, and 
LaMalfa.

           OPENING STATEMENT OF JEFF MILLER, CHAIRMAN

    The Chairman. Good evening. Welcome to tonight's hearing.
    We're going to be reviewing the Veterans Benefits 
Administration's 2015 goals for disability benefit claims 
processing as well as the viability of those targets, which the 
former secretary established several years ago at 125 days to 
complete and 98 percent accuracy on the claims.
    We're going to delve into the actions that VBA has taken in 
its singular focus to declare victory on disability claims in 
2015, and we will endeavor to determine what price is being 
paid by our veterans, by the employees, the human capital of 
the regional offices, and by the American taxpayers.
    We have spent significant time on veterans' health in 
recent weeks and have exposed the rampant corruption and 
dishonesty, the bullying and the retaliation, the corrosive 
culture, and the workplace fear that has flourished within the 
administration.
    Now we look to VBA and seek answers on its part in creating 
the same--the very same environment that we've already heard 
about within its ranks.
    I received correspondence from a VBA employee who is with 
us tonight who wrote--and I quote--``Here are excerpts from the 
report by the White House Deputy Chief of Staff Rob Nabors 
detailing, one, the VHA's 14-day scheduling is standard and 
arbitrary; two, the VHA needs to be restructured. It lacks a 
transparency or accountability in its management; and, three, a 
corrosive culture has led to personnel problems highlighting 
poor management, distrust between VA employees and management, 
and a history of retaliation towards employee raising issues.''
    The employee then stated in a letter, ``If VHA is replaced 
by VBA and 14 days is replaced by zero claims over 125 days and 
98 percent accuracy, these excerpts from the report apply 
equally to the VBA.''
    To determine the scope of this statement, at the end of 
last week, the committee asked AFGE to inquire whether 
employees nationally agreed or disagreed with this sentiment, 
and in less than 2 days fast responses were received from 18 
regional offices.
    Not one regional office employee responded in disagreement. 
In fact, 16 R.O.s agreed unequivocally. Let that sink in. VBA 
is still running, guns blazing, on this questionable path 
without a real plan, without a real change.
    So let's begin tonight by reminding everyone again of VBA's 
real mission. And it is ``to provide benefits and services to 
veterans and their families in a responsive, timely, and 
compassionate manner.''
    Now, you've seen the perverse consequences of the mixed 
metric goals within the Veteran Health Administration, and 
tonight we're going to look at VBA's targets. And we will hear 
what's being done to push claims out the door at any cost. 125 
days and 98 percent claim-based accuracy would be a laudable 
goal if it were at all realistic.
    Weeks before tonight's hearing we began asking VBA to 
provide this committee with information on the research and 
analysis that was conducted prior to setting this goal as well 
as its information on performance standards.
    VBA has declined to provide timely and complete responses. 
In fact, we just got an email a couple of hours before this 
hearing.
    The purported responses fail to fully answer the questions 
that have been asked, and we're going to discuss that again 
later.
    The VBA's 2015 goals were outcomes, directed by the then-
Secretary of Veterans' Affairs to make progress. They were a 
call to action. And however well-intentioned, they have now 
become a distraction from accomplishing true progress.
    Employees have been working for a year on a 20-hour-per-
month mandatory overtime schedule with no end in sight. In 
fact, we know that VBA has not ruled out actually increasing 
the 20-hour-overtime mandate.
    We're going to hear from GAO later about how 75 percent of 
the regional offices that they surveyed have agreements with 
the local unions that all veterans' disability claims work done 
on this candle-burning overtime shall be exempt from any 
quality review.
    I look forward to hearing from VBA on how that's being sold 
as a veteran-friendly practice.
    Now, essentially, it's the equivalent of saying, ``Just 
make a decision and we'll hope that the veteran doesn't 
appeal.''
    Chronic incidents of unchecked oppressive and vindictive 
management festers within many of the regional offices, and the 
honest expert input of VBA employees has been silenced, ignored 
and, at times, punished.
    I'm told that the performance requirements on production 
and accuracy have been weaponized, if you will, to keep VBA 
employees in check. To what end? It's certainly not in the name 
of service to America's veterans.
    It is, instead, to create an appearance of success, just as 
VHA attempted to do by cooking the books on scheduling times 
and notifications involving disease.
    The VA Office of Inspector General will testify to the 
potential of over $1.3 billion in improper payments. The Oldest 
Claims Initiative, a push that required all claims that were 2 
years old or older to be rated within 60 days, introduced a 
scheme called provisional ratings.
    This was another hard-and-fast deadline dictated by Central 
Office, and VBA promised, ``Don't worry. We'll get them done 
right. They won't be going out the door without service 
treatment records, without medical exams, if that's 
necessary.''
    So what was found at the regional office? Guidance that 
read--and I quote--``A new VA exam request will have a negative 
impact on our ability to meet the goal that has been mandated 
by our leadership.''
    So VBA employees were directed to move forward with the 
evidence of file even if a medical exam was necessary to decide 
these aging claims.
    Contained in the guidance--and I ask you to look at the 
screen--and, Members, you should have this at your desk--I 
quote from an email where it says, ``I understand this may be 
difficult to do and may appear to go against the values of how 
we do work. I want to assure you that''--and here it is typed 
in boldface--``there will be no negative consequences for you, 
the employees, as a result of following this guidance. The only 
possible negative consequences are those that exist if we fail 
to meet our goals for this project and for any actions that 
keep us from doing so.''
    VA OIG's report issued earlier today found that regional 
office staff incorrectly processed 83 percent of the 
provisional rating decisions that were reviewed. Who is paying 
the price for VBA's self-defined success?
    There are roughly 280,000 veterans languishing in 3, 4, and 
5 years of an appellate backlog and nearly 240,000 veterans 
waiting on dependency award adjustments.
    We then have the complicated case, the old cases which were 
lost and then were subsequently found under a contrived and 
disingenuous interpretation of VBA's guidance of May 20th of 
2013.
    Even more egregious, VBA has recently put out guidance to 
the regional offices that, unless a veteran puts specific words 
on their claim form, a form that doesn't provide any space for 
comment, that the claimed condition has existed, that the 
claimed condition has existed, ``since service,'' then a 
medical nexus exam will not be ordered and the claim will be 
denied, denied.
    Robert Gates, former Secretary of Defense, recently 
released his memoir entitled ``Duty,'' which he dedicated to 
the men and women of the United States Armed Forces.
    He writes about VA and about his dealings with a former VA 
secretary. The secretary notes, ``I was staggered when he said 
his department was in good shape and had no problems.''
    And he continued, ``I'd been around long enough to know 
that, when a head of a department says his organization has no 
problems, he's either lying or he's delusional.''
    So I'll close my remarks by speaking to VBA directly.
    Whatever hooray that you shout, whatever win you attempt to 
take credit for in 2015, you will not be celebrated. It has 
been made clear that there is not a corner of VBA leadership 
that will not cut nor a statistic that they will not manipulate 
to lay claim to a hollow victory. What we all want to see, both 
my Republican and Democrat colleagues on this committee is 
progress, not deception.

    [The prepared statement of Chairman Jeff Miller appears in 
the Appendix]

    The Chairman. With that, I now recognize the ranking 
member, Mr. Michaud, for his opening statement.

 OPENING STATEMENT OF MICHAEL MICHAUD, RANKING MINORITY MEMBER

    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this hearing this evening.
    Tonight we will have an opportunity to continue an 
important discussion we have touched upon in several of our 
previous oversight hearings, the Veterans Benefits 
Administration and their progress in reaching goals related to 
the claims backlog.
    With the scandal at the Veterans Health Administration 
weighing heavily on us, tonight the committee wants to assess 
the current state of place at the VBA. The Agency appears to be 
making some progress on its goals of eliminating claims backlog 
by the end of 2015.
    I do, however, have concerns--and the VA OIG shares the 
concern--that the resources needed to achieve VA's backlog 
goals are being directed and applied disproportionately, 
ultimately harming other veterans' services.
    I refer in particular to non-rating workload, Quick Start, 
benefits delivery at discharge, independent disability 
evaluation system, and appeals, to name a few.
    We have heard over and over again of the dangers and 
failures of a system geared toward defining success based on 
narrow, fixed metrics. That is not how good customer service is 
delivered, and it is not how our veterans perceive success.
    And why should they? What good is it for a veteran if VBA 
processes his or her rating in an unacceptable period of time, 
but then takes years to add a dependent?
    From July 2010 to July 2014, the number of backlog 
dependency claims cases have gone from 9,367 to 192,322. This 
represents a nearly 2,000 percent increase.
    Since March of last year, the number of pending appeals has 
gone up 12 percent and continues to increase. And there are 
personnel issues as well. We have heard reports of unacceptable 
practices and challenges at many VA facilities.
    At the Baltimore VA regional office, the OIG found that as 
many as 9,500 documents, including claims, claims-related mail, 
and various other documents containing personal identifiable 
information have been improperly stored. Lax measures and 
practices with records to veterans' personal information is 
simply unacceptable.
    Again, to me, this says VA's focus on narrow performance 
measures are not realistic for defining success. Veterans 
define good, timely care and services on their whole experience 
from start to finish. That's what makes sense. It is something 
we must confront in today's hearing and in the larger term as 
we continue on our important work to reform the VA.
    The Department of Veterans' Affairs cannot morally claim 
success in delivering better care to our veterans by touting 
their progress on the backlog if that progress has come at the 
expense of delivering other key services to veterans in a 
timely manner.
    This work takes an increased urgency as more and more 
veterans are coming home from service abroad in Operation Iraqi 
Freedom and Operation Enduring Freedom.
    To fix the current shortcomings in the delivery of service, 
we need all of the facts and we need honesty, frank 
discussions. That's what I'm hoping to get out of tonight's 
hearing.
    Because if we do not base our reform efforts based upon 
what is realistically achievable and what the facts are, we are 
setting the Department of Veterans Administration and, more 
importantly, our veterans up for failure down the road once 
again. And I think we can all agree that this is not an option.
    So tonight, Mr. Chairman, I appreciate you calling this 
hearing because it gives us a chance to take a hard look at 
what VBA needs to do to ensure that it is providing its claims 
workforce with the training and other tools needed to deliver 
timely and accurate benefits to our Nation's veterans and their 
families in all areas of their responsibility.
    So I want to thank you, Mr. Chairman. I yield back the 
balance of my time.

    [The prepared statement of Hon. Michael Michaud appears in 
the Appendix]

    The Chairman. Thank you very much, Mr. Michaud.
    I would ask that all Members would, as is the committee's 
custom, waive their opening remarks.
    And I also ask unanimous consent of the committee that we 
allow some of our colleagues to join us here tonight, from the 
8th District of Pennsylvania, Congressman Michael Fitzpatrick, 
and from the 7th District of Pennsylvania, Congressman Patrick 
Meehan. And, also, we may be joined by other colleagues, 
including Mr. Lamalfa, later.
    Hearing no objection, so ordered.
    So tonight we're going to hear from two panels. The first 
is comprised of individuals from various VBA regional offices, 
to include Ms. Kristen Ruell, Authorization Quality Services 
Representative of the Pension Management Center of the 
Philadelphia Regional Office; Mr. Ronald Robinson, Veterans 
Service Representative and member of AFGE Local 520 of the 
Columbia, South Carolina, Regional Office; and Mr. Javier Soto, 
who served as a Rating Veterans Service Representative and the 
Executive Vice President of Local AFGE 1594 in my home State, 
the great State of Florida, under the supervision of the St. 
Petersburg Regional Office.
    And the second panel that we're going to have will contain 
government witnesses in the following order: Ms. Linda 
Halliday, Assistant Inspector General for Audits and 
Evaluations, Office of the Inspector General.
    Ms. Halliday is accompanied by Mr. Brent Arronte, Director 
of San Diego Benefits Inspections Division Office of Audits and 
Evaluation.
    Next will be VBA, to include the Honorable Allison A. 
Hickey, Under Secretary for Benefits.
    And she is accompanied by Ms. Diana Rubens, Director of the 
Philadelphia Regional Office, who is the former Deputy Under 
Secretary for Field Operation, as well as Mr. Thomas Murphy, 
Director of Compensation Service.
    And, finally, we will hear from Mr. Daniel Bertoni, 
Director, Education Workforce and Income Security, with the 
U.S. Government Accountability Office.
    So I now acknowledge our first panel, who is already 
seated.
    Yield to our colleague, Mr. Fitzpatrick, for a brief 
introduction of our first witness.
    Mr. Fitzpatrick. Like to thank the chairman and the ranking 
member for the opportunity to participate in the hearing and to 
introduce Ms. Kristen Ruell.
    Ms. Ruell is a law school graduate, practicing attorney, 
Commonwealth of Pennsylvania, and a former law clerk of the 
Pennsylvania Supreme Court.
    Ms. Ruell works as a Quality Review Specialist at the 
Philadelphia Regional Office, which serves tens of thousands of 
veterans in my community and hundreds of thousands in the 
greater region and throughout the country.
    She's a strong supporter of veterans and has been reporting 
various types of data manipulation and illegal payments to 
anyone who would listen. Unfortunately, the VA was not 
listening to her, and that brings us to this evening's hearing.
    In 2012, Ms. Ruell, frustrated that the VA was not 
responsive, reached out to my office for help. I was inspired 
by her doggedness and desire to make the VA a better 
organization, honored to work with her to help to get to the 
bottom of this.
    And so now, Mr. Chairman, this evening, with this committee 
and America as her audience, Ms. Ruell will tell her story of 
what can be described as no less than gross mismanagement at 
the Philadelphia Regional Office. And I appreciate her courage 
in coming forward and her patriotism in doing so.
    I yield back.
    The Chairman. Thank you very much to our colleague, Mr. 
Fitzpatrick. We appreciate you being here with us tonight to 
introduce your constituent.
    Would ask that all the witnesses would please rise and 
raise your right hand.
    [Witnesses sworn.]
    The Chairman. Thank you. You can be seated.
    And each of your complete written statements will be made a 
part of the hearing record for tonight.
    Ms. Ruell, you are recognized for 5 minutes.

                   STATEMENT OF KRISTEN RUELL

    Ms. Ruell. My name is Kristen Ruell. I have worked for the 
Department of Veterans Affairs since August of 2007. I work at 
the Philadelphia Regional Office as an Authorization Quality 
Review Specialist. I possess a law degree and have previously 
clerked for the Pennsylvania Supreme Court.
    Mr. Chairman, committee members, veterans, and guests, I 
have been identified as a whistleblower. I started reporting 
various types of data manipulation and illegal payments and 
glitches in the VETSNET operating system, a system that is 
responsible for paying out VA benefits since July of 2010.
    I discussed what I perceived as gross mismanagement at the 
Philadelphia Regional Office. I raised many issues, including, 
but not limited to, the proper--improper shredding of military 
mail, beneficiaries receiving improper and/or duplicate 
payments, legal processes with the recovery of funds after an 
improper payment has been made and not returned, data 
manipulation, and various other gross misinterpretations of the 
law.
    Instead of solving problems, I was and continue to be 
retaliated against by the VA. I have been targeted by middle 
and upper management at the VA for over 4 years despite the 
fact that OIG recently confirmed these allegations, as will be 
reflected in their testimony for today.
    The VA's problems are a result of morally bankrupt managers 
that through time and grade have moved up into powerful 
positions where they have the power to and continue to ruin 
people's lives. I can speak from experience.
    I do not believe in manipulating data to achieve monetary 
gain for myself while harming the veterans and their survivors. 
In 2013, the VA issued fast letter 13-10 regarding found or 
discovered claims.
    A simple reading of this fast letter established that these 
claims would be few and far between. To qualify for a new data 
claim, rather than using the date stamped when the claim 
actually arrived at the VA office, the claim had to be 
undiscovered and found in a claim folder. Upon discovery, a 
memo was to be attached and signed by someone no less than an 
assistant director.
    Upon completion of the claim, an email was to be sent to 
the VA's Central Office explaining the circumstances of the 
claim and why this claim was going to have an altered date of 
claim, a newer date.
    Additionally, the claim was supposed to be tracked in a 
program called MAP-D by way of a flash, which could be tracked.
    This fast letter was the VA's solution for solving the 
issues with the backlog because, by 2015, the VA promised that 
there would be no claims pending older 125 days.
    Philadelphia Regional Office took this fast letter to mean 
that they could change the dates of claims on every claim older 
than 6 weeks old, regardless of the circumstances.
    When investigated by the OIG, the Pension Center managers 
pled ignorance and stated they misapplied and misunderstood the 
fast letter. Ironically, there is proof to the contrary.
    The memo was used to minimize the average days pending of a 
claim to make the regional office's numbers look better. A 
veteran should have a date of claim of 2009, in some cases. But 
because of this memo, the Philadelphia Regional Office instead 
used a date of claim of 2014, therefore making the claim appear 
new.
    He or she now has a recent date of claim with no priority 
attached because the claim has a new date of claim and will not 
show up in any reports for claims pending longer than 125 days.
    I have been admonished and suspended because I was unable 
to work mandatory overtime because of a problem with child care 
1 month and, also, labeled ``fraudulent'' by the Pension Center 
management, which after 2\1/2\ years were both reversed. No one 
else was given that severe of a punishment for things beyond 
their control.
    I was not promoted for a job when I was more qualified than 
at least one of the selectees, and I had to file an EEO 
complaint for lack of selection. I was followed around the 
regional office by management, and my breaks were timed.
    An assistant Pension Center manager had my direct 
supervisor come outside and retrieve me from break, when we are 
permitted flextime. I was falsely accused of slander. I was 
lied to on numerous times and counseled.
    After my last whistleblowing attempt, my name was forwarded 
to the people I reported. The next morning my car was dented, 
and the following morning I came out to a big mess of coffee 
thrown on the hood and windshield of my car.
    Although I cannot prove that this was done by the people I 
reported, I do not put anything past the managers at the 
Philadelphia Regional Office.
    After receiving an annual EEO whistleblowing email 
encouraging employees to report illegal activities as well as 
taxpayer waste, I contacted the numbers provided, thinking I 
was doing something the Department of Veterans' Affairs would 
appreciate.
    I had tried using the chain of command, to only find out 
the chain was corrupt and management nor the Central Office had 
any interest in hearing about any problems at the Agency, 
regardless of extent.
    I whistleblew when I realized that the amounts of improper 
payments could be in the billions and included many supporting 
comments, sample cases, and case law.
    What I thought was helping the taxpayer, the Agency, and 
the veterans proved to be the exact opposite for me personally 
and the beginning of a horrible nightmare I have been living 
for 4 years.
    I know that this was not really what the VA wanted and that 
they cover up nearly every impropriety to gain self-benefit via 
bonuses and promotions and they target anyone that steps in the 
way.
    I noticed many employees around me were depressed and, upon 
seeing me stick up for the veterans, taxpayers, and employees, 
others began to tell me horror stories of the Agency I was 
employed at.
    I now spend my free time representing employees who have 
been treated adversely by the Department of Veterans' Affairs. 
I am here because I care about veterans and I care about VA 
employees.
    The people that serve their country and the employees that 
serve them deserve much more respect from the Department of 
Veterans' Affairs. The Agency is unable to police itself and is 
operating out of control at the employees' and the veterans' 
expense.
    The unreasonable and unattainable production requirements 
that start in Washington, DC., that are placed on employees 
have required employees to decide between what is right in 
helping the veteran or what is wrong in order to keep their 
jobs.
    Most employees have taken the easier route and are doing 
things they are bullied into doing to stay employed. Anyone who 
does not comply will be targeted.
    The VA needs immediate reform because it's filled with a 
systemic culture of corruption to make unattainable goals set 
by people that do not process claims. Time and grade is a large 
part of the problem.
    I will be available by email to answer any questions 
regarding what I have experienced at the Agency and welcome an 
opportunity to meet with anyone that is interested in fixing 
the many problems.
    I would like to thank you on behalf of myself and the many 
voices that could not be here today for my invitation to 
appear.

    [The prepared statement of Kristen Ruell appears in the 
Appendix]

    The Chairman. Thank you very much, Ms. Ruell.
    Mr. Robinson, you are recognized for 5 minutes.

                  STATEMENT OF RONALD ROBINSON

    Mr. Robinson. Good afternoon, Chairman Miller and Ranking 
Member Michaud--I hope I got that right--and Members of the 
committee.
    On behalf of my fellow comrades and employees, thank you 
for the opportunity to discuss the evaluation of the process to 
achieve Veterans Benefit Administration's goals, which was 
established in 2009 by former VA Secretary Shinseki at 125 days 
to complete and 98 percent claims accuracy.
    Serving veterans should never be about arbitrary and 
unplanned goals. But how can we serve them better? It has been 
proven that setting unrealistic and unplanned goals with long-
term targets without short and intermediate targets to validate 
their effectiveness are a recipe for disaster.
    The Columbia Veterans Affairs Regional Office had the 
privilege of a visit from Acting Secretary Gibson last week, 
and it was refreshing to hear our top leader say it's not about 
matrices, but ensuring that we are doing everything to serve 
our veterans and building trust one veteran at a time.
    He addressed transparency, accountability, retaliation, of 
employees. He also acknowledged that it was his job to create 
conditions for employees to be successful. He is setting the 
tone for changing the culture of a lack of accountability, 
numbers and manipulation of numbers, retaliation and VA talking 
points.
    In October 1995, when I arrived at the Columbia VRO as a 
work-study, there was a poster in the hall--on the wall in the 
hallway that read ``Making a difference in VBA integrity, 
professionalism, and accountability.'' I was impressed by the 
message and embarked on a journey to make it a reality as I 
served my fellow comrades.
    I visited the VA Central Office in February of 2013 and, to 
my surprise, the same poster was hung in the hallway. However, 
I have learned that words on paper are meaningless without 
corresponding action.
    The VA is not a factory or a business, but a service 
organization created to serve veterans, their widows and 
orphans.
    We serve survivors of those who have made the ultimate 
sacrifice, those who have seen horrific acts of war and need 
comfort, those who have been mentally and physically disabled 
and need health care, those who are homeless and need shelter 
as well as support, those who are thinking about suicide and 
need a lifeline, and all the others who have honorably and 
faithfully served our country.
    Again, this is not about meeting goals and matrices, but 
serving those who served and VA providing the leadership, 
effective tools and creating an environment for employees that 
are conducive to providing accuracy and timely decision to our 
customers, veterans, survivors, and their families.
    When unrealistic goals cause leaders to throw out--common 
sense and intelligent analysis out of the window, it is time 
for a reassessment and shift the focus back on our only 
mission, to care for him who shall have borne the battle and 
for his widow and his orphan.
    President Roosevelt, on the day he signed the G.I. Bill, 
stated: The members of the Armed Forces have been compelled to 
make greater economic sacrifice and every other kind of 
sacrifice than the rest of us, and they are entitled to 
definite action, definite action, to help take care of their 
special problems.
    Gentlemen--ladies and gentlemen of this committee, I served 
20 years serving this country. I have served 18 years on the 
front lines in the foxhole of the Columbia Regional Office.
    Employees deserve better than what we are getting. We need 
tools to effectively do our jobs. We need to be lifted up, not 
pulled down. And this is done not by anybody else but the 
failed leadership of our organization. It is our organization 
as well.
    I'll be here to answer any questions. Thank you very much.

    [The prepared statement of Ronald Robinson appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Robinson. Thank you 
for your service to this country.
    Mr. Soto, you are recognized for 5 minutes.

                    STATEMENT OF JAVIER SOTO

    Mr. Soto. I thank the chairman, ranking member, and 
esteemed members of the committee for the opportunity to be 
here. My statement relates to my experience as a former rater 
at the St. Petersburg, Florida, VA Regional Office, which I 
will refer to as ``St. Pete.''
    In my opinion, the problems at VBA result from setting 
goals so fantastic and unrealistic that the result could have 
been predicted. Management focused on creative number-crunching 
and not the veteran.
    I point out that I tried bringing up problems to management 
through various process that are established for that, but I 
got nowhere. They also took complaints personally.
    In my view, presently, we cannot tell what the accuracy 
rate for claims processing may be. Data varies widely, if you 
look at it locally, regionally, or nationally.
    At St. Pete, this year alone, quality reviewers called four 
quality review errors against Orlando raters that contradict 
medical evidence. When we brought to this Kerrie Witty, the 
director, she refused to do anything about it. Presently, to 
address this, the union is preparing to arbitrate claims based 
on quality issues.
    Employees had been bringing issues to the quality review 
team regarding inconsistencies with their work for some time. 
When this was passed up to management, instead of addressing 
the inconsistencies, on January 27 of this year, management 
issued an email directing employees to stop complaining to the 
quality reviewers and just tell their supervisors, which 
employees reported did not resolve anything.
    Shortly after that email, we began seeing what I can only 
describe as a disclaimer whenever we got quality guidance or 
advice. It stated in so many words--and I won't say the exact 
wording so I don't identify anyone--but, ``We don't know if our 
advice is right or wrong, and don't rely on it.''
    When asked about this at an employee town hall meeting, 
Director Witty stated, ``I am not aware. I have to check into 
that. I don't know.'' This issue remains unresolved.
    The quality issue is further made worse by various changes 
to rating rules. And I will discuss one example. There are 
many.
    Provisional rating rules simply hid wait times. Once a 
claim is given a provisional rating, it's not counted toward 
the backlog. However, the claim has no final rating. It's still 
unresolved.
    In summary, at St. Pete, the employees work hard to serve 
veterans and complete their work competently. However, we have 
found that employees avoid appealing quality error calls 
because they fear reprisal. When employees do appeal the 
errors, they are overturned at least 30 percent of the time.
    We did some figuring out, and we believe that, if employees 
were not afraid to appeal these errors, the total number of 
claims with errors overturned may be troubling.
    To date, to excuse the backlog and other processing 
problems, many employees are on performance improvement plans. 
Where we were interested and we checked, not one manager at St. 
Pete is on a performance improvement plan.
    The total number of errors overturned can be great. We just 
have to check. Nobody's checking. Any employee that complains 
is met with severe consequences.
    Once again, I'd like to thank the committee for providing 
me the opportunity to share my views. I will be happy to take 
any answers. Thank you.

    [The prepared statement of Javier Soto appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Soto.
    Thanks again to all of you for your testimony. We're going 
to start a round of questioning. Each of us will have 5 minutes 
with which to ask our question.
    Mr. Soto, I will start with you, sir. And, if you would, 
just answer in a ``yes'' or ``no'' fashion, if you could.
    Were you rated anything less than fully successful during 
your time with the regional office?
    Mr. Soto. No, sir.
    The Chairman. Did you receive a promotion in 2013?
    Mr. Soto. Yes, sir.
    The Chairman. Now I've got some documents here that are 
letters signed by the regional office director, Kerrie Witty, 
who you've talked about this evening. So I want to ask you 
about them.
    The first is a letter dated July 24, 2013, where the R.O. 
director contested transfer of your official time, which notes, 
``Having raters taken from their reoccurring duties on a 
regular basis hampers the flow of work.''
    Did you get a copy of this?
    Mr. Soto. Yes.
    The Chairman. The second is a letter that is dated February 
26 of 2014 where the R.O. director denied your leave to attend 
training, citing that you were needed due to VACO's all-hands 
initiative.
    Did you receive this document?
    Mr. Soto. Yes.
    The Chairman. And the third is a letter dated the 23rd of 
June, just 3 weeks ago, from the director again, which appears 
to respond to an AFTE leave without pay request for you, which 
reads, in part, ``LWOP''--leave without pay--``is granted at 
the discretion of the department. While I understand that AFGE 
is preparing for various changes within this organization and 
engaged in various national projects, Mr. Soto holds a full-
time position as a rating veterans service representative and 
is needed to perform his rater duties in that position.''
    Did you receive this document?
    Mr. Soto. Yes, sir.
    The Chairman. So could you tell the committee what occurred 
after June 23rd of 2014.
    Mr. Soto. On June 24, I published a VSR accuracy report 
concerning quality review and VSR operations. On June 26, it 
was distributed to all employees and management.
    During this period, I received calls from fellow employees 
telling me that management was looking into your--specifically 
Bonnie Wax from Human Resources, called our coaches and said, 
``Don't tell anybody. I need you to look at this,'' et cetera.
    On June 30, I was, for the lack of better definition--and I 
think the legal definition is ``laid off''--I received a letter 
that said, ``Your services are no longer required.'' And that 
was the end of my employment.
    The Chairman. Ms. Ruell, do you believe that the policy at 
the--or at Philadelphia violated the policy direction given in 
the fast letter 13-10?
    Ms. Ruell. Definitely.
    The Chairman. And how did they violate that policy?
    Ms. Ruell. In our office, we would receive emails. As we 
got closer to 2015, the emails would change, but they were 
instructing us to change the dates of claims, on any claims, 
regardless of the circumstances, if they were older than a 
certain date.
    The Chairman. Do you believe that the management at the 
regional office intentionally violated fast letter 13-10 or was 
it simply a misunderstanding, as VA has said publicly?
    Ms. Ruell. I believe--and I think it can be proven--that 
management intentionally violated the fast letter.
    If you read the fast letter closely, the management will 
allege that they didn't understand what the first part of the 
fast letter said. However, their actions show otherwise.
    The other paragraphs in the fast letter explain that you're 
supposed to control these memos by placing a flash in a program 
called MAP-D. That's the way to track how many memos 
Philadelphia was issuing for changing dates of claims.
    You were also supposed to email Washington after you 
processed the claim and explain the circumstances for changing 
the dates of claim. Philadelphia didn't do either of those 
things.
    So it's my belief that, if you didn't understand the top 
part of the fast letter, number one, I question why you'd be 
paid a GS-15 or a GS-14 to be in charge of the amount of money 
that our office is in charge of if you don't understand the 
language in the fast letter. And why then did you prohibit any 
type of control on those claims so that, if they were to be 
looked into at a later date, no one could find them?
    Similar to the VHA paper waiting lists, our memos were all 
on paper. So if you wanted to find out how many memos were done 
in Philadelphia, you would have to go to the file room and open 
up all the claim folders to find these memos, if they're still 
there.
    But MAP-D is not a program that the managers aren't 
familiar with. And emailing they do every day. They email us 
lists nonstop.
    So if they didn't understand the fast letter, at least the 
top portion, I know that they understood the bottom portion. 
And they failed to do any of those things to control it. So I 
think it was to hide it.
    The Chairman. Thank you.
    Mr. Michaud, you're recognized.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    The first few questions should be a quick ``yes'' or 
``no.'' And I'll start with Mr. Soto and just work down the 
panel.
    Do you believe that production is being driven over 
quality?
    Mr. Soto. Absolutely.
    Mr. Robinson. Yes.
    Ms. Ruell. Definitely.
    Mr. Michaud. And do you believe that non-rating workload is 
being provided enough resources to be done in a timely and 
accurate manner?
    Mr. Soto. No.
    Mr. Robinson. Definitely no.
    Ms. Ruell. No.
    Mr. Michaud. And do you believe that VBMS is making VA more 
efficient than it was when you dealt with paper?
    Mr. Soto. At the present time, I would say that's 
debatable.
    Mr. Robinson. I say that it's ``no'' because the--all the 
workarounds that we have negate the progress that VBMS is 
making.
    Ms. Ruell. I don't currently work on VBMS. But anything 
that is electronic at the Department of Veterans' Affairs has 
many problems. And if I do a claim with a paper folder, I can 
see the paper. I can page through it quickly.
    When I look at--when it's in the computer, there's multiple 
entries for the same documents. It wastes a lot of time. And 
sometimes the program freezes, and it halters us from getting 
our work done. I would much rather use paper.
    Mr. Michaud. Ms. Ruell, to follow up on the chairman's 
question, his question was do you believe that the VA, you 
know, ignored, you know, the Pension Center plead ignorance--
well, let me back up.
    In your statement, you suggest that the Philadelphia 
Pension Center pleaded ignorance with regard to the found or 
discovered claims.
    Do you believe that the VA OIG findings were incorrect in 
suggesting that the Center misapplied, misunderstood VA's 
policy and procedure from the OIG?
    Ms. Ruell. I believe that that's probably not 100 percent 
accurate because they only found 30 memos. But if they'd stay 
there a lot longer, they would probably find thousands and they 
would see the instances that the claims were changed and it 
was--some of them had no reason at all. They just changed the 
date of claim. That's not what the fast letter said.
    Mr. Michaud. And do you have proof?
    Ms. Ruell. I photocopied a few of those memos. But if you 
just ask any employees that work there how many they did on a 
weekly basis, you would definitely find out.
    Mr. Michaud. In your testimony, you highlight that you 
believe a larger number of documents were improperly shredded.
    Can you walk us through VA's responses to your suggestions 
that more needs to be done.
    Ms. Ruell. Yes. We--did you want me to describe the 
shredding?
    Mr. Michaud. Yes.
    Ms. Ruell. Okay. I was working one day and I received an 
email--a very disturbing email from a triage employee. Triage 
is where the mail comes in and gets stamped.
    The triage clerk has to look at a claim and they have to 
figure out in a very short time--because they are on production 
as well--what type of claim that is and identify it with a 
veteran in the system.
    A lot of people mail their claims in. And they might not 
put their full name. They might forget to put their Social 
Security number. They might forget to put their birthday. A lot 
of people have the same names in the system.
    If you're on production and you have to open the mail and 
you have to look at all these things and decide what type of 
claim it is in a very quick time period, there really isn't 
time to investigate to try and identify who that person really 
is.
    So what was happening--and various employees told me that 
the clerks were trying their best to identify these things.
    But ones that took a little longer to identify because they 
were lacking all the identifying information they were putting 
aside in a separate pile that eventually were stored in boxes.
    So I went down to the file room that night after I got this 
email. And I wanted to see for myself what was going on. And I 
saw these boxes that were labeled 2010 claims, 2011 claims, 
2012 claims to be shredded.
    So I opened them. I took pictures. And I saw things in the 
boxes that are not supposed to be shredded. I saw DD-214s. I 
saw plenty of things that I could identify with just a little 
bit of effort.
    So I reported it to Washington. Apparently, they stopped 
the shredding of those boxes. Unfortunately, there was a total 
of 96 of those boxes.
    The VA--their answer to that was it's military and returned 
mail. And the process for military and returned mail is, after 
you told hold of it for one year, you're allowed to shred it.
    But the law is assuming that you tried to identify it. The 
mail that was in those boxes was not easily identifiable, but a 
lot of it was not impossible to identify. It just took a little 
bit of time.
    So because of these production requirements, the clerks had 
a choice to pitch it to another box and, hopefully, get to it 
later or lose their job and do it the right way. So most people 
had good intentions and put these aside.
    Then they had gift cards that they were giving away for 
people who could process the most mail. So they gave incentives 
to get a lot of mail sorted.
    And I saw the boxes with my own eyes. I saw what was in the 
boxes. And a lot of that stuff should not have been shredded.
    The VA told me that, because I didn't see the shredding 
happening, that it wasn't shredded. However, when I did a 
little research about the shredding truck, I was informed that, 
in order for the mail to be shredded, it gets shredded on the 
truck and, if I would have watched the mail be shredded, I 
would have been shredded with it.
    So I believe there was circumstantial evidence when I saw 
the boxes headed towards the shred truck. However, I can't say 
that I saw it being shredded because, again, that would be 
impossible.
    The Chairman. Mr. Lamborn, you are recognized for 5 
minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. And thank you for 
your leadership on these vital issues.
    Last week we had another hearing involving whistleblowers. 
And it is so important that we have employees who come forward 
and disclose what they have seen with their own eyes.
    It can be critical to exposing things that need to come to 
the light of day. So thank you for your work, your service, 
your putting it on the line to do that.
    And I want to ask you--and I think I already know the 
answer to this, but let's do this for the record.
    Have you experienced or do you know others who have 
experienced retaliation in response to bringing things forward 
as a whistleblower in the VA?
    And we'll just go--Ms. Ruell, we'll start with you, and go 
down the line.
    Ms. Ruell. Unfortunately, yes.
    Mr. Robinson. Yes.
    Mr. Soto. Absolutely. Yes.
    Mr. Lamborn. Mr. Soto, let's talk to you for a second.
    You probably saw the letter--the memo from Acting Secretary 
Gibson dated June 13 saying, ``We will not stand for 
retaliation against whistleblowers.''
    In fact, in this memo there's a great line that says, 
``Protecting employees from reprisal is moral obligation of VA 
leaders, a statutory obligation, and a priority for this 
department. We will take prompt action to hold accountable 
those engaged in conduct identified as reprisal for 
whistleblowing and for that--and that action includes 
appropriate disciplinary action.''
    So that memo says those who punish whistleblowers 
themselves can be subject to discipline.
    And the statutory protection the acting secretary refers to 
is from 25 years ago. Congress protected whistleblowers more--
25 years ago.
    Mr. Soto, is it true that you were retaliated against after 
this memo came out?
    Mr. Soto. I believe so. Yes.
    Mr. Lamborn. Could you explain that, please.
    Mr. Soto. I was, again--and I'm still trying to piece this 
together. I believe I was laid off June 30. I believe that memo 
and other emails had come out.
    Mr. Lamborn. This was June 13, the memo I just quoted from.
    Mr. Soto. Yes.
    Mr. Lamborn. And what was the reason given for you being 
laid off?
    Mr. Soto. My services were no longer required.
    Mr. Lamborn. And had you been acting as a whistleblower 
prior to that time?
    Mr. Soto. Yes, sir.
    Mr. Lamborn. And can you explain what you did in that 
capacity.
    Mr. Soto. I put out various notices of wrongdoing in the 
workplace concerning possible violations of due process 
concerning veterans' claims and how they're processed.
    I put out two accuracy reports concerning the quality 
review process at St. Petersburg. One was in December 2013 
involving the raters and the rating process.
    There seems to be conflict in how we define various laws 
and various definitions of evidence that basically result in 
what I believe to be due process violation against the 
veterans.
    Then I came out with a second study, which was in June--
June 26 it was distributed--which addressed the VSRs and the 
problems they were having in terms of receiving inconsistent 
quality review.
    Mr. Lamborn. Mr. Soto, I have the letter here that was 
given to you when you were separated, when you were discharged, 
and you've provided it to the committee.
    There doesn't seem to be a reason given for you being let 
go.
    Mr. Soto. Correct, sir.
    Mr. Lamborn. How often is it that the VA fires people, 
number one, for any cause, and then, number two, for without 
giving a cause?
    Mr. Soto. Being involved in the union, I would say I can't 
say, I can't answer that question.
    Mr. Lamborn. Have you ever seen that happen?
    Mr. Soto. I have not heard of somebody being told their 
services are no longer required.
    Mr. Lamborn. Without a reason.
    Mr. Soto. Yes, sir.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Brown, you are recognized for 5 minutes.
    Ms. Brown. Thank you, Mr. Soto. Right here. Hi. I am 
Corrine Brown.
    I am from Florida and, of course, I'm very familiar with 
the system in St. Pete. And you all process most of the case 
work in Florida. And it really has improved.
    We were having so much kickback, you know, we processed it 
and it wasn't going through. So I think it's very important to 
have goals.
    How long did you work at the center in St. Pete?
    Mr. Soto. Four years.
    Ms. Brown. You worked there for 4 years.
    Have you seen an improvement in the system in the 4 years?
    Mr. Soto. That's a difficult question to answer because----
    Ms. Brown. Well, what's the number of cases that you was 
processing?
    Because, I mean, you know, for a long time we were having 
serious problems because you all process most of the cases in 
Florida and we have a very high number of cases in Florida.
    Mr. Soto. Yes. I did some studies, and part of those 
studies that--I just mentioned. And, essentially, we haven't 
corrected errors that have been occurring in the past 3 years.
    No matter what type of training we're doing, it's not 
effective. We're repeating the same errors over and over again. 
So I would tend to say, in answer to your question, that, no, 
we haven't improved.
    Ms. Brown. You haven't improved.
    Mr. Soto. We have not.
    Ms. Brown. And June 30th was your termination date?
    Mr. Soto. Yes.
    Ms. Brown. And without cause.
    Mr. Soto. I was terminated because my services were no 
longer required. I'm not sure what that means.
    Ms. Brown. I'm not either. But I'm going to find out.
    Mr. Robinson, thank you again for your service.
    You indicated that you all could do a better job if you had 
better leadership at the top. I don't quite understand what 
that means.
    When you say ``the top,'' are you talking about Congress? 
When you say ``the top,'' what exactly are you talking about?
    Because I've worked with every VA secretary we've had, and 
some leave a lot to desire. But I certainly think the last VA 
secretary did a lot, based on what he had to work with, with 
the Congress.
    Mr. Robinson. When I talk about ``the top,'' I'm talking 
about our leadership. And what--sometimes we don't understand 
that employees are looking for leaders to lead them.
    We've lived through about 9 years with a director at the 
local level. He's no longer with us. The things that he did and 
the things that happened in my office I began to report in 2006 
to the VA chain of command. Because being military--ex-
military, you take things through the chain of command.
    Ms. Brown. Yes, sir.
    Mr. Robinson. So for--I guess from 2006 to when he retired, 
I reported, sent letters through the VA chain of command, and 
the things never ceased.
    Ms. Brown. So it hasn't been working like the military.
    Mr. Robinson. It's not the military. It's about leadership. 
Being a retired first sergeant, I think I know a little about 
leadership.
    It was not the director who was the problem. It was the 
system that allowed him to do what he did.
    So when I talk about leadership at the top, when you have a 
problem and you allow it to go on, even to the point of 
discrediting the President of the United States by placing his 
photo in an obscure place--in a place where no one could see, 
in a little photo like this--when that happens, I know that 
there's not an accountability issue.
    Ms. Brown. Ms. Ruell, you indicated that you wanted--that 
you think paper works best. Now, we've said over and over again 
we don't want paper, we want the computer systems.
    I mean, we want the VA to get with the modern system. Even 
though I'm not there yet, we want the VA to get there. And, of 
course, that's going to take change, working with the 
employees.
    What would you recommend? I mean, because, you know, you 
cannot process the number of cases and caseloads that need to 
be processed by hand.
    Ms. Ruell. I totally agree. The problem is the computer 
systems at the VA are outdated and they don't work correctly. 
So I would rather use a paper folder than use the computer 
systems that the VA has to offer.
    The VA had computer systems like--if maybe Apple designed 
the computer systems instead of whoever is, it might work a 
little better. I can do more on my iPhone faster than I can 
with----
    Ms. Brown. We have given them money to upgrade. I mean, 
that is unacceptable. We have discussed it over and over and 
over again. We've got to take them into the next century. We 
have got to have the new technology.
    Ms. Ruell. I totally agree with you. But if you came and 
sat next to one of us for a day and watched us do our job, you 
would see probably why there's backlog.
    We have to click on a large amount of documents. There's 
sometimes hundreds that you need to look at in the computer.
    When you click to open one, sometimes it doesn't open. 
Sometimes the wrong person's information is in the folder and, 
if you care, you need to take time and put it in the right 
folder.
    Sometimes the computer systems go down and you're not sure 
when they're going to go back up again. So when everything's 
computerized, you have thousands of employees sitting there and 
they can't do their job because the only way you can process a 
claim is with all of the information.
    Ms. Brown. Well, I'm certain this is something we have got 
to work on. Little babies, 2-year-olds, can work the computer 
system. We've got to be able to move to the next level with the 
VA.
    Thank you. And I yield back the balance of my time.
    The Chairman. Thank you, Ms. Brown.
    Mr. Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    And thank you for the testimony and thank you for your 
courage.
    Mr. Soto, your testimony spoke to the matter that 
production and accuracy measures create hostility in the 
workplace for employees, quality reviewers, and management.
    Could you relate how management's focus on these metrics is 
affecting the service-connected veteran who has a claim pending 
in the regional office.
    Mr. Soto. The aim is production. There, for lack of a 
better word, they want the numbers, and for whatever reason, 
the number seems to validate what they're doing, it tends to 
show that, I don't see it, but I gather for them essentially 
they're progressing in their backlog fight, and what that means 
is that they start pushing and bullying employees into simply 
following changes in rules that sometimes may not serve the 
veteran.
    And one of the things I saw, for example, and there are 
many, of course, is for whatever reason, to ensure that we 
clear the backlog, we've begun shortening the evidence 
collection period. Our decisions are based on evidence of 
record. Anyone that's an attorney knows that if there's nothing 
of record, well, we deny the claim. So in essence, what I've 
seen is shorter duty to assist periods, shorter periods to 
gather evidence from private providers, and that seems to be 
how we've been moving, which shifts the burden to the veteran 
to prove his claim.
    Mr. Bilirakis. Thank you very much.
    Next question for the panel: There's been a lot of 
discussion in your testimony about how VBA manipulates data by 
using certain end points, which are not tracked as part of what 
VBA considers backlog.
    First of all, define, whoever would like to go first, 
define end products and then--end products instead of--excuse 
me, I said end points, ends products and how VBA manipulates 
their use and what consequences this has on the veteran.
    Mr. Robinson. An end product is a three-digit code that 
identifies what type of claim that we have. For example, if I 
say a 110, that represents an original claim with less than 
eight issues. If I say an 020, that represents a claim that the 
veteran has submitted after he has submitted an original claim. 
You only get one original claim in your lifetime. Anything else 
that you submit gets a different code depending on what type it 
is.
    Mr. Bilirakis. Thank you.
    Mr. Robinson. If you use the end product 930, which in most 
cases refer to rating decisions that were prematurely decided, 
if you look at the Monday Morning report, a 930 is not included 
in the rating bundle. So the 930's, which the majority of them, 
are claims that were rated prematurely, they're not counted in 
this inventory of backlog claims. That's just one example.
    Mr. Bilirakis. Thank you. Anyone else wish to comment?
    Mr. Soto. I agree with him. I don't have as much experience 
with that sort of processing, because I work the rater side, 
but I agree with this gentleman.
    Mr. Bilirakis. Thank you very much.
    A question for the panel, we'll start again with Mr. Soto: 
Can the Acting Secretary, Mr. Gibson, succeed with this current 
VBA leadership or should we hold the current VBA leadership 
accountable and start with the new leadership?
    Mr. Soto, yes or no? Can the acting VA secretary, Mr. 
Gibson, succeed with this leadership?
    Mr. Soto. My answer would have to be, and I apologize, I 
don't know. They've been in office for some time now. If the 
problems are still persisting, it's time for a change.
    Mr. Bilirakis. Thank you.
    Mr. Soto. That's my opinion.
    Mr. Bilirakis. Yes. Thank you.
    Mr. Robinson. No.
    Mr. Bilirakis. Ma'am, would you like to respond?
    Ms. Ruell. I think that the people under the level of the 
Under Secretary are letting the Under Secretary down. I don't 
think they're being truthful to the Under Secretary about the 
regional offices. So I feel like somebody is responsible for 
the VA and all of its problems, but in my office, there's far 
too many people to hold accountable.
    Mr. Bilirakis. Thank you very much for your testimony.
    And I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Takano, you're recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    So Mr. Soto, I understand you had worked at this office for 
4 years. Is that correct?
    Mr. Soto. Yes, sir.
    Mr. Takano. Had you served the VA in this capacity prior to 
other offices?
    Mr. Soto. Yes, but I prefer not to discuss that, please.
    Mr. Takano. I just want to get sense of how long you've 
been serving in the VA. That's kind of----
    Mr. Soto. I've been a Government employee for about over 15 
years.
    Mr. Takano. 15 years. And all within the VA?
    Mr. Soto. No.
    Mr. Takano. Okay. So how long have you been at the VA in 
total?
    Mr. Soto. About, I would say over 10 years.
    Mr. Takano. Ten years? And Mr. Robinson? Similar question. 
I mean, you've been at this office for 9 years. Have you served 
at the VA in other capacities or in a similar fashion longer?
    Mr. Robinson. I've been in the Columbia VRO office for 18 
years.
    Mr. Takano. Eighteen years?
    Mr. Robinson. Yes, sir.
    Mr. Takano. And the past 9 years, you've been in this 
current capacity you are now?
    Mr. Robinson. In the past 9 years, yes.
    Mr. Takano. Okay. And Ms. Ruell?
    Ms. Ruell. I've worked at the VA for 7 years this August 
20th.
    Mr. Takano. And let's just start with you, Ms. Ruell. Has 
this situation with these narrow metrics and this management 
regimen, which has focused on certain outcomes and which can 
only be described as sort of perverse incentives, have they 
existed that entire 7 years that you were in the current 
capacity you are now?
    Ms. Ruell. Yes.
    Mr. Takano. So you know nothing other than the current--
than the way that things have been happening at the VA? There 
wasn't a time that was better?
    Ms. Ruell. No. Now, our office used to have--we started 
doing original claims a few years after I got there. So, 
Philadelphia didn't have jurisdiction of as many things as we 
do right now, so when I first started there, we had a lower 
volume of claims, and I believe we were able to give more time 
to the claims. We didn't have to know how to do so many 
different types of claims. Because each claim has so many 
different laws and rules that go with it, when you work at a 
regional office, if you have 15 or 20 types of claims, it's 
kind of being a lawyer with 15 or 20 specialties.
    So, the more claims that Philadelphia has, I've noticed 
that it's much harder to know more laws for all these types of 
claims.
    Mr. Takano. Is it fair to say they grew in complexity as 
far as--and variety since you got there? Is that what you're 
trying to tell us?
    Ms. Ruell. I believe that you can never figure out how 
complex a claim is. Sometimes they think this is a small little 
folder, so this claim should be fast. Every claim has unique 
circumstances, but because each veteran's service 
representative is responsible for doing so many types of claims 
and doing them perfect, the more that we inherited and the more 
types of claims we're expected to do, the less accurate I 
believe it is.
    Mr. Takano. Now, we've heard a lot about performance 
bonuses in the VA maybe motivating some of this behavior. Can 
you tell me something about what kind of performance bonuses 
were available to employees at your grade level?
    Ms. Ruell. At our grade level, you had to achieve a rating 
higher than fully successful to get a bonus. So if you received 
an outstanding or an excellent, you got a small bonus, a couple 
hundred dollars.
    Mr. Takano. For the year or for the quarter?
    Ms. Ruell. Yeah. For the whole year.
    Mr. Takano. For the entire year, it was a couple. So as 
much as--what was at stake for employees at your level was 
maybe a couple hundred dollars?
    Ms. Ruell. Yep.
    Mr. Takano. Mr. Robinson, can you answer that same 
question?
    Mr. Robinson. It depends on what--in my office, the bonuses 
were up to, like, $2,000, over $2,000 and they had different 
types--they had three ways that you could get a bonus. It was 
production. They had a numbering system one to three. If you 
got a three, or you got a nine, you would get a higher bonus, 
and you would get three for production, three for accuracy and 
three for what they called organizational support. It was 
just--but it was over $2,000 that----
    Mr. Takano. So up to $2,000 was at stake for employees in 
your----
    Mr. Robinson. And it was mostly--it was based on grade, so 
the higher your grade, the more money you got.
    Mr. Takano. Okay. Mr. Soto?
    Mr. Soto. Similar. We had fully successful, highly 
successful, I believe, and outstanding. They are supposed to be 
given based on some sort of point structure. You achieve a 
certain amount of points for production or accuracy and you 
receive a certain amount of bonus.
    We pulled a lot of appraisals to see how they were 
distributed, and what we found was that there seems to have 
been some sort of curve in terms of application of the 
standards at our regional office. The lower level employees 
that did not achieve points were declared fully successful 
based on the unique station challenge. There were a few 
employees that were given outstanding without reaching the 
outstanding criteria based on unique station challenge and the 
middle group that made their production and accuracy were 
simply lumped in with the lower group and just made fully 
successful, but no use in the appraisal of unique station 
challenge at that time.
    Mr. Takano. Well, thank you.
    Mr. Chairman, my time has definitely run out. Thank you.
    The Chairman. Thank you.
    Mr. Runyon, you're recognized for 5 minutes.
    Mr. Runyon. Thank you, Chairman.
    First question is for Ms. Ruell. In the IG's testimony, 
it's reported that there were 32,000 IRIS inquiries that went 
without a response. And IRIS is the precursor to eBenefits. Can 
you elaborate, I know Mr. Cook would love this, elaborate on a 
little of what that is and why this happened?
    Ms. Ruell. There are different ways to file claims at the 
VA. One way to inquire about or file a claim is through a 
program called IRIS. You can email a claim in, you can call a 
claim in on the phone. Then a little report is generated and we 
call it an IRIS. You are supposed to read these and you're 
supposed to figure out what the claimant needs and address it.
    At our office, somebody reported to me a couple months ago 
that we weren't doing these at all and there were 32,000 
pending. Why that's a concern to me is, some of those are dates 
of claims for benefits. You can call in, and that can be called 
an informal claim when you would like to apply to benefits. So 
if we're not processing the IRIS's, we don't know the real data 
claim for some of those people. Not everybody calls in for 
IRIS's and asks the status of their claims. Some people use 
those to file a claim.
    Mr. Runyon. Thank you.
    And to follow up, I know Ms. Ruell already testified to 
this, but Mr. Robinson, Mr. Soto, did the staffs at Columbia 
and St. Pete also violate guidance provided in the Fast Letter 
1310?
    Mr. Robinson. I don't have an incident that it did.
    Mr. Runyon. Okay.
    Mr. Robinson. I don't know.
    Mr. Soto. Yeah. Same here. I'm not sure.
    Mr. Runyon. Okay. Go back to Ms. Ruell. Talk a little bit 
about duplicate payments, and I know they say they don't happen 
all the time, but can you give an example on how duplicate 
payments happen and what a problem this is, because we always 
used to say it's fixed, it's fixed, and obviously it's not, per 
some of your testimony?
    Ms. Ruell. There's many ways at the VA that you can receive 
a duplicate payment. Prior to a certain year, veterans stopped 
receiving service numbers. A lot of the veterans from certain 
wartime periods are in our system, called BIRLS, with a service 
number.
    When that same veteran or one of their survivors submits a 
claim, they usually put the veteran's Social Security Number on 
the correspondence. When we put a claim under control and 
create and end product, we then create a duplicate record for 
that veteran. So that person will have the same name, but they 
will have different numbers, one service number and one claim 
number. That can cause that veteran to be paid twice.
    There are other ways that the double payments happen. The 
VETSNET operating system that pays out the benefits, 
everybody's looked at by something called a personal 
identification number, it's just a series of numbers, and 
that's how the benefits are paid, based on this number. If you 
apply for benefits and we put your claim under control with 
just your name, and you didn't provide your Social Security 
Number because you submitted an informal claim and you weren't 
aware that you had to, we'll put a claim under control with a 
Mary Smith and no Social Security Number. When Mary Smith then 
comes in and provides us her Social Security Number, we then 
put a claim under control with her Social Security Number. Our 
computer system has two different PID numbers for that Mary 
Smith. Then she can get two checks. I had worked on claims 
where one claimant got five DIC checks per month.
    The VA will tell you that the problem is corrected and that 
they have data mining programs to find these duplicate 
payments. I would disagree. Usually every week I find some. I 
stopped reporting them, because for 2 years I collected them, I 
reported them, and nothing was changed. I really cared about 
it, because if we have the wrong Social Security number for a 
claimant, that affects other benefits for that person through 
Government matching programs. We had a case where someone tried 
to apply for food stamps. Because we had the wrong Social 
Security number for that person, it looked like they were 
getting money from the VA, and they weren't.
    So the systems have misinformation. It's causing them to 
pay people more than once, and the VA will say we have a lot of 
duplicate records, but they're not all duplicate payments, but 
unfortunately every time someone submits a claim, if they have 
a duplicate record, they can be paid twice.
    Mr. Runyon. Thank you.
    Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Brownley, you're recognized for 5 minutes.
    Ms. Brownley. Thank you, Mr. Chairman. And thank you all 
for being here with us this evening.
    Mr. Soto, I have to say, I'm just shocked to hear your 
story about being laid off on June 30th and we've had a lot of 
committee hearings over the course of the last month and a 
half, 2 months. We've talked a lot about the need for the VA to 
improve and to become a good, positive organization. There is 
going to have to be real cultural change. We've talked a lot 
about the VHA.
    I wanted to ask you and the other panelists, have you felt 
any sense of change coming down from the top around the work 
environment, how we want to improve, how we want to encourage 
our employees, how we must serve our veterans, we must be a 
veteran centered operation? Have you felt any of that change in 
culture in your department?
    Mr. Soto. No.
    Ms. Brownley. Mr. Robinson.
    Mr. Robinson. I have a new director now, so I'm not going 
to lump all the directors in one pool, because I don't like to 
paint with that kind of brush. She's new. We have been able to 
get along and work together, but it's a culture----
    Ms. Brownley. Up until that point, then.
    Mr. Robinson. Huh?
    Ms. Brownley. Can you answer up until the point of the----
    Mr. Robinson. Up until that point, no. It was awful. Okay? 
Employees suffered. And the reason it disturbs me, that the VA 
chain of command knew it and allowed it to be.
    Ms. Brownley. Thank you, Mr. Robinson.
    And Ms. Ruell, have you felt of recent any change?
    Ms. Ruell. No. Actually I believe things are getting worse. 
I took it upon myself to help employees that are targeted by 
management, because I had gone to law school. A lot of 
employees are petrified to stand up for themselves, because 
they see what happens to me and everybody else, and they say, I 
don't want to be treated like that at work, I have a family to 
feed, I can't afford to be fired.
    So I promised them that I would spend every free moment I 
have and represent them against the agency if they need to file 
a claim for discrimination. I feel like the agency has let me 
down, because they promised that you can come into work and 
have a discrimination-free workplace, and that is not the case.
    And I have spent 2 years helping employees get their jobs 
back, because the VA is not doing it, and it's only getting 
worse. I get probably four to five calls a week begging for my 
help. And, honestly, there's not a lawyer out there that will 
help you. At that early stage, you would have to pay them 15 to 
$20,000 dollars. Most of the employees don't have that money.
    So if something doesn't change soon, I don't know if 
there's going to be any good workers left in the VA.
    Ms. Brownley. Thank you.
    I wanted to ask all three of you as well, what is your 
reaction when the higher-ups talk about notable progress in 
reducing the claims backlog? And the ranking member mentioned 
the numbers in his opening comments, 630,000 plus now down to 
270,000.
    What is your reaction to that? Do you believe that, that 
progress has been made? Do you believe those are accurate 
numbers? Ms. Ruell?
    Ms. Ruell. No.
    Ms. Brownley. Mr. Robinson.
    Mr. Robinson. No, because I think we count numbers and 
we're not looking--we don't analyze the numbers that we're 
counting. If you, you know, the VA says, we say, I like to 
say--because this is my organization as well. We say that the 
backlog is down 50 percent, but if you look at the number, it's 
not down 50 percent. Okay, so the numbers manipulation--we can 
manipulate numbers. When I see non-rating--when I see 
dependency claims, not non, but dependency claims, over 
200,000, okay, when I see appeals increase to over 27, I mean, 
279,000, these are veterans. I mean, somebody would have to be 
asleep at the wheel not to realize that these things were going 
up.
    So you can look at numbers any way you want to, but I'll 
just give you for an example what I've seen during this time. 
I've seen failed initiatives, such as contracting out of claim 
development and the IBM created fast track for processing Agent 
Orange claims. I saw failure there.
    I saw ad hoc procedures, the oldest claim initiative, all 
hands on deck, to include suspending quality reviews, 
provisional ratings, unlimited overtime and 20 hours mandatory. 
I've seen that we have refresher training. You know, we've shut 
down regional offices.
    We had 30 percent of the workforce that came back to the 
workforce. That should have been a plus for us. We've had 
changes in performance standards twice. We've changed the 
Monday Morning report three times. We have excluded the 930's 
from the rating bundle. We have used EP 400's, which is 
identified in the Monday Morning report as for correspondence, 
we've changed it and we have used that to request evidence. 
So----
    Ms. Brownley. Mr. Robinson, I think my time is up. I----
    Mr. Robinson. I've seen all these things, so, no.
    Ms. Brownley. Thank you. Thank you.
    And my time is up and I yield back.
    The Chairman. Thank you, Mrs. Brownley.
    Dr. Benishek, you're recognized for 5 minutes.
    Dr. Benishek. Thank you, Mr. Chairman.
    I'd like to thank you all for being here today and for your 
compelling testimony. And although I can't thank you for all 
America's veterans, but I'm sure that American's veterans thank 
you for being here today, too.
    I sort of agree with Ms. Brownley there. You know, we've 
been told by the VA that the backlog has been worked on and 
really making progress, and from what you're telling me here 
today, that's all baloney, and that they're all concerned about 
numbers and not veterans and that you--changing the date of a 
claim is common practice to reduce the backlog. It's absolutely 
unbelievable to me that this is going on and nobody seems to be 
responsible for it. So I'm hoping that we will make progress 
through these hearings to make that actually happen.
    I have a question for you, and maybe each of you. Name the 
top two things that you would change if you were in charge, Ms. 
Ruell, to make things better. I mean, how do we change the 
culture here to make it better? And I understand these rules 
for bonuses is a big problem, but just tell me what you think 
if you were in charge of the whole thing, what would you do? 
Two things, and I'll ask everyone else.
    Ms. Ruell. I think that if management does something wrong, 
that they need to be held accountable. They have no problem 
holding an employee accountable for doing something minor and 
firing them. Many managers at my office have illegally fired 
people over and over again. They should have to pay their legal 
fees should they be found to be guilty of an illegal firing. 
They use regional counsel as their own private attorneys, and 
I'm spending my own time representing employees because they 
can't afford an attorney. So I feel like the biggest problem at 
the Department of Veterans Affairs is accountability for the 
people in middle and upper management.
    Dr. Benishek. It's my been my experience, too, that you can 
never find out the name of someone who implemented a policy. So 
I completely agree with you there.
    Mr. Robinson, what would your top two things be if you were 
in charge to make this culture better?
    Mr. Robinson. Make the veteran the object of our business. 
The veteran comes first. Okay.
    Dr. Benishek. Not the metric, right?
    Mr. Robinson. Right. The veterans come first and the 
employees need to be given effective tools, training and 
leadership, and we can't do that without leadership.
    Dr. Benishek. Thank you, Mr. Robinson.
    Mr. Soto.
    Mr. Soto. Yeah, I agree. We have to establish policies that 
place the veteran first before numbers, and secondly, we have 
to completely think about restructuring the training programs 
for raters and VSR's, and it's time for them to change.
    Dr. Benishek. Let me ask another question. For our men and 
women returning home from the service, what would you recommend 
to them in order to get their claim processed? What should they 
do? Is there something that anyone should do when they get out 
of the service to make any kind of a claim go better? Do you 
have any ideas on that?
    Ms. Ruell. I think one of the main problems is what the VA 
expects as a complete application is different than what a 
normal, average, everyday person thinks is a completed 
application.
    The VA has rules, and at least in my office, that if they 
ask you how much interest you received on an income-based 
benefit and you put zero, we can't take zero as an answer. We 
have to ask you, did you really mean zero. So if--I know. So 
there's some really strange rules that we have to follow at the 
VA that an average person who fills out an application would 
never know, and the only real way to get your claim expedited 
anymore is to go through a congressperson or to claim that 
you're about to call the media. Other than that, you'll have to 
wait in line like everybody else and hope that we get to your 
claim in time.
    Dr. Benishek. Mr. Robinson, any ideas there?
    Mr. Robinson. We have to educate veterans on the process, 
and that means we have to get out there and do outreach, real 
outreach talking to the veteran and explaining the process, 
because we get a lot of documents that we don't even need. You 
know, the veteran will go to his doctor, he's claiming a knee 
condition, he'll go to the doctor and he'll send in all these 
documents pertaining to everything other--everything and the 
knee. If we can simplify to get veterans to file medical 
evidence that only pertains to the things they're claiming, I 
think that would be a great help in just educating the veteran 
in the process. I think that's what--we'll make a lot of money 
doing that, educating veterans.
    Dr. Benishek. Thank you.
    I'm out of time, but I truly appreciate your being here 
today. Thanks.
    The Chairman. Ms. Kirkpatrick, you're recognized for 5 
minutes.
    Ms. Kirkpatrick. Thank you, Mr. Chairman.
    You know, this culture of intimidation and retaliation has 
got to stop. And, you know, and I recently introduced H.R. 
5054, which is the VA Whistleblower and Patient Protection Act, 
because I want to make sure that there aren't reprisals against 
the whistleblowers and I thank you for being here today, and we 
wouldn't have this information without your courage and you're 
commitment to our veterans. And that is really what it's about, 
is taking care of our veterans.
    But I'd like to know from each one of you if when you 
started at the VA, were you given a policy for airing 
grievances or filing complaints or anything that you thought 
was not going on right? Is there a policy that directs you how 
to do that?
    Start with you, Mr. Soto.
    Mr. Soto. We're all told to review, I'll put it that way, 
this thing called the No Fear Act, and we're told essentially 
not to have fear, and it does not work.
    Ms. Kirkpatrick. Mr. Robinson?
    Mr. Robinson. I came to the VA 18 years ago, and it was a 
whole lot different then, but we didn't--I didn't get anything 
at that time. But like he said, we have to read this policy or 
whatever, but that's about it.
    Ms. Kirkpatrick. Ms. Ruell.
    Ms. Ruell. Similarly in our office, once a year we get the 
annual whistleblower, no retaliation tolerated type email. 
That's exactly why I started reporting the duplicate payments, 
because I read that and I thought that's what you were supposed 
to do. I learned----
    Ms. Kirkpatrick. But there's no defined mechanism for 
filing a grievance or a complaint within the VA?
    Ms. Ruell. Well, we do have a union, and you can file a 
union grievance, however, in my first years, that's what I 
tried to do, and it took two and a half years to get an 
admonishment and a suspension off my record. When you go 
through the grievance process, the decisionmaker in my case 
were the people that punished me, so I quickly realized that 
I'm not going to go through the grievance process, because why 
would I want a biased decisionmaker.
    And I then tried the EEO avenue. Unfortunately, that takes 
a year and a half to even possibly get a court date, sometimes 
now it's up to 3 years. So when you're being tormented at work 
every day, that is not a solution. You can report to the Office 
of Special Counsel, but as we all know, they accept about 5 
percent of the cases.
    So I feel like there's laws out there to protect us. I was 
fooled by those laws and tried to use them, and they have all 
let me down. None of them have protected me. It's kind of like 
if you say that your husband or wife is abusing you, and the 
police give you a piece of paper that says you need to stay 
away. That piece of paper does not protect you from getting 
beat up by your spouse.
    Ms. Kirkpatrick. Well, you make a good point, and I have to 
say, I mean, I'm from Arizona and I'm a former prosector, and 
we had a really difficult time getting people to report cases 
of child abuse and neglect until we had an anonymous hotline, 
and the same with elder abuse and one of my thoughts is would 
it, and I'd like to hear from you.
    Would it be beneficial to have an anonymous hotline that 
you could call, not just for employees, but also for patients, 
because I've heard from patients who have been treated really 
poorly, not by the medical professionals, but by the 
administrative staff, a hotline outside the system that goes to 
somebody outside that system to address it and look into it. 
I'd like to know your thoughts about that.
    Maybe start with you, Ms. Ruell, and we'll go the other 
direction.
    Ms. Ruell. I think that would be a good start, however, the 
people that you need to report to have to be far removed from 
the people involved. I noticed that people who work in the same 
building gain relationships with others and they become friends 
with people and the EEO people, they know who I am from helping 
all these employees, so I realized that if there was someone 
outside the agency that has nothing to do with the VA at all 
and that listened and cared, that would be a good start, but I 
feel like the answer is holding the managers accountable when 
they do this to people.
    I can't tell you how many people have gotten their firings 
reversed at my office, and the people are still doing the same 
acts. So I can help 20 people a month, but if the same person 
is still in power, I'm just going to get more people to help.
    Ms. Kirkpatrick. Yeah. I see your point.
    Mr. Robinson.
    Mr. Robinson. I agree 100 percent. I mean, if employees in 
our own organization can't expect its leaders to protect them, 
that's the problem. We have to protect our employees and like I 
said, the Secretary, the Acting Secretary said that he's going 
to do that. So now we're going to see whether he does it or 
not----
    Ms. Kirkpatrick. Right.
    Mr. Robinson [continuing]. Because I'm going to be watching 
to make sure that we are doing what we say.
    Ms. Kirkpatrick. Mr. Soto, I have 5 seconds.
    Mr. Soto. I'd like to see, similar to the EEO process with 
the right to sue letter, some sort of individual right of 
action against the managers so that we can take them to court 
and get legal fees for it.
    Ms. Kirkpatrick. Thank you.
    My time's expired. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Coffman, you're recognized for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    And I just want to thank you all for your courage in coming 
forward. I think without the whistleblowers, the employees at 
the VA who really care about meeting our Nation's obligations 
to the men and women that have served this country, without you 
all, we wouldn't have any idea really what the magnitude of the 
problems within the Veterans Administration.
    One question, but let me say first that, I think there's a 
real emotional component to your stories in the way that you're 
treated once you're identified as a whistleblower within the 
organization, and I think you've all kind of expressed that.
    Ms. Ruell, I think you gave some very specific examples 
about how tough it is, I think, to go into work every day when 
things like that happen to you. We talked about your car being 
damaged and the other things that had occurred to you, but one 
question that I have in the manner in which all of you were 
retaliated against, are you members of the union and what was 
the role of the union in terms of protecting the employees in 
your specific case? Let me start with Mr. Soto, could you talk 
to that for a second? What recourse did you have using the 
organization that, I assume you're a member of?
    Mr. Soto. Yes.
    Mr. Coffman. Okay. Were a member of.
    Mr. Soto. I guess essentially, and we're still trying to 
figure out what happened, but what I believe was that it was 
retaliation for the whistleblowing done through various 
processes. We have a process of claims processing, and there's 
no other way to address them, including the quality issues, 
other than through whatever mechanism there is and we found 
ourselves in the strangest situation where we had to rely on 
the union or legal to kind of help veterans, and that brought 
conflict.
    Mr. Coffman. Okay. Sir.
    Mr. Robinson. Well, I'm actually the president of Local 
520.
    Mr. Coffman. Okay.
    Mr. Robinson. And we've been, as a matter of fact, in June 
of 2012, we had a rally to bring to attention to what was going 
on, and the VA Police Department had cameras and video trying 
to intimidate us. So, can I say any more?
    Mr. Coffman. Sure. Ms. Ruell, in your testimony, you talked 
about as a lawyer that in your free time, that you were 
defending fellow employees that were, for one reason or another 
were having difficulties with VA leadership. Could you speak to 
that and could you speak to what representation or access to 
representation they would have had from the union as well?
    Ms. Ruell. The main problem with the union is that it takes 
forever to get anything resolved in my office. Like I mentioned 
before, I had an admonishment on my record, because I didn't 
have anyone to watch my child and was ordered to do mandatory 
overtime, and I wasn't able to do it all for the month, so I 
got written up. The following month, I was told I was 
fraudulent for not putting in unmeasured time, and I was 
suspended.
    I went to the union for help, and two and a half years 
later, my record was reversed by the director that just left 
our office and had he not been there, Robert McKendrick, I 
believe my record would still have an admonishment and a 
suspension on it.
    The problem is when you go through the union and you file a 
grievance, the decisionmaker are people that work in the 
agency. So I have taken matters into my own hands. I represent 
myself and I help anyone else that wants me to represent them, 
because unfortunately, people don't have two and a half years 
to wait, and the union decides whether or not to take your case 
to arbitration. So you could lose your grievance, and if they 
don't vote to take you to arbitration, you're stuck with 
whatever the agency has done to you.
    Mr. Coffman. One question I have on the claims process, for 
all of you if you can answer quickly, because I'm running out 
of time, is that it's my understanding that the claims 
processes are that the one who does that within the VA is kind 
of a generalist, that you do all kinds of claims and would it 
expedite the process if people became specialized in a given 
area such as, you know, somebody did Agent Orange and somebody 
did PTSD? Would that help move the process along a little 
faster?
    Ms. Ruell, we'll start with you.
    Ms. Ruell. Definitely. Would you want to go to an ear, nose 
and throat doctor for a heart surgery?
    Mr. Coffman. Okay. Yes.
    Mr. Robinson. We tried that before. I mean, we've kicked 
around all kinds of things. The most important thing is that 
when the claim comes in, we need to do an analysis of the 
claim, what it needs, and get it done. It happened in the past, 
it can happen again.
    Mr. Coffman. Mr. Soto.
    Mr. Soto. Yes. We tried that with the Nehmer claims, and we 
got most of the Nehmer claims through, and that sort of 
specialization.
    Mr. Coffman. Faster.
    Mr. Soto. Yes.
    Mr. Coffman. Thank you.
    Mr. Chairman. I yield back.
    The Chairman. Dr. Ruiz, you're recognized for 5 minutes.
    Dr. Ruiz. Thank you, Mr. Chairman, for holding this 
hearing, and thank you to the panelists for taking the time and 
for your participation.
    We must focus on disability claims and we must also provide 
the full range of services on which our veterans depend. 
Improving the VBA's efficiency and accuracy in handling the 
growing appeals backlog must also be a top priority.
    I'm committed to addressing the appeals backlog as well and 
helping veterans resolve their claims timely and accurately. 
I've introduced the Veterans Access to Speedy Review Act, which 
would increase the use of video conferencing during the appeals 
process as a substitute for the veteran being there in person 
if he or she chooses not to or if it's cost prohibitive. This 
bill aims to reduce the appeals backlog by making the VA 
appeals process as efficient as possible, but more must be 
done. Our veterans and their families cannot afford further 
delays in the handling of their claims or appeals.
    So my question is more on the practical, pragmatic steps to 
streamline the claims process without diverting other essential 
resources. Mr. Robinson, you said in your opening statement 
that employees are craving tools, that they want tools to help 
them do a good job. What tools do you suggest?
    Mr. Robinson. Well, VBMS is on us now. I mean, we have no 
choice. It's there, it's not going to go away. We just have to 
improve it as we go along. I mean, if you put something out and 
it doesn't work the way it should and then you come up with 
something to try to alleviate the problem, but that brings 
about another problem. Okay. So get it right the first time.
    You know, don't give me a--don't take away my chainsaw and 
give me a new chainsaw and tell me that the chainsaw is faster, 
but then when I go and cut the tree down, the chainsaw gets 
stuck, so I have to pull it out, try it again, and then now 
you're going to get on me for not cutting the tree down faster. 
Okay?
    So we have tools out there, but we need to get tools that 
work in the beginning. That means it has to be tested, it has 
to be tried. Okay?
    Dr. Ruiz. If you were to plan a training session or a 
system of training for the employees, what would you include 
there that you're not receiving now?
    Mr. Robinson. We have a training, I guess, Web site with 
all the things that we need. It's not that we don't have lesson 
plans and all this stuff. It's having trainers that can train. 
There's a big difference, and I think that's the problem. 
Training people--we talked about specialization. Well, when you 
specialize people, you take away their ability to learn the 
whole process. So it's training--it's having quality trainers 
to train. That's the problem.
    Dr. Ruiz. Okay.
    And, Ms. Ruell, you mentioned that the technology is very 
outdated. Do you have any suggestions? Have you seen or heard 
of other software technologies that you would recommend the 
committee to look at?
    Ms. Ruell. I just know that when I file my tax return every 
year, it gets done in a couple weeks, and the questions that 
they ask me aren't that different than the VA pension program.
    Dr. Ruiz. So who do you use?
    Ms. Ruell. Turbo Tax.
    Dr. Ruiz. All right.
    Ms. Ruell. But I know that there are other agencies, that 
my mom applied for Social Security and she got her benefits 
quickly. So I don't believe that with as many employees the VA 
has that we should have these problems.
    In my office, we don't have enough printers. If I have to 
make a photocopy, I have to walk and hope that I find one that 
works. If a veteran needs their application mailed to them 
because it's incomplete, it's hard to find a photocopier in my 
office to just copy the application to finish that claim. Some 
days all the printers are down. So it is--there are employees 
that come to me and say, I've been put on a PIP because I 
didn't get my points, but they spent an hour trying to print 
something else. So we could start with simple tools in my 
office.
    Dr. Ruiz. One last question. I have 15 seconds. How would 
you apply this to a veterans-centered process?
    Ms. Ruell. I think if a veteran had a place to go and it 
was a one-stop shop, and they looked at their claim--we looked 
at their claim, and if something was missing on the 
application, they had to come back when it was complete; if 
they had that step completed, they moved to another area in 
this one-stop shop, kind of like when you get your oil changed, 
you have choices, and they could get rated on the spot. If they 
needed more things, then they could come back another day, but 
that would hold their spot.
    We don't have any communication with veterans. We're 
discouraged from calling them on the phone and explaining what 
they need, because that takes time, and there's no 
communication anymore with the people we're supposed to help.
    So I think if we did that, it would take a little longer to 
do it the first time, but it would be done right and there 
wouldn't be so much rework.
    Dr. Ruiz. I think that's an excellent suggestion to have a 
comprehensive one-stop shop so they don't have to run all over 
the place, and also the frequent feedback.
    Thank you very much for your time. And thank you for your 
service, Mr. Robinson.
    I yield back my time.
    The Chairman. Thank you, Doctor.
    Dr. Wenstrup, you're recognized for 5 minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman. And thank all of you 
for being here tonight.
    You know, when I hear about the Fast Letters and see the 
email that we saw tonight, it's just beyond me how anyone could 
look at that and say, yes, this is a good idea, this is what 
we're going to do, that's a great idea.
    Did you all get those emails that we saw tonight? Did you 
receive those emails with those types of instructions on how to 
process claims and keep them moving along? Was that something 
that you received, any of you?
    Ms. Ruell. Do you mean the same exact email or----
    Dr. Wenstrup. Or to that effect.
    Ms. Ruell. We receive emails that tell us that we need to 
do certain things, and when you read the law, you can see that 
it's not correct, but people just follow along with the plan in 
fear that if they don't, it could give them an adverse 
consequence.
    Dr. Wenstrup. What strikes me is that through this time, 
there's no talk of promoting the veteran, the human being; it's 
all about numbers, moving things along. Did you ever get 
anything from leadership that emphasized that point, that it's 
about taking care of our veterans? Or is that something that's 
just way out there and doesn't come up? Any of you can comment, 
please.
    Mr. Robinson. We get a lot of, you know, we get a email 
with all these numbers and what we're accomplishing, and in 
that email it may say that we are taking care of veterans, I 
mean, you know, but it's not about an email, it's about a 
communication between your superiors and the employee. When you 
care about veterans, first of all, you have veterans in your 
office that are employees. How do you treat them?
    Dr. Wenstrup. Okay.
    Mr. Robinson. I think that's the key. Okay? And I've seen 
where we've not treated our veterans employees well, so how can 
we say we treat other employees well?
    Dr. Wenstrup. Let me go on that concept for a minute here. 
And, Mr. Robinson, you know, 20 years in the military, achieved 
the rank of first sergeant. No one just hands you that. You 
spent years developing trust amongst soldiers, commanders; 
people look up to you, admire you; you had commanders that I'm 
sure over time you trusted, you admired, there was a mutual 
respect that you had there, and you know in that role, that you 
have to lead by example----
    Mr. Robinson. That's correct.
    Mr. Wenstrup [continuing]. And this is something that you 
would do every day, and you were also willing to let those 
under you come to you with problems and present solutions and 
have a conversation. I know the role that you were in and I 
know that, I think deep in your heart, that's what you're 
saying is totally missing right now, is that ability to steer 
the ship to make things right, and that right is right and 
wrong is wrong.
    Mr. Robinson. Exactly. We need a conscience, and I'm trying 
to be that conscience for my organization, for my fellow 
comrades and for the employees. The employees are the ones that 
really have to serve our veterans. If we don't take care of our 
employees and give them the tools, give them the encouragement, 
give them the workplace, give them the processes, and be 
honest. That's all we're asking.
    This is an awesome undertaking that we undertook, it was 
awesome, it was massive, right? And I commend Under Secretary 
Hickey for putting us into getting out of paper. Okay? I see 
the advantages of paperless, but I'm saying that leadership 
have to listen, because if they don't, they'll take us over a 
cliff, and I'm telling you, we're at, close to the edge.
    Dr. Wenstrup. Is there anyone in your career's recent years 
and more your immediate VA leadership that you felt you admired 
and trusted and could go to with anything?
    Mr. Robinson. He's deceased now. We had a--I had a--David 
Chapman. He was out there with the employees, you could talk to 
him about anything. I mean, you know, he would bring you the 
paper, say, this one's getting to be over a year old. What's 
going on with it? Okay? And we would talk about it and we would 
get it done.
    I mean, we just need for our leaders to listen and act. If 
we have a situation that something is wrong, listen to us. 
We're the ones down in the foxhole, we're on the frontline of 
battle, we know what's going on. Don't disregard it when we 
tell you this is not working. That's all we want: someone to 
listen and to let us serve our Nation's veterans together.
    Dr. Wenstrup. Thank you very much.
    My time has expired, but I would love to have heard from 
all of you on that. Thank you.
    The Chairman. Ms. Kuster, you're recognized for 5 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman.
    And thank you to all of you for being with us tonight. We 
truly appreciate it and understand the sacrifice that you've 
made.
    I want to follow up on this notion of a comprehensive one-
stop shop and the whole aspect of your job that is trouble-
shooting and the challenges that you have, the difficulties 
that you face in that. We've heard a lot about the VA adding 2 
million veterans, this is during the time of Secretary 
Shinseki's leadership, including Vietnam veterans exposed to 
Agent Orange and newly separated veterans from the wars in Iraq 
and Afghanistan, so we understand the volume problem that you 
have, but I'm not sure until tonight I completely understood 
the sort of disarray of this process of trying to put these 
claims together.
    We had been hearing from the VSO's about their process of 
fully developed claims, that they would try to get the claim to 
the place where you could make your decision in a timely way 
and I'm just trying to understand, has that not been effective, 
and is there something else that could be done in a preliminary 
way before these claims even get to you so that you could do 
your analysis and your task in a more timely way?
    And let's just start, Mr. Soto, and we'll go right down the 
line.
    Mr. Soto. The fully developed claims, FDC, as we call them, 
it's a good idea, overall it's a good idea. The problem that I 
see from my viewpoint is that we sort of shifted the burden to 
the veteran to prove his claim, and we're supposed to be non-
adversarial, and we're kind of skirting the edge of the duty to 
assist, in terms of providing all sorts of assistance in 
gathering records and that sort of thing. The veteran will sign 
a statement that says he's waiving certain duty to assist help 
that we can provide.
    So it's not a bad program, but for veterans that don't 
understand the process, they may not get the best service if 
they don't have the proper help. The perfect example is I think 
everyone here may be familiar with the 5,000 attorney 
initiative that the VA has announced, or something to that 
sort, where they're going to have attorneys help work, gather, 
putting together FDC's. That's what I've been told. Since they 
started it, yes, it has helped, but then attorneys now began 
appealing more and calling almost every day asking why aren't 
you done? Why aren't you done? That sort of stuff, and that's 
the information that we've gotten.
    So the FDC program is a great idea. When we get to it, we 
could probably decide it faster, but we're kind of, again, 
shifting the burden to the veteran to have his claim all 
finished for us so that we don't have that much work to do in 
terms of doing what we're supposed to do, duty to assist, help 
gathering records and that sort of thing. That's my view.
    Ms. Kuster. Okay. Anything to add, either of you?
    Mr. Robinson. FDC has been around since 2008, so if it was 
effective, it would have been effective by now.
    Ms. Kuster. Okay.
    Mr. Robinson. So that's my answer.
    Ms. Kuster. Sure.
    Ms. Ruell. And I agree as well. I think that the FDC just 
gives us even less communication with the veteran, because it 
says we gave you what you need, the evidence you need, we told 
you ahead of time this is what you need to prove, and it's on a 
formed piece of paper written in small print.
    Most of our claimants have trouble understanding what any 
of that means and if they don't submit everything round one, 
they get denied. So I think it's a great idea if you want to 
process more claims, but if you're trying to grant more 
benefits, I think it's a horrible idea.
    And I call all--if I have a claimant and they're missing 
something, I call them on the phone and I stay friends with 
veterans that I've met years ago from helping them and I get 
emails once in a while from their families, and I don't have a 
problem getting my work done when I do it the right way. I 
spend a little more time doing it right the first time, but in 
the end, the people aren't coming back complaining about what 
awful service they got.
    Mr. Robinson. Amen.
    Ms. Kuster. So my time is almost up.
    The other question I had is that you're mentioning that 
there's no communication with the veteran? Is there any way for 
a veteran to track their claim or keep track or stay in touch? 
I mean, I have, you know, it's been brought up that going 
through your congressional office is the best way to get a 
claim done, and we've done a lot of that in our office, and 
it's been very effective, but now I understand why that's 
necessary. Is there no communication with veterans?
    Mr. Robinson. Yes, there are communication with veterans. 
It's like eBenefits, you know, they can use eBenefits if it's 
working right, okay, and we call veterans, but we call them 
most of the time to say, do you have anything else to add, 
okay, to get the claim out of the door. That's our 
communication with veterans.
    But we do call a lot of veterans, but it's to get that 
statement saying, I have no more evidence.
    Ms. Kuster. So my time is up.
    I thank you for your service, and I'm sure my colleagues 
will get to the rest of the questions.
    Thank you.
    The Chairman. Colonel Cook, you're recognized for 5 
minutes.
    Mr. Cook. Thank you, Mr. Chair.
    You know, a couple of comments have been made about 
Congressmen and women handling complaints or it just seems like 
years ago, I wasn't in Congress, but I was on the other side of 
the military, it was all about congrents or congressional 
interest and things of that matter in the military, and now 
overwhelmingly it's all about the VA.
    And quite frankly, you know, Congress doesn't get credit 
for a lot of things, but the one thing I think most of the 
people here, certainly on this committee, they actually cut 
through the red tape on this issue and it's something that we 
pride ourselves and I don't have to poll everybody.
    But a couple of things I want to ask you your personal 
opinion of the senior executive service in general; just short, 
good, bad, indifferent, one word.
    Mr. Robinson. In my experience, they think that they're 
God.
    Mr. Cook. Thank you. Thank you First Sergeant. Is it okay 
if I call you First Sergeant, by the way?
    Mr. Robinson. Yes.
    Mr. Cook. By the way, I was going to go down. First 
Sergeant is much more powerful, important than Mr. You're first 
sergeant, you're like God. So, sorry. I had to throw that in 
there and I appreciate what you've done for our country now.
    Yes, ma'am.
    Ms. Ruell. I think that whatever it takes to become an SCS 
doesn't mean you'd be a good leader. We recently had a director 
at our facility who had never worked at the Department of 
Veterans Affairs before. To me, I don't know how you can make a 
decision to see if something's correct or sign off on a lot of 
money if you have never worked at our agency before, so----
    Mr. Cook. Thank you.
    Yes, sir.
    Mr. Soto. Yes. I truly believe that the SCS service needs 
some revamping in terms of training, in terms of how they 
interact with middle management and the lower employees. I just 
don't see it as effective.
    Mr. Cook. Thank you.
    In regards to manipulating claims, falsifying claims, 
destroying stuff, how many people do you think have been 
brought up on charges or sent to jail for violating those 
things, or fined? Any? Small number?
    Mr. Robinson. Well, we had the scanning--we had the 
shredding incident back in----
    Mr. Cook. But do you have a rough idea? Were there a lot 
of--the point I'm making, you know, we're talking about 
veterans, the military. You know, that's a court marshal 
offense.
    Mr. Robinson. Exactly.
    Mr. Cook. There would be a court marshal, there would be a 
trial, and many of them would get dishonorable discharges or at 
least bad conduct discharges; am I wrong?
    Mr. Walz. That's right.
    Mr. Cook. So that kind of bothers me quite a bit.
    The DD-214s, everyone, at least when I was in the military, 
left the--that was like the piece of paper or that was it, that 
you had to have that. And to say that DD-214's, some of them 
are in the file, they're not in the file, you know, I shouldn't 
admit this, but a number of years ago when I had leukemia, 
submitted a claim about Agent Orange, and it was denied. Now, I 
understand that, that they didn't have, you know, the medical 
evidence.
    And then a number of years later it came out, and so we 
said, we're going to test the system. So I went back and put 
the claim back in again. It came back, it was denied. Now, I 
can understand that, but it was denied because they had no 
record that I was ever in an area that had Agent Orange used.
    And my question, which I went back to the VA was, where is 
the DD-214, the two purple hearts, the tours of duties, the 
operations that you went to combat as an infantry person?
    Do I have to give every location in Vietnam that I was at? 
No one read the DD-214. And until tonight, maybe it didn't 
occur to me that maybe that's not even part of the record 
anymore. So I'm--I don't know. I get very emotional with these 
things.
    Ms. Ruell. Can I make a comment on that?
    Mr. Cook. Yes, ma'am.
    Ms. Ruell. A major suggestion that I would think that the 
VA needs to accept is there are a lot of civilians that work at 
the VA. I have never been in the military, and when I started 
working there, I was expected to know when I looked at your DD-
214 how to tell with those codes that you were in Vietnam. I 
had no idea how to tell that you were ever in Vietnam, so I 
took it upon myself to learn those things on my own time. The 
average employee does not do that.
    Mr. Cook. But if you get a purple heart in combat, it's not 
from--oh, I'm going to get facetious, because I'll say 
something about people in this town here, so I'll withdraw 
that, but you're absolutely right. I just think it's a basic 
part of the claim, and I feel there's this tremendous 
disconnect with Washington and the bureaucracies and, as the 
First Sergeant said, the veterans. You know, we've lost that, 
and that's what we've been talking about, but----
    Ms. Ruell. You should see if you've served on a ship what 
we have to go through to prove that you served on that ship or 
that the ship was in that water. So, some people because of 
production standards don't take the extra mile to look through 
everything to figure out if your ship that you might have 
served on is on the list that were in the waters of Vietnam.
    Mr. Cook. Well, somebody commented on me, they said that it 
was so long ago now, that I was in the military, it was on 
papyrus and it's disintegrated since that time.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you, Colonel. And thank you for your 
service, Sir.
    Mr. O'Rourke, you're recognized for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I first want to join all my colleagues in thanking you all 
for your service. Most importantly for what we're trying to 
tackle tonight, your testimony about what you've encountered 
within the VBA and what it might take to turn it around and 
improve it.
    And I think your comments about leadership, the culture, 
accountability, ensuring that the veteran is the focus of all 
the decisions that we make within the VBA, all of those points 
are well taken, and they seem to resonate with feedback that we 
received from other whistleblowers from within VHA and a 
sharper picture is starting to come into focus about what the 
problems are and what it might take and so much of it revolves 
around culture and the environment within which you work. So I 
want to thank you for that.
    But I also have a chance to hear from you who are on the 
front lines of processing all these claims and the appeals that 
all these new claims are generating, and following on some 
other really good questions about ideas or suggestions you have 
to improve the process, I really like the one-stop shop. I like 
the idea that you would limit the medical information specific 
to the claim that you're filing so that there's less paperwork 
to wade through.
    Someone that I've been following on these issues lately is 
a professor at Harvard, Linda Bilmes, who has been writing a 
lot about the VA. And she brings up an interesting statistic. 
There have been almost a million Iraq and Afghanistan War 
claims so far, and only 1.5 percent have been denied.
    And so her point is, instead of this protracted months- or 
years-long process to successfully file a claim, there is some 
better way, some better handoff between DoD and VA, some 
comprehensive medical exam that you go through that identifies 
these issues perhaps ahead of time, approve mental health 
claims given the propensity for Iraq and Afghanistan vets to 
claim them. And with that, try to shorten the backlog and speed 
up the process.
    I think of these two wars, the presumptive condition of 
Agent Orange, beyond all the cultural issues you all have 
described, there's an incredible caseload and stress on the 
system right now. So would love to hear either other ideas or 
something that I've asked the VHA and I'll ask the VBA, is this 
also a resource issue? Do you need more people processing these 
claims, reviewing the claims that are being run? Or do we have 
the resources in place, and it's just a matter of culture and 
perhaps some ideas like the one-stop shop?
    So with the couple of minutes I have remaining, maybe we 
could start with Ms. Ruell and work down the line.
    Ms. Ruell. I think that if someone applies with a medical 
condition, they don't really understand what they need prove. 
We tell them, you need to show us this medical condition 
contributed or was caused by service. That doesn't mean much to 
the person who is sending us tons of medical evidence in. When 
you call the person and you explain what exactly their medical 
condition has to show, then they understand what they need to 
send in.
    So I feel like we have a call center that you can call. 
Most people in the call center have never processed a claim 
before. So when you call the call center, they do a great job 
and they do everything they can. But if they haven't processed 
a claim, they don't know the burden that the veteran has to 
prove.
    If we educated the service organizations, I have suggested 
having seminars for nursing home administrators, Congressional 
liaisons, and VSOs to explain what the VA looks for when you 
submit a claim. That way, they could help many more people do 
it the right way the first time.
    Mr. O'Rourke. Thank you.
    Mr. Robinson.
    Mr. Robinson. Well we have had BDD Quick Start, okay? We've 
had these systems, these programs out there to speed the 
process while the person's still in the military. You have 
ides. You know, these things have been around, I mean, BDD has 
been around forever. So if we can't get those done timely, 
well, you know, there's no silver bullet, there's no easy 
answer. We need to get people who know the business together, 
sit down and discuss what is really needed and stop doing these 
quick fixes, these ideas. You know, we work the claims, we know 
what's going on with the claims. We know how to fix the 
problem, but no one is listening to us.
    Mr. O'Rourke. Mr. Soto, is it a resource issue? Is it 
simply the culture that you have described? What would you 
change beyond that culture if, in fact, there's an improvement 
to be seen there?
    Mr. Soto. One thing I saw awhile back, and I've only seen 
it less than a handful of times, is that when a veteran got out 
of service, somehow he was given a VA examination as a 
discharge exam and essentially we didn't have to re-examine him 
when he applied for benefits within a year of discharge. That 
kind of worked in speeding up the claim.
    I've only seen it a handful of times. I'm not sure why it 
occurred, but maybe that could help speed up stuff, they're 
leaving service, is to give a more comprehensive military exam 
that addresses service-connection issues.
    Mr. O'Rourke. Thank you.
    Mr. Soto. In terms of disability rating.
    Mr. O'Rourke. Appreciate that.
    I yield back.
    The Chairman. Thank you very much.
    Mr. Jolly, you're recognized for 5 minutes.
    Mr. Jolly. Thank you, Mr. Chairman.
    Mr. Soto, welcome to tonight's hearing. Witnesses, welcome.
    Mr. Soto, I have a question for you. You mentioned the June 
24th study that you circulated that seemingly ultimately led to 
your dismissal on June 30th.
    Mr. Soto. Yes sir.
    Mr. Jolly. You mentioned in earlier testimony previous 
reports or studies you had circulated as well. Can you speak to 
those?
    Mr. Soto. I had circulated a study concerning our VSRs, the 
rating--the raters and how the accuracy process was impacting 
rating decisions. The gentleman spoke about the DD-214. One of 
the problems we see is that there seems to be sometimes 
disagreement over accuracy as to how we read evidence. If you 
go to law school, you kind of get a real in depth teaching on 
what is lay evidence, what is material, what is relevant, and 
that sort of stuff.
    And then the VA has these rules where you at these certain 
place, time, and circumstances, and that sort of stuff. There's 
a lot of people that have problems matching that up not because 
they can't but because the training is not just not that clear. 
The training and rules continue to change.
    So the study went into accuracy issues that were impacting 
rating decisions. We were either not paying, we were either not 
service connecting, or we were just overpaying. The decisions 
that we found, and which didn't make a lot of people happy, 
essentially, that there was no central focus in terms of where 
the mistakes were coming from. In essence, somehow exemplifying 
that we have a big problem and we can't easily fix it. We have 
to really look at the consistency as to what is and is not a 
mistake in terms of a quality error and when are we going to 
say that somebody's analysis of an issue is wrong or not. That 
sort of stuff. So it impacted ratings, due process.
    Mr. Jolly. So you mentioned two studies earlier, though. 
You said you had raised several instances. I mean, was there a 
pattern here? Was it just the two major studies?
    And here's where I'm going: Were they ever responded to?
    Mr. Soto. When we did the RVSR study, everybody expected a 
response from both QR, we call it the QRT, Quality Review Team, 
and management. We got none. When we did the VSR study, we got 
none.
    Mr. Jolly. How did you distribute them? Did you distribute 
them to all employees via email? Did you send them to 
management?
    Mr. Soto. Via email.
    Mr. Jolly. Via email.
    Mr. Soto. I believe our union also distributed to 
management as a courtesy.
    Mr. Jolly. And did you receive any response from 
management, either wanting you not to do it or a substantive 
response?
    Mr. Soto. No response whatsoever.
    Mr. Jolly. No response whatsoever. So you issued or 
circulated the response on June 24th and then the only response 
you had was on June 30th your separation letter; is that right?
    Mr. Soto. Yes, sir.
    Mr. Jolly. So no acknowledgment throughout your time at the 
regional office regarding any of these circulated reports or 
notifications or concerns?
    Mr. Soto. The only comment I received, and it was through 
other employees, and I believe they--how I say--gave me 
information that apparently at the quality review team, there 
was a comment made to the leadership there, is management going 
to respond? And that's the last I heard. I got no response from 
management.
    Mr. Jolly. Okay. So you would say your June 30th letter, or 
the termination, was a complete surprise.
    Mr. Soto. Yes, sir.
    Mr. Jolly. I'm asking--and I'm trying to be helpful here, 
I'm not being critical.
    Mr. Soto. I understand.
    Mr. Jolly. But as an employee, if you're circulating 
reports about management, I would have expected some response. 
And, frankly, I think the lack of response is more damning at 
times than a substantive response; the fact that these concerns 
went completely unresponded to. That's accurate; right?
    Mr. Soto. Yes, sir. We expected dialogue to try to address 
the quality review process.
    Mr. Jolly. Let me ask you a question. If you had the 
opportunity to remain employed with the VA, would that be your 
preference?
    Mr. Soto. Yes, sir. I actually like the job. I found it 
incredibly interesting helping these veterans. I was one who 
was willing to go beyond what's required to try to service 
connect everyone, especially it's very difficult to service 
connect some of the people who serve aboard aircraft carriers 
and that sort of stuff in terms of the Vietnam era because the 
records are just not there, and I would do everything possible 
to research issues, make legal arguments, try get these 
individuals what they deserve.
    Mr. Jolly. Very good. Thank you. And thank you to 
contributing to the performance and success of the regional 
office. As someone who represents Pinellas County, I appreciate 
that. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Walz, you're recognized for 5 minutes.
    Mr. Walz. Thank you, Chairman.
    And again, thank you all for being here. It is incredibly 
helpful. You hear the members talk and when the democracy is 
working right, they are channeling what is coming from their 
constituents. And obviously the Nation is focusing on this. And 
I--it's incredibly disappointing to hear how you've been 
handled. It's beyond the pale that some of this would go on. 
But I guess the flip side is is that they're dedicated people 
out there that keep coming back to veteran.
    It's about doing right for the veteran and I've been saying 
we need to figure out a national veterans' policy. We need to 
have a national focus on this and then getting at it, and I 
keep hearing, and First Sergeant, you're exactly right on this, 
that we hear it--I've been in some units where they told us 
change was coming; that meant the enlisted troops were going to 
be get hammered. And because that's the way leadership thought 
and I was in units when they said change is going to come, and 
we got excited because we knew we were going to be the best and 
we were going to go forward.
    So this issue comes back to leadership. It comes back to 
how they're enforced. We all went through--they can have the 
AR-670-1, but not every unit looked the same; some were more 
rag-tag than the others and some were more strack.
    And the issue on this is, is that, I would like to get from 
you, and I think you're bringing up these good points on how we 
get there, we're talked till we're blue in the face on seamless 
transition. We all know there should be one record. We all know 
that DoD and VA should work together. But we get siloed up in 
the two biggest agencies of Government, compete for funds 
against one another, and that's why the last 6 months when 
you're in the Army they don't do dental exams, because the VA 
will handle it, and they push you out the door. The taxpayers 
still get it, the VA still gets it, and it all comes downhill.
    So my question to you is on some of this as we get there, 
and this is a very interesting point, something you brought up 
on the veterans and my colleague from Texas brought up the good 
point about the claims. It's so interesting the IRS takes every 
tax return as it's--you sign it that it's honest and then they 
audit afterwards. The VA audits on the front end and then spits 
them out the back side. So the taxpayer's, given the average 
taxpayer's given more of a credibility on this.
    Now, I'm not saying, because you heard it here, we should 
not be overpaying. We should be stewards of every taxpayer 
dollar and no veteran should receive a claim that doesn't 
deserve it. We should get this right. But certainly if there's 
a group that has the benefit of the doubt on their side, it 
would be this group. Certainly, the folks in the VA who are 
working there are trying to get that right also.
    So here's my dilemma for you. And I ask this to you, Ms. 
Ruell. We have resourced the VA on IT to an obscene amount and 
we've got nothing for it; and that definition of insanity, 
again and again, services an accountability from Congress, it's 
an accountability from the administration and it's 
accountability to VA. How do I go back to my taxpayers and tell 
them we don't have enough there and we need to give them more 
computers? How would you respond on that? Has it been so 
bungled?
    I mean, when I hear you can't find a copier, it's just 
atrocious, the amount that we have put there and should have 
gotten results.
    So can you comment? Do they just bungle it that badly.
    Ms. Ruell. Yeah. Just the general tools you need to use 
your job are not there. So if we started out by having enough 
printers and copiers so that you don't have--every time I walk 
to pick up a print that is from here to Chairman Miller's area, 
that is wasting time. You're not allowed to have a printer on 
your desk. I have no idea why. But the amount of time you take 
picking up paper, and then if you leave your paper on the 
printer you can get in trouble. So every time you print 
something, you have to go pick it up.
    And then you run the risk of chatting with somebody on your 
way back from the printer. So simple fixes in our office would 
help a lot. I don't understand who is making----
    Mr. Walz. Isn't it ironic? I keep hearing from all of you 
this fear of retribution, this real retribution that's 
happening, whatever, and yet we have a pending act of Congress 
to go after the managers you have.
    So I'm intrigued and nobody will fight for due process. It 
is sacred. It is sacred. Due process is sacred. But this idea 
of them using regional counsel and taxpayers dollars to defend 
themselves in personnel mismanagement of someone, somebody's 
got to have a middle ground there. We certainly want folks to 
be making decisions and be empowered to do so, but not to the 
point were if I make this mistake and I fire somebody 
incorrectly I'm going to have counsel pay for it. You're not. 
You're going to have to pay for it.
    My last question to all of you is, how familiar are you 
with other offices? Because many of us, the concern is this, 
we're not provincial by choice; it's the nature of the job. My 
two offices that I deal exclusively with are Sioux Falls and 
Minneapolis, which I often hear are really good. Now I don't 
know if I can trust that or not.
    Do you think what you're seeing in your offices, is it 
different across the country? If you have any inclination as 
you talk amongst yourselves. Just do you think there are 
offices that are performing better or do you systemically it's 
pretty similar?
    Ms. Ruell. I think systemically a lot of the issues are 
probably similar. But I think the bullying and the nepotism and 
the cronyism and things like that are more prevalent in my 
office. We had a help team come in from two different regional 
offices to process claims, and I got to know some of the people 
and I asked them that question. I said, are you treated okay as 
regional office? Do you do these discovered claim memos? And 
the one guy didn't know what one was. So I feel like not all 
offices are the same. But I feel like there is a culture of 
corruption in general at the VA.
    Mr. Walz. My time is about up. If you guys just want to 
comment quickly.
    Mr. Robinson. There's one simple answer: Do a complete 
review of every one of them. Then we would know.
    Mr. Soto. Yes, I agree. The problems are systemic. There 
are a very few managers that handle it differently.
    Mr. Walz. Great. Thank you. I yield back
    The Chairman. Thank you.
    Dr. Roe, you are recognized for 5 minutes.
    Dr. Roe. Thank you, Mr. Chairman.
    And, you know, Sergeant Robinson, I think as a first 
sergeant, I sort of doubt you were very intimidated by a camera 
and a walkie-talkie, from the first sergeants I have known.
    You know, I know for the veterans that are watching this 
tonight and people around the country, it gets a little 
confusing with all this about what's going on in the office. 
I'm looking at it as you did, Mr. Robinson, about what's the 
veteran see. Here I am filling my form out, what can I expect?
    And so what we heard here and I have been on this committee 
5 and a half years, is that we had a huge backlog of claims, 
that was the problem we had and many of these claims not 
adjudicated in a way that benefited the veteran.
    So what did we do. We put a lot--as Sergeant Walz just 
said, put a lot of money in hiring more people and training 
people to evaluate these claims, that is number one.
    Number two, we decide if we go to paperless claims, Ms. 
Brown brought up, we put the money into infrastructure, and we 
have put an obscene amount of money into infrastructure to make 
records interactive and so. So we did that. Go to the 
paperless.
    And, third, if you have a fully processed claim, all of 
this is was going to get better and what I hear tonight, after 
all that has happened, it hasn't gotten better. So I think Mr. 
O'Rourke, said have we hired enough people? Is it a problem 
with resources? Because every single year I ask the Secretary, 
and they brought a budget up here, do you have enough money to 
carry out your mission? And every year the answer was ``yes.''
    So we on both sides of the aisle, we think have provided 
the resources. But what I'm hearing tonight either they are not 
used properly or we don't have enough resources. So which is 
it? And am I correct on those things? That's exactly I think 
what all of us that have been here for a while have heard, and 
we've done those things and yet we still have a problem out 
there.
    And let me just go through two or three questions really 
quickly I want to get the answer to, is, how is an old claim 
made to look new? And is it systemic? That's something I want 
to know.
    And I know that another thing, Ms. Ruell, you brought up 
was about how do you prevent duplicative claims. Because if 
we're paying a veteran twice, that means that there's a veteran 
out there not getting paid.
    And I want to be sure that, and our resources are not 
infinite, they are finite. And I want to be sure that veterans 
two deserve that, so I want to know how we do that and stop 
that as quickly as we can so that our veterans who do deserve 
to be paid can get paid in a timely fashion.
    So those are just a few things I'll throw out there. If you 
could answer them for me. Am I correct in what I've said?
    Ms. Ruell. If someone is getting paid twice, it doesn't 
mean that someone is not getting paid, it just means that we 
incorrectly processed the claim and allowed for the system to 
pay them twice.
    I think we have plenty of resources at the VA. I think that 
employees are beat down. If you came and visited the office and 
you went to the desks of the employees and you asked them if 
they like their jobs, very few in my office would say that they 
can't wait to come to work today. We're not treated very 
nicely. If you tell your child they are bad every single day, 
they'll probably think they're bad.
    So there's no positive reinforcement. It's just a really 
corrosive-type atmosphere and----
    Dr. Roe. So back up to my question. How do we stop 
duplicative payments? How does that stop? That seems simple to 
do.
    Ms. Ruell. We need slow down. When the claim comes in, they 
shouldn't be on production to see how many they can get into 
the system that day. They need to have time to do it the right 
way.
    Dr. Roe. So if I'm a veteran and I put in a claim tomorrow, 
and we did all these things and then the solution was--I 
mentioned paperless, hiring more, backlog, we're going to get 
rid of that. Then I could expect it to get processed in 125 
days at a 98-percent accuracy. That's what we were told. That's 
not happening. Am I right or wrong? Is it happening?
    Ms. Ruell. No. I mean, the backlog is only a few types of 
claims. It's not all the claims at the VA. So that promise is 
only made to someone who is filing an original claim or a claim 
that needs to go to a rating board. If you have a different 
kind of claim, it might not be included in the definition of 
the backlog. So it depends what you file and what end product 
is on it to determine if you're included in the backlog or not.
    Dr. Roe. And what I have heard also is that the problem 
that we have, and I haven't heard anybody say yet we didn't 
have enough money going at the problem, are unrealistic goals, 
and then basically accountability, no one's accountable, and I 
think those are the things--and basically just leadership at 
the local level.
    And so I would assume that in the various regions around 
the country the outcomes could be very different. If my claims 
are sent to one region, I may get adjudicated fairly rapidly. 
Am I right or wrong on that? And another region, maybe not so 
quickly. So is there variability?
    Just like we were told, when you've seen one VSO, the IG 
told us a few weeks ago, when you've been to one VISN, I mean, 
you've seen one VISN. Is that the same thing for the VBA? Or is 
there some--across the country, can you expect the same metric? 
In other words, if you go a surgeon in my hometown, you should 
be able to get the same gall bladder operation you can in 
another hometown from a board-certified surgeon. Can I expect 
the same level of scrutiny at one regional office as another 
one, I guess is what I'm asking?
    Mr. Robinson. I don't think anyone can answer that question 
because we ship files all over the place. There is no 
accountability. I mean, if I did a claim in South Carolina, if 
someone developed a claim in South Carolina, I send it to 
Florida for it to be rated. If the rater can't rate it because 
I made a mistake in South Carolina, who is responsible for 
fixing it?
    So, you know, it sounds good on paper to move things around 
and all this kind of stuff. But you have to fix responsibility. 
You have to know who's responsible. Who can I pick up the phone 
and call and says, this is your problem. Why is this?
    So the veteran, when he makes a phone call, he can be 
talking to somebody in California, he could be talking to 
somebody in South Carolina, he might be getting two different 
answers on the same question. So, no, we need to fix 
responsibility.
    Dr. Roe. I yield back.
    The Chairman. Mr. Huelskamp, you're recognized for 5 
minutes.
    Dr. Huelskamp. Thank you, Mr. Chairman.
    I appreciate opportunity to hear from some very courageous 
employees. I do pause to wonder why you would want to show up 
here. And, but I do understand it must be a commitment.
    But, Ms. Ruell, I want to follow up on part of your 
testimony reference to the 96 white boxes that--and I was stuck 
in an airport and was a little late to your testimony. But I 
was reading that.
    What happened? Do you know whatever happened to those 96 
white boxes full of claims from veterans?
    Ms. Ruell. No, I'm not really sure. I tried to check up on 
the boxes, and they got moved somewhere else. They were 
supposed to go through the boxes and make sure the stuff was 
not identifiable before it was shredded. I'm hoping that's what 
happened. I go down to triage once in a while when I have a 
reason to be down there, and those boxes aren't there anymore. 
No one in triage has told me that they went through all of 
them. So I'm not sure whatever happened to the boxes.
    Dr. Huelskamp. Any guesstimates how many veterans were part 
of those 96 boxes? One box a veteran or no idea?
    Ms. Ruell. Oh, my. There was, thousands of claims in those 
boxes. Now, some of them probably truly were not identifiable. 
But a lot of the things that I saw in the boxes were not easily 
identifiable and they took a little bit of work to figure out 
and there's no time at the VA for investigations or to figure 
things out. You have to move quickly.
    So, unfortunately, probably some of them, when, if you get 
a call in your office at a Congressperson and they say, the VA 
says they didn't get my claim. I believe that. Because I saw 
some of them in the box.
    Dr. Huelskamp. So you provided the committee your emails, 
or you'd have received notice from someone, another employee 
contacted you and then you contacted your superiors and 
notified them of these boxes and then there was fear they ended 
up being shredded. Was that the series of events?
    Ms. Ruell. Actually, that employee is sitting here in the 
audience tonight. And he--we actually contacted Washington 
immediately when that happened. Because we knew from using the 
chain of command that they would make it probably to the 
shredder before anybody did anything with that and they 
actually did act on that quickly and I was told that they 
didn't go to the shredder. But I don't know where they went 
from that date till now. It's been a couple of years.
    Dr. Huelskamp. I don't see that in your notes in the 
notification. Was that an email? A phone call? Or anything in 
writing from Washington about what happened or that, that was 
taken care of?
    Ms. Ruell. Yeah. Actually, I called a friend who had been 
illegally fired by the VA and asked him to send an email to 
Allison Hickey, and he did and apparently shortly after, they 
took action and prevented those documents from going to the 
shredder. But I think had we not done that----
    Dr. Huelskamp. We hope they weren't shredded, then. Is that 
your understanding?
    Ms. Ruell. Yes.
    Dr. Huelskamp. Okay. Mr. Robinson, appreciate you being 
here as well. Want to follow up on--as I understand your 
claims, it was data manipulation or misreporting data? Can you 
describe it a little bit again why you were fired and what your 
superiors were upset about when they fired you from your job? 
Was that you, Mr. Robinson or Mr. Soto?
    Mr. Soto. The reports that I authored concerned accuracy 
and how the accuracy data in my view wasn't being presented, 
well, accurately. There seems to be a problem in terms of 
trying to find common ground when we're deciding claims.
    And the common ground seems to be--the problems in finding 
common ground seems to be over some very basic and then over 
complex evidentiary issues. So, in other words, we weren't 
reading claims accurately, so I just want to bring that to the 
attention and I wanted to get consistent instruction and 
guidance in terms of which way do they want us to go and I 
think that led to----
    Dr. Huelskamp. And I appreciate that, all three of you. As 
a member of Congress and like all my colleagues we receive 
probably dozens and dozens of veterans' claims to follow up on 
and I continue to tell my constituents, as we all do, you 
shouldn't have to call your member of Congress to get your 
claim processed. But 500 times in my 3 and a half years, that's 
happened.
    And so when you say that someone gets special treatment if 
they can get through to their Congressman, that really upsets 
me. I think that upsets many veterans as well. We have to fix 
this system. I appreciate you being here and sharing your 
testimony.
    And later, and I appreciate follow-up testimony as well 
after--or notice after we hear from VA officials. Because 
they're going to come and talk about how good the data is. 
They're going to say, boy, things are improving so much. 
Honestly, we can't believe anything on the data because so much 
of it looks manipulated, falsified, and is only half reporting 
the facts.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Titus, you're recognized for 5 minutes.
    Ms. Titus. If I could just go back to Dr. Roe's point. Yes, 
these regional offices vary greatly because the one that serves 
Las Vegas is in Reno. It was the fifth worst in the country and 
the way they reduced their backlog was to send half the cases, 
broker them out to other regional offices all around. We don't 
know where all they went.
    So I'd also like to kind of follow up on the points you 
were making. As I've listened to all of this, it seems very 
clear to me that we have two levels of problems, and both are 
very important. But we've got to separate these and look at 
them differently if we're going to ever come with any practical 
solutions that move this forward rather than just have hearing 
after hearing with no suggestions.
    Seems like one problem is the policy at the national level. 
Like the fully developed claims or the found claims or the 
budgeting, and what I'm hearing from you is that, as First 
Sergeant said, that leadership level is not listening to the 
people who are in the trenches, on the front lines, dealing 
with this every day. And if they listened more, then some of 
those policies might have been developed a little differently.
    Second kind of problem seems to me is the personnel problem 
at the regional offices. Now, we just passed a bill out of the 
House making it easier to fire people at the SES level and so a 
lot of the regional offices have folks at that level in charge, 
but some of them don't. The Reno office, for example, has a G-
15, there's no SES person there. But this person's obviously 
not a very good manager or we wouldn't be fifth worst and yet 
we can't get rid of them. They can't fire them. He's still 
there. Which I can't understand.
    So maybe you all can address just kind of that specific, 
how do we get rid of the people who are in charge at these 
regional offices as opposed to talking about the leadership 
that's in Washington? Can you all help me with what might be 
able, a way to make that work better?
    Mr. Robinson. Well, if the director at the regional office 
understood that they were held accountable for the actions and 
someone up there did that, then they would get the message. 
However, we don't know who is doing what at the regional office 
level. We don't know if the director can manage or not. Because 
when they get in trouble, they ship their work to someplace 
else.
    So, was it a resource problem? Was it a leadership problem? 
We don't know. Because now we're shipping cases, we're hiding 
cases by shipping them one place to the other. There is a need 
for a review of each regional office. It is unfair to a 
regional director who is doing a good job to be lumped in with 
a director who is not doing a good job.
    Ms. Titus. Or for him to have to take on the burden of 
somebody who has been doing poorly; now he's got to do double 
the work because Reno wasn't delivering.
    Mr. Robinson. Exactly. And does he have the resource? So 
now he's back. Him and his employees who are doing a good job 
are now suffering. Is that right? No, it's not right. So 
somebody has to take the lead in this. And go to each regional 
office.
    Because I believe that mail is a problem all over. Okay? We 
got it in Baltimore. We found out the mail ignites and sustain 
the claims process. It's the piece of document, it's that thing 
that we need to start the claim and we need to process the 
claim.
    So, if you look at regional offices and how they handle 
that mail is a key. Okay? And I just want to go on record to 
saying that this centralized mail that they're coming up with, 
somebody needs to get a handle on that thing and make sure it's 
ready. Because we saw a claim disappear in cyberspace. That 
system is not ready, it's not ready and if we don't do 
something about it, we'll be talking about that next.
    Ms. Titus. Ms. Ruell.
    Ms. Ruell. It's just strange to me how easy it is to fire 
an employee, but it's so hard to fire a manager. So I don't 
understand why we're not all under the same rules. Because if a 
manager is found to have illegally fired somebody more than one 
time, I don't understand why they're not on this PIP that they 
put the employees on. If the quality or the production 
standards across the country, if 56 percent are passing, and 
that's your office, has a rate of only 56 people passing, how 
are you getting a bonus at the end of the year?
    So I feel like they're immune unless you can prove that 
they're acting outside the scope of their employment and I 
think that that legal standard needs to change.
    Ms. Titus. It's a pretty vague standard, isn't it?
    Ms. Ruell. Uh-huh.
    Mr. Soto. I was just going to add, and I'll be quick, that 
maybe someone needs to determine that manager, his services are 
no longer required.
    Ms. Titus. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Fitzpatrick, you're recognized for 5 minutes.
    Mr. Fitzpatrick. Thank you, Chairman, for calling the 
hearing and certainly thank the witnesses of the panel for your 
incredible and compelling testimony tonight.
    Ms. Ruell, you testified in your opening statement that you 
came to the VA around 2007 and within a short period of time of 
your tenure at the VA you began to notice things were not 
working as they should. That claims were not being processed 
timely, claims were being lost. Fellow employees were reporting 
that mail was being set aside, and in some cases mail was being 
shredded. You know that we have constituents, perhaps a widow 
of a World War II veteran, who sits down and writes a 
traditional letter, handwrites a letter, puts a stamp on it, 
and sent it to the Philadelphia VA office believing that that 
claim would be processed, that that request, my simple request 
might be heard. That letter might have been shredded.
    You went on to find and report to your managers that 
duplicate payments were being made and as a dedicated employee 
of the VA, you tried to fix it. You asked that those duplicate 
claims be recaptured, be brought back in, to be ignored.
    Around the same time, I was sent by the people of the 
Philadelphia region to come back to Congress to serve them, and 
I had served a previous term. Back in the 109th Congress, 2005 
and 2006. So I had the chance to go back and rehire dedicated 
case workers who served veterans, who had worked with me in the 
past. They are veterans themselves.
    And within a short period of time, 2011, they were 
reporting to me that something was wrong at the Veterans' 
Administration. Not as they remembered it. Claims were being 
delayed, they couldn't get answers. They were sending letters, 
the letters were never received and we were hearing the same 
from our constituents.
    I did not know you at the time, Kristin. But you were 
saying the same things to your leadership at the Philadelphia 
Regional Office and for that you were criticized, you were 
castigated, you were abused, you were disciplined. And I think 
you ought to be applauded for trying to change the system from 
within. I think you are owed an apology from the Veterans' 
Administration. I think your fellow comrades here who are with 
you, that work with you in other offices, they should be 
applauded. There are thousands of dedicated Veterans' 
Administration employees who try to do the right thing from 
within.
    Our Nation's veterans deserve an apology. Some of them 
passed away while waiting for their claims to be processed.
    Ms. Ruell, you provided information when the administration 
at the Philadelphia office was not listening, to my office, 
flawed data, duplicate payments, which we wrote to General 
Shinseki when you brought that information to us in September 
2012.
    And a response was received in February of 2013 from the 
Under Secretary essentially that if there are any problems, 
they are so minor that we don't need to change any systems in 
order to address them.
    Knowing what you know, Ms. Ruell, how can the 
administration of the VA provide that kind of an answer?
    Ms. Ruell. I think it's the easiest answer to just ignore 
the problem. From working with the OIG the last 4 weeks, they 
are baffled as to datamine this information and find the 
problem.
    But I don't think an answer of it's inconclusive or we're 
not sure how to figure this problem out, is a fair answer to a 
veteran who's been waiting for their benefits and they are 
sitting in a box because they have two claim numbers and we're 
not sure what we're going to do with that claim.
    Mr. Fitzpatrick. Ms. Ruell, just last week, the 
Philadelphia VA acknowledged an entitlement and pension backlog 
of 49.6 percent, or 42,141 veterans served by the Philadelphia 
office, they are waiting more than 125 days for an answer to 
their claims. Based on your experience, is this an accurate 
statistic for Philadelphia?
    Ms. Ruell. No. If we didn't have that memo, I think the 
number would be much higher.
    Mr. Fitzpatrick. The Obama Administration has promised to 
end the VA benefits backlog by 2015. With 274,000 claims still 
stuck in the backlog, do you think this promise is feasible?
    Ms. Ruell. Absolutely not. It breeds corruption in the 
regional offices and we might say that claim has been 
processed, but it's probably not processed correctly, and we 
probably didn't help the veteran the way we're supposed to.
    Mr. Fitzpatrick. Are veterans of our Nation passing away 
while waiting for their claim to be processed?
    Ms. Ruell. Many.
    Mr. Fitzpatrick. Can you estimate how many?
    Ms. Ruell. No. But I know that that's the easiest kind of 
claim to do. If a veteran passes away, you hit one button and 
you get the same amount of credit as if you worked the claim 
and granted the benefit.
    Mr. Robinson. That number was 19,500 back in December when 
it was investigated by C.R., CIR, investigative report.
    Mr. Fitzpatrick. Yield back.
    The Chairman. Mr. Meehan for 5 minutes.
    Mr. Meehan. Mr. Chairman, I want to thank you for the 
courtesy of being able to be with you here today.
    And, Ms. Ruell, I see by your testimony that you were 
warned by a supervisor that you were--at the Philadelphia 
management center--that you were not permitted to report issues 
to your director and I greatly regret that and appreciate the 
courage of you appearing here today.
    In addition, your testimony and those of your colleagues 
has opened the door to the appreciation that we're seeing 
exactly the same type of cooking the books on the benefits side 
of the VA as has been exposed on the healthcare side. And this 
is a whole new exploration of the management problems at the 
VA.
    Your testimony is very compelling. You've talked about 
improper shredding of documents, you've talked about 
beneficiaries getting improper payments, and in many cases 
duplicate payments, you've talked about the failure to rectify 
once those payments have been improperly paid, and you've 
talked about the failure to notify the IRS of what could be the 
ability to recapture some of those, all very, very significant.
    Let me just drill down on a couple things, because I do 
want to follow up on some of these issues when we are 
concluded.
    You talked about the number of people who may have been 
receiving duplicate benefits. You've talked about the process 
of people receiving duplicate benefits. Do you have any 
estimate of how many people you believe are receiving duplicate 
benefits? Did I--what was the number of 41,000 duplicate 
records?
    Ms. Ruell. That was told to me by an employee in the 
central office. That would mean that our claimants are listed 
in the system with more than one PID number. At that point, 
anybody could get paid twice. It's up to the case processor to 
identify that it's a duplicate record and fix it.
    And, unfortunately, after I reported things in 2010, there 
was a list given out for people that were getting paid twice. I 
provided it I believe as an exhibit. I checked that same list 
last week. I checked every claim number on that list. 
Unfortunately, after we stopped the second payment, you have to 
fix the record so that that person that's looked at is----
    Mr. Meehan. The essence of it is, it may be as many as 
41,000 records that are duplicate?
    Ms. Ruell. Oh, there are probably duplicate records, yes. 
But probably are not----
    Mr. Meehan. Let me ask because my time is limited as well.
    Do you have any idea about the scope of the claims that 
have been paid in excess?
    Ms. Ruell. I only know the ones that I've seen. But I've 
seen over $2 million, when I researched it, the office of 
special counsel considered it a gross waste of funds was $2 
million or more. So it was my goal to at least prove that and 
that wasn't very hard.
    Mr. Meehan. You spoke as well about boxes of mail. What's 
the difference between military mail and returned mail?
    Ms. Ruell. I'm not actually sure what the difference is. 
That's just what they call this mail. And it's mail that we 
mail to a claimant and returned mail comes back because we 
don't have the right addresses. We pay by direct deposit now, 
which is not the best thing for a claimant because we don't 
know----
    Mr. Meehan. What about mail that's sitting there and 
nobody's going through and clarifying it? There is no response 
to the veteran who has sent that piece. Is that accurate?
    Ms. Ruell. Yep.
    Mr. Meehan. So we are waiting for up to 2 to 3 years.
    Now, one my colleagues already questioned you on this, but 
there are 96 boxes. You have testified, and I have in my hand 
the exhibit which clarifies and quantifies not just 96 boxes, 
but eight separate in addition, what were eight other filing 
cabinets of this kind of mail.
    To your knowledge, has any of that been shredded?
    Ms. Ruell. I know that when I went down a week later it 
wasn't there anymore. So I'm not----
    Mr. Meehan. When you say week later, when was the week 
later? This is going to be important for our follow-up.
    Ms. Ruell. When I reported that and I have made so many 
different reportings, I'm sorry, I can't remember.
    Mr. Meehan. We have a good record here with your exhibit. 
You have a colleague that brought to it your attention, and 
from your attention, you brought it to the attention of your 
supervisors, the fact that these boxes were sitting there and 
they were not handled.
    Ms. Ruell. Uh-huh. And then I went down subsequently, 
probably a week later, and all those file cabinets were empty.
    Mr. Meehan. So a week later, you went down and they were 
empty?
    Ms. Ruell. Yes.
    Mr. Meehan. Okay. We'll follow up on that.
    Sergeant Robinson, did you testify that there were some 
9,500 similar kinds of documents in Baltimore as well?
    Mr. Robinson. No. There was a report that in Baltimore they 
had boxes of documents that was not processed.
    Mr. Meehan. Not processed. But you don't know whether these 
were those that were the triage documents?
    Mr. Robinson. It had to be documents coming in because they 
were not established in the system.
    Mr. Meehan. Ms. Ruell, I thank you for that and I will work 
with my colleagues. But particularly, we are particularly 
concerned about the circumstances in Philadelphia. We will work 
to try to get some answers for you, particularly with regard to 
those boxes of documents that appear to have disappeared.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. LaMalfa for 5 minutes.
    Mr. LaMalfa. Mr. Chairman, Ranking Member, and committee 
members, I really appreciate the opportunity to be able to sit 
in on this committee here tonight. I represent far Northern 
California, very large district with a very significant 
veterans' population who have been very frustrated, as has our 
office, with just trying to get answers for our vets.
    I greatly appreciate this whistleblower panel being here 
tonight and having the guts to do that and you should not ever 
feel like you can't speak. So I'll try and keep it quick here.
    To all three of you, have you ever been told, and if this 
is redundant, my apologies to the committee but, have you ever 
been told not to take your concerns to members of Congress or 
to hear from members of Congress on how to handle issues, 
whether it's an individual claim or just the overall system? 
Have you ever been told not to deal with us, to don't talk to 
these members of Congress?
    Ms. Ruell. We're told that if we don't bring our issues 
internally, we were sent an email that it was an improper 
avenue of redress. When we got our yearly whistleblower email, 
we got another email that came with it that said recently a lot 
of employees have been contacting the Under Secretary with 
issues at work. And they told us in that email that it was an 
inappropriate avenue of redress.
    And I immediately reported it and said, are you telling us 
which can't whistleblow? And they resend the whistleblower memo 
out with new language.
    Mr. LaMalfa. And the other two members of the panel, how 
have you been dealt with?
    Mr. Robinson. No, I took up my issues with the VA chain of 
command for X-amount of years and now I started sending letters 
to Congress, and no one has told me that I couldn't sent them.
    Mr. LaMalfa. Mr. Soto.
    Mr. Soto. We have not been told. But when, similar 
experience as Ms. Ruell, when individuals contacted the under 
secretary directly via email, they got back letters from 
management saying you violated the chain of command, et cetera, 
et cetera, and they received threats and that sort of stuff.
    Mr. Lamborn. Well we feel we're different than the chain of 
command because we handle first hand. We take the phone calls 
from veterans when they can't get satisfaction with the VA. Our 
offices get those calls. So we intervene on those cases and 
when we run into a brick wall because of management, again, we 
deal with the Oakland regional office, which is now under new 
management. We feel pretty positive about that at this point.
    But under the old regime, we were stonewalled pretty badly. 
Even so much as I had a staff member who decide to hand 
deliver, not try and go through the mail system, a claim for a 
veteran who had waited 36 years to be handled and was denied 
entry into the building. The security was waiting for her.
    So to follow upon that, do you feel you've had the freedom 
or do you feel like you should be able to talk to a member of 
Congress or staff because of they're firsthand dealing with a 
veteran's claim as they called us when they can't get through 
to VA?
    Ms. Ruell. Definitely. I mean, we have a Congressional team 
in our office. So if a Congressperson calls in, they speak to 
the Congressional team. The problem is, so many people now have 
figured out that's the way to apply for benefits that we have 
so many Congressionals to work on that those are taking 
priority over the people that have been waiting many years. So 
it's not----
    Mr. LaMalfa. Truly. It shouldn't be that way. Because you 
shouldn't have to contact your Congressional office to get 
results. We should only be there to help big-picture things. 
But, nonetheless, we're not going to tell them no. As much as 
we can keep up and we'll probably--one of my offices, 70 
percent of their work is handling veterans' phone calls. So 
there's something broken in the system here.
    Follow up. We've had in our Oakland office, again, previous 
management ordered them to deny or underrate claims or give 
zero percent ratings in order to process claims.
    Have you ever been ordered to just get them off the books, 
to deny them or find zero percent or low ratings? Have you ever 
been ordered to do that? All three of you again, please.
    Mr. Robinson. I don't rate cases, so I have never been----
    Mr. LaMalfa. Do you know of that in your office of those 
that do?
    Mr. Robinson. I can't answer that question.
    Mr. LaMalfa. Okay.
    Ms. Ruell.
    Ms. Ruell. I don't rate cases either.
    Mr. LaMalfa. Do you hear of such thing?
    Ms. Ruell. Indirectly, we hear that the rules aren't 
totally being followed when processing claims. So I believe 
that it's not about zero percents or ratings. I believe that 
people are getting denied because it's faster to do it that way 
than granting the benefits. And----
    Mr. LaMalfa. And then they may get kicked to the board of 
appeals.
    Ms. Ruell. Yes.
    Mr. LaMalfa. Perhaps.
    Mr. Soto, really quickly; I only have a few seconds.
    Mr. Soto. In talk to other raters. We passed this thing 
called changing the game rules and in that sense, to me, in my 
view, what it meant was that for increased claims, we would try 
to rate the evidence of record that usually resulted in zeros 
or denials rather than ordering an exam for example.
    Mr. LaMalfa. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Members, thank you for your questions. We want to thank 
again the folks for testifying. We appreciate your courage in 
coming forward. You are now excused. Thank you for being here 
tonight.
    Go ahead and call the second panel to please come forward. 
If I could ask everybody to go ahead and take your seats. Again 
noticing that the witnesses are at the table. I'd like to ask 
the audience to go ahead and take their seat. And the witnesses 
to please rise, raise your right hand.
    [Witnesses sworn.]
    The Chairman. Please be seated.
    Each of your complete written statements will be made a 
part of the hearing record.
    Members, prior to recognizing the witnesses for testimony, 
I'm going to address a recent issue, and I'm going to provide a 
timeline to each of the members for your own information 
because it's going to be a little hard to follow the timeline 
as I recount it for you.
    But I instructed the committee staff to make a visit to the 
Philadelphia Regional Office on the 2nd of July of 2014. As of 
the 20th of June, specific concerns that we've heard tonight 
had been raised on the management or more accurately 
mismanagement of that regional office and I did want our staff 
to spend a day on the ground to perform a technical review of 
some of the various files, view the office and meet with 
individuals who work there.
    This is a customary thing for our staff to do. So let me 
run through what occurred on this unannounced visit. My staff 
alerted the Office of Congressional Legislative Affairs of 
their imminent arrival at approximately 9:00 in the morning and 
about 20 minutes later, they arrived. They were greeted by an 
employee of the regional office, and they were accompanied to a 
conference room on the fourth floor. Within moments of arrival, 
while waiting for the acting director of the regional office, 
one of my staff went to the rest room on the 4th floor and 
there was another individual that was in the rest room who had 
set a yellow notepad not far from the sink.
    And when my staff member went by the sink, they noticed 
that there was writing at the top of the page that was circled. 
In fact, we've got a copy of it. I'd like to go ahead and post 
it, if we can, so everybody can see it. Members, you have a 
copy of this. It's the yellow legal pad.
    And two names were circled at the top of the page. Now, 
these two employees were from the regional office, and they 
both had acted as whistleblowers to improper activities in the 
past. All right, my staff then looked at the remainder of the 
page and on it was written my staff members' names for 
information of their status with the Committee on Veterans' 
Affairs and then if you will notice about midway down, you will 
see where the word ``ignore'' was followed by one of my staff 
member's name. So you see the word ``ignore'' located to the 
left of the pen.
    Before I finish the timeline for the members' benefit, the 
person who exited the rest room with the yellow notepad in hand 
was the acting director, Lucy Filipov, of the Philadelphia 
regional office. And now, the acting director met with my staff 
moments later in the conference room when requested, who had 
provided notice of the visit she stated she had not spoken with 
OCLA but instead had only spoken with Diana Ruebens moments 
earlier regarding the Congressional staff's arrival.
    She then began the meeting with two comments, first she 
said that the Philadelphia regional office endeavors to do all 
things with integrity and give proper benefits to veterans and 
second she made a curious statement when taken in the context 
of Ms. Filipov's possession of the notepad with the names of 
two of our whistleblowers at the very top that were circled. 
She said it's difficult to have employees or ex-employees who 
say that we are not doing a good job.
    And when we hear from Ms. Holiday for the Office of the 
Inspector General in a moment I believe that this professed 
commitment to integrity and service to veterans is going to be 
seriously challenged on the basis of verified data 
manipulation, the leadership's failure to follow reporting 
protocols and OIG's ongoing investigation into a myriad of 
inappropriate practices.
    Now, while in the conference room on the fourth floor the 
VSO or veterans service manager told Ms. Filipov that the 
appeals team were on their way up for files and computers to 
facilitate my staff's access. Then, in an exchange that 
transpired three separate times, Ms. Filipov directed that the 
Congressional staff be accommodated in a room on the third 
floor despite repeated protestations of the veterans service 
manager.
    Both Ms. Filipov and the veterans service center manager 
then exited the conference room. Then they came back and Ms. 
Filipov dictated that our staff would in fact be directed to be 
accommodated on a room in the third floor.
    This room was found to be wired with activated microphones 
and an activated camera. So it could be no surprise to anyone 
that the staff requested relocation to a different room. A room 
that VA OIG had vacated which was presumably free of recording 
devices.
    Now, back to my message. The acting director was in 
possession of a note upon which was written ignore my staff. Am 
I surprised? No. Actually I'm shocked. As my colleague and 
Ranking Member Mr. Michaud observed at our hearing on 
whistleblowers last week, VA is widely known to have a culture 
of denying problems and not listening to feedback. Be it from 
Congress, be it from veterans or from its own employees.
    Now, VA ignores its whistleblowers who report practices 
that go against the principles of the department, Acting 
Secretary Gibson has already been noted tonight that he is 
deeply disappointed in the failure at VA to take whistleblower 
complaints seriously. VA ignores VSOs when they are found to be 
inconvenient such as when VBA obstructed the American Legion's 
regional office action reviews and limited the legion's ability 
to fruitfully conduct its visits, converse with claims 
processing staff and review disability benefits claims in 
accordance with its long standing practice of seeking quality. 
VA now ignores committee staff as well.
    Particularly my staff visits to regional offices to perform 
technical legal claims review. By way of example, on a recent 
visit, 14 appeals files were reviewed from two regional 
offices, 12 of those 14 were found to have remandable errors. 
Yet when my staff convened with regional office staff to 
demonstrate the errors and seek correction for the veterans 
that had been negatively affected, the regional staff refused 
to acknowledge often even the most rudimentary of the mistakes. 
Quite simply this oversight complicates VBA's messages that 
they are doing a great work.
    So while VA may ignore employees, ignore whistleblowers, 
ignore VSOs, ignore members, ignore Congressional staff and 
ignore--let's not forget the veterans they are supposed to 
serve--let me stress, you will not ignore this committee 
anymore and be on notice: you will not ignore our staff that is 
acting as this committee's agents as well.
    The committee has constitutional oversight and I intend 
that it shall be carried out unhindered on behalf of the 
American public and on behalf of our Nation's veterans.
    And if you look very carefully--put this note back up--
there--are some pretty derogatory comments that are on this. 
Would anybody at the table like to comment about the comments 
that are written on this piece of paper?
    Ms. Hickey, you're welcome to comment.
    Ms. Hickey. Chairman, without question, without question, 
we respect the oversight of this committee and your staff.
    What occurred on that day was not acceptable and not 
indicative of the normal ways in which Ms. Rubens might behave.
    And I know that she has been on visits with your staff and 
even with members of this committee before, and I think, if we 
reflect on those visits in the last year, you would say she did 
not repeat similar behaviors.
    But I will not excuse it. I have not excused it with her. 
And I will just tell you, without question, it is unacceptable.
    And I offer on behalf of the Department, my sincere 
apologies to your staff who experienced that, that day, and my 
commitment that it will not happen again and that you will 
receive, absolutely, with open arms and full leaning-in 
support, anything you need on any visit you go on.
    The Chairman. Under Secretary Hickey, can you explain why 
Ms. Rubens came to our offices to try to cover up what had 
taken place and gave a totally implausible reason?
    In fact, I believe the excuse she gave was that she did not 
say these things. She said that other people were saying these 
things and that, in fact, staff should ignore them.
    So you're now saying Ms. Rubens did lie when she came into 
our office?
    Ms. Hickey. Chairman Miller, I was not present when Ms. 
Rubens came to talk to you. I do know her entire purpose for 
coming to talk to you and to your staff was to express her 
sincere regret for her comments made on that piece of paper.
    The Chairman. Okay. Well, I apologize, but I'm going to 
take just about 2 more minutes. All right?
    On this note, it talks about arrogance, it directs a person 
to ignore a committee staff person, and then it makes another 
derogatory statement about a committee staff person.
    Ms. Rubens came to our committee offices and, when she did, 
she did not apologize for that. What she said was she had told 
the acting director to ignore what other people may be saying 
about my staff.
    And you're telling me this person is still employed even 
though she gave a directive to not tell an agent of this 
committee what was happening at the regional office?
    Ms. Hickey. Chairman Miller, I will say again, without 
question, without question, we respect the oversight of every 
single one of you on this committee and in these hallowed 
halls.
    And any one of you who would like to come at any point in 
time--and many of you have--into our regional offices, we will 
effect every possible way to support you, your staffs, in any 
oversight you need to exercise.
    I commit that to you, and I would please--ask you to please 
call me directly if you ever see anything different.
    The Chairman. So I'll take that as a ``no,'' that Ms. 
Rubens did not lie, even though she did. Again, your commitment 
is appreciated, but it is not believed. I appreciate you being 
here tonight.
    Ms. Halliday, you are recognized for 5 minutes.

                 STATEMENT OF LINDA A. HALLIDAY

    Ms. Halliday. Chairman Miller and Members of the Committee, 
thank you for the opportunity to discuss the OIG's recent 
oversight work within VBA.
    I'm accompanied by Mr. Brent Arronte, the Director of the 
OIG San Diego Benefits Inspections Division.
    OIG provides cyclic oversight of VARO operations and 
performs national audits, special reviews, and reviews 
allegations to help identify and address problems in VAROs.
    We see that VBA is making some incremental progress through 
its initiatives and in response to implementing OIG 
recommendations, but more work needs to be done.
    We have concerns that VBA's performance goals are not 
realistic and compromised by data integrity issues. VBA has 
appeared more concerned with reaching its goals than providing 
a balanced approach to its workload management.
    We continue to find significant claims processing error 
rates, resulting in improper payments that, in some cases, 
create hardships for veterans.
    Today we issued the results of a review of VBA's special 2-
year initiative to clear old claims. This initiative was put in 
place so that the veterans who waited the longest would begin 
collecting benefits.
    VBA implemented a provisional rating process, but we found 
it was less effective than VBA's existing intermediate rating 
process in quickly providing benefits to veterans.
    Instead, we determined VBA's policy change removed 
provisional rates from the pending inventory while additional 
work was still required.
    Once removed, VAROs did not place a priority on finalizing 
these claims, which were no longer considered part of the 
backlog.
    The policy change led to inaccurate reporting of VBA's 
workload statistics on pending and completed claims. We also 
projected that VBA did not accurately process about 32 percent 
of the rating decisions completed under the initiative. We 
estimated these inaccuracies resulted in about $40 million in 
improper payments.
    VBA set priorities to meet performance goals aimed at 
clearing the backlog of pending compensation claims. This 
approach has created additional backlogs and delays in other 
critical workload areas, such as appeals and non-rating claims, 
including changes to veterans' dependents.
    Other claims processing activities, such as the management 
of temporary 100 percent disability evaluations, military drill 
pay, compensation offsets, and benefit reductions also need 
improved financial stewardship to reduce the risks of improper 
payments.
    We've been told by VBA staff that higher priorities, such 
as processing the compensation backlog, took precedence over 
processing three other workloads.
    We see that VBA needs to ensure adequate resources are in 
place to reduce the financial risks and the improper monthly 
benefit payments and, most of all, provide better services to 
veterans.
    In the wake of receiving a large number of allegations of 
patient wait time manipulation in VHA, we are receiving a 
number of serious allegations regarding mail mismanagement, 
manipulation of date of claims, and other data integrity issues 
in the Baltimore, Philadelphia, Los Angeles, Oakland and 
Houston VAROs, and today we received an additional allegation 
regarding the Little Rock VARO.
    VBA reported to us the mail mismanagement problem at the 
Baltimore VARO that led to confirmation that over 9,500 pieces 
of unprocessed mail needed immediate attention.
    In response, VBA has moved quickly to take action to 
process this mail. We have teams onsite at three VAROs, and our 
work is not complete at the Philadelphia VARO. And we are 
sending staff to two other VAROs to review the merits of 
allegations.
    But, more importantly, I am asking my staff to ensure we 
understand why these problems are occurring and how they are 
impacting veterans needing benefits so that appropriate 
corrective action can be taken.
    VBA continues to face challenges to improve claims-
processing accuracy and timeliness. Further, we are concerned 
at how quickly the number of VAROs with allegations is growing, 
and we are working to ensure appropriate oversight.
    Moving forward, should the number of allegations continue 
at this pace, we will need to implement additional oversight 
and expand our benefits inspections to review more high-risk 
activities in the VAROs.
    Mr. Chairman, this concludes my statement. And we would be 
pleased to answer any question you or the committee Members 
have.

    [The prepared statement of Linda Halliday appears in the 
Appendix]

    The Chairman. Thank you.
    Under Secretary Hickey, you're recognized.

                 STATEMENT OF ALLISON A. HICKEY

    Ms. Hickey. Chairman Miller, Ranking Member Michaud, 
Members of the committee, thank you for the opportunity to 
discuss the progress of the Veterans Benefits Administration, 
as we work hard to provide the best possible service to 
veterans, their families, and survivors.
    But before I provide a progress report on our 
transformation efforts, I want to make it clear to this 
committee, to every veteran, every family member, survivor or 
supporter of veterans, that VBA takes seriously our commitment 
to provide timely, accurate benefits and maintain the integrity 
of our systems and processes.
    I have been saddened and offended by recent events within 
the larger VA system where some of my fellow veterans have not 
been served with honor, respect and priority they deserve.
    I know that the number one question on your minds is 
whether the accuracy of data within VBA's systems can be 
trusted by members of this committee or by the American people.
    We have many checks and balances on our systems and data, 
and we are working to make them even more trustworthy. Every 
claim has 11 layers of human intelligence through which it is 
processed, where any of those 11 individuals can catch an 
error.
    We also have valuable third-party validators, like our VSO 
partners, who review every claim we work where they hold the 
power of attorney. We don't close the claim unless they do.
    Our data is held at the national level, not on local data 
systems. It is updated and protected every night with 
controlled access, 90 percent of our work is now completed in 
an automated system, VBMS, which provides a significant audit 
trail and, as such, is a valuable deterrent to data 
manipulation and misuse.
    We also have a dedicated analytics team that constantly 
reviews our workload data, looking for anomalies within the 
system so management can respond quickly.
    Even with all these controls and more--and I have learned 
this through a 27-year military career, retiring as a General 
officer, that there will always be someone you thought you 
could trust, but, instead, used extremely poor judgment and a 
total lack of integrity as they figured out ways around the 
system.
    In our VBA business, that means they hurt veterans, and 
that is grossly unacceptable to Acting Secretary Gibson, to me 
and to VA's dedicated employees, 52 percent of which in VBA are 
veterans themselves.
    When we find these individuals, you can rest assured I will 
respond quickly to the situation and begin necessary actions. 
One of those actions is to immediately notify the Office of 
Inspector General, to whom we proactively refer cases on an 
ongoing basis.
    Intimidation or retaliation, not just against 
whistleblowers, but against any employee who raises a hand to 
identify a problem, make a suggestion or report something in 
law or policy or core values, is absolutely unacceptable to me.
    I invite people to talk to me. And I have heard tonight 
that some have maybe prevented them from doing that when I 
invite them to, and that is unacceptable to me.
    To ensure our organization is upholding our values, we are 
doubling down on our efforts to ensure the integrity of our 
systems and processes.
    Acting Secretary Gibson has directed that an expert team be 
assembled to brainstorm possible scenarios where an individual 
might find a way around the system and determine if further 
controls are needed.
    Additionally, I have directed a 100 percent facility and 
desk audit of mail and documentation at all 56 regional 
offices. VBA will also continue to provide publicly available 
performance data on the Monday Morning Workload Report and the 
ASPIRE dashboards.
    Now let me please update you quickly on our transformation 
progress.
    As a direct result of the transformation efforts, yes, we 
have reduced the backlog of veterans' claims by more than 56 
percent from its peak of 611,000 to 271,000 today.
    Last year our employees completed an all-time record-
breaking 1.17 million claims. This year we're on track to break 
that record again by completing 1.3 million claims.
    We will disburse $67 billion into veterans' hands. That's 
$18 billion more than when I arrived in fiscal year 2011. And 
as of last Thursday, we've already completed a million claims 
this year.
    More importantly, it's not come at the expense of quality. 
We've increased our claim-based accuracy from 83 percent when I 
arrived to 90.3 percent today.
    No matter which way you look at it, how it's viewed, how 
you cut it, 3-, 12-month, claim, issue, all of them are over 90 
percent today because our employees are working hard at that.
    But I get it. I know you still have questions. As a result, 
I have recently directed VBA to apply for the ISO 9001 
certification, the ultimate global benchmark for quality 
management.
    As we prioritize disability rating claims, we have not lost 
focus on other areas. We've completed 2.5 million non-rating 
end products, highest we've done in 15 years.
    We also need to do a better job on them, though. We need to 
be more timely. That's why we initiated a seven initiative 
effort to focus on them, and I'm happy to talk to you about it 
today.
    We've not lost focus on appeals either. The appeals rate is 
steady. It has stayed steady for 20 years at 11 to 12 percent.
    However, as we complete record-breaking numbers of claims 
at a 10 to 12 percent rate--or an 11 to 12 percent rate--excuse 
me--I apologize--we are going to get more appeals because the 
rate hasn't changed, but the volume has.
    It's unacceptable. And I ask this committee for its 
continued support, especially in the area for legislative 
solutions. While the employees have made good progress, we 
recognize still more work to be done.
    I greatly appreciate the support of this committee and am 
prepared to answer your questions.

    [The prepared statement of Allison A. Hickey appears in the 
Appendix]

    The Chairman. Mr. Bertoni, you're recognized for 5 minutes.

                  STATEMENT OF DANIEL BERTONI

    Mr. Bertoni. Mr. Chairman, ranking member, members of the 
committee, good evening. I'm pleased to discuss the Department 
of Veterans Affairs quality assurance activities and related 
goals.
    Last year VA paid nearly $54 billion in benefits to 3.6 
million veterans. Given these sums and number of veterans 
served, it's important that the Department have a robust, 
credible quality assurance framework to ensure all veterans 
receive accurate and consistent decisions on their claims.
    In prior work, we've documented shortcomings in VA's 
quality assurance activities, and more recently concerns have 
been raised about the lack of transparency related to changes 
in the Agency's national accuracy rate for disability claims, 
which is based on a Systematic Technical Accuracy Review, or 
STAR.
    My remarks today are based on our ongoing work for this 
committee and discuss the extent to which VBA effectively 
measures and reports the accuracy of disability claims and the 
extent to which other quality assurance activities are 
complementary and coordinated.
    In summary, the Agency now measures and reports accuracy in 
two ways, by claim and by issue, but its approach has some 
limitations.
    When calculating STAR accuracy rates for either measure, 
VBA falls short of generally accepted statistical practices in 
that it doesn't weight the results to reflect that it samples 
the same number of cases from all offices, regardless of size, 
and, thus, produces imprecise estimates.
    Absent this calculation, regional office accuracy rankings 
may be skewed and VA may focus corrective action or positive 
recognition on the wrong offices.
    Preliminarily, by taking weighting into account, we 
calculated that VA's Reno office ranking would actually improve 
from its current 34th place among all offices to 22nd place. 
Conversely, the Los Angeles office would drop from 46th to 56th 
place.
    Further, VBA's approach to measuring accuracy is 
inefficient due to its sampling methods, which cause it to 
review over 5,000 more claims than necessary, thereby diverting 
limited resources from other quality assurance activities, such 
as conducting more targeted reviews of error-prone cases.
    And, finally, VBA's public reporting of its methodological 
information lacks details that could help users better 
understand the distinction between its accuracy measures and 
their limitations and perhaps alleviate any confusion 
associated with them.
    Beyond STAR, VBA's quality assurance framework includes 
other complementary activities, such as local quality review 
teams in each regional office that conduct reviews before 
claims are finalized and provide feedback to staff to avoid 
future errors.
    However, in three of four offices we visited, claims 
processed during overtime hours, which can be substantial, were 
excluded from such reviews and may undermine the Agency's 
efforts.
    Also, to help claims processors make consistent decisions 
when presented with the same evidence, VBA now uses electronic 
questionnaires to test for consistency that can be administered 
to thousands of staff at once.
    However, we found that the Agency has never pre-tested 
these documents to ensure the clarity of questions or the 
validity of expected results. Pre-testing is a generally 
accepted practice in sound survey and questionnaire 
development.
    And, lastly, VBA coordinates its quality assurance efforts 
by disseminating national accuracy and consistency results and 
related guidance to regional staff. The Agency also uses the 
results of STAR to focus training and guide local quality 
reviews.
    However, regional staff we interviewed noted that there are 
too many sources of guidance and that searching for them is 
often time-consuming, confusing and difficult.
    Staff were also concerned that VBA's policy manual and 
national training were not sufficiently updated to help them 
avoid future errors.
    In conclusion, VBA has made enhancements to its quality 
assurance program, but missed opportunities to fully 
demonstrate its commitment to quality.
    In particular, the Agency is producing imprecise accuracy 
estimates that are being used to guide program management and 
improvements and, also, missed an opportunity to win the 
public's trust when they introduced a new measure absent full 
explanation of its meaning and limitations.
    In other areas, its failure to follow generally accepted 
practices has led to design and implementation shortcomings for 
some initiatives, which otherwise are representative of sound 
quality assurance practices.
    However, all of these issues can be addressed with more 
focused and sustained management attention. In going forward, 
we will continue to work with VA and this committee to ensure 
veterans' claims are adjudicated accurately and consistently.
    This concludes my statement. I'd be happy to answer any 
questions you may have. Thank you.

    [The prepared statement of Daniel Bertoni appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Bertoni.
    First question.
    Mr. Murphy, if you would, sir. Last time you were here 
before this committee, I asked you a question about discovery 
claims and Fast Letter 13-10, and I think you gave me a half an 
answer.
    You're the signatory to the fast letter, which directed all 
employees to apply the date of discovery for the date of claim 
for tracking and reporting purposes.
    However, in your testimony, you said that, if there's a 
date stamp on it, we receive it 4 years ago and it is sitting 
in a desk drawer somewhere, it goes into the system as 4 years 
old.
    Then less than 48 hours after I asked you the question you 
rescinded the fast letter, you deleted it from your repository, 
and it was cancelled; the scheme that was called discovered 
claims.
    You were sworn at the time to give the truth, the whole 
truth, and nothing but the truth. Do you think that you told 
this committee the truth, the whole truth, and nothing but the 
truth?
    Mr. Murphy. Yes, sir, I do.
    Ms. Hickey. Chairman Miller, may I add?
    It was under my guidance and my direction to suspend the 
letter. And that happened from me to Mr. Murphy, and Mr. Murphy 
took the action.
    The Chairman. I believe it was a recommendation of the 
Office of Inspector General. So you took their recommendation.
    It was not your idea, was it?
    Ms. Hickey. In fact, Chairman, we--I did take the 
recommendation from the Inspector General, but we were 
concurrently, at the same time, considering that as the best 
thing to do while we investigated further.
    The Chairman. Then, Under Secretary Hickey, why did 
somebody send out a memo basically that says, ``Though we may 
not agree with this procedure, it is a national guidance and we 
will follow it?''
    Ms. Hickey. Chairman, I don't know what memo you're 
referring to. If you'd like me to look at it, I could make 
comment to you.
    The Chairman. I think the subject line is ``Assistant 
director huddles went out on July 10th,'' and it was put out 
because of the hearing that we had several weeks ago and this 
one as well.
    I'll be glad to provide you a copy of it, but I just think 
it's very curious that folks would say that they don't agree 
with the national guidance, but they're going to follow it.
    Ms. Hickey. Chairman, I'll take that for the record and get 
you an answer.
    The Chairman. To all of the VA witnesses, I want to ask a 
few questions about the backlog numbers that you report in your 
Monday Morning Workload Reports.
    It's important to note that, in your report, you don't 
include End Product 930, the number which, in fact, has grown 
substantially as of late, and End Product 400, which includes 
provisional ratings.
    If you were to include the End Product 930, which 
essentially is a place to hold rushed and incomplete claims, 
your backlog percentage would jump by 10 percentage points to 
60 percent.
    In addition, over a 14-month period, March of 2013 to May 
of 2014, the inventory of End Product 400, which includes 
provisional ratings, surged from just over 29,000 to over 
107,000, by a 367 percent increase.
    So explain to me what you're doing with End Products 930 
and 400. It simply makes them a secret category whereby you're 
able to hide incomplete or prematurely decided claims to 
improve the appearance of your backlog numbers.
    Under Secretary Hickey.
    Ms. Hickey. Chairman Miller, I'm going to--I told you I 
would tell the truth when I put my hand up. So I will tell you 
the truth.
    I don't know every number for every end product. So I 
apologize for not being able to cite you what an end product 
930----
    The Chairman. Can you give me who does at the table? Mr. 
Murphy or Ms. Rubens. Either one of those will know the answer.
    Ms. Hickey. Okay. I will happily do that, but may I first 
comment----
    The Chairman. No, ma'am. I have 38 seconds left. I'd like--
--
    Ms. Hickey. Okay. Chairman----
    The Chairman [continuing]. To know the answer to my 
question.
    Ms. Hickey [continuing]. I will ask Ms. Rubens to please 
comment.
    Ms. Rubens. Mr. Chairman, I would point to the Monday 
Morning Workload Report where, in fact, your numbers on End 
Product 400, they are control, correspondence and have been 
used for some development.
    And the 930 end product, which are reviews, including 
quality assurance, are, in fact, reflected in the work that we 
demonstrate for completion.
    Ms. Hickey. Chairman, now that I know what the titles are, 
I can add to that discussion.
    The Chairman. No, ma'am. I don't believe that anybody at 
the table is telling me the truth from VA. I think that you're 
using the numbers to hide backlog claims.
    I think you've selectively chosen not to include End 
Products in your backlog numbers to make the appearance of 
progress of the backlogs.
    So, quite simply, it's data manipulation that prevents 
veterans from obtaining access to the benefits they have 
earned.
    Mr. Michaud, you are recognized.
    Mr. Michaud. Thank you, Mr. Chairman.
    Ms. Halliday, as you have done your investigation, you have 
continued to iterate that a singular focus on rating claims is 
starting to come at the cost of other workload falling through 
the cracks.
    What would you--what would be your suggestions to address 
this situation?
    Ms. Halliday. Mr. Michaud, we recently looked at the Quick 
Start program, the special initiative to clear the backlog 
claims and we've looked at appeals.
    There's been a constant reallocation of staffing away from 
some of these initiatives to work the pending backlog of 
compensation claims.
    At some point, if you want these initiatives to be 
successful, you have to dedicate the workload to accomplish the 
job.
    Mr. Michaud. Thank you.
    General Hickey, as I mentioned in my opening statement, 
dependency claims have risen by nearly 2,000 percent in 4 
years, with the majority of those being backlogged.
    What--well, when does the VA anticipate ending the non-
rating backlog? Do you have any specific date or proposal?
    Ms. Hickey. Congressman Michaud, in 2005 was the first 
time, under a completely different administration, that the 
125-day initiative was set.
    In 2009, the former Secretary of VA, Secretary Shinseki, 
set the aspirational goal of no claim older than 125 days. 
Prior to that, it had been an average of 125 days and at 98 
percent accuracy.
    All-in-all of these cases, even dating back as far from the 
history that I can take--because I have only been here since 
2011--the focus has been on the rating work and the priority. 
And there's a really good reason for that.
    In order to even access, in order to even be able to get a 
different benefit that's in the non-rating bucket, you first 
must have a rating.
    So, by example, in order to get a dependency claim, you 
have to have been rated at least 30 percent in a rating claim 
that you gave us; hence, the reason why the backlog is focused 
on the rating claims.
    I can tell you this. I can tell you that we have a really 
good plan around, especially, dependency claims. We have built 
a system called Rules Based Processing System, RBPS, whereby, 
when a veteran files online for their dependency claim, that 
they--50 to 60 percent of the time they are paid in a single 
day, a single day. That's what we're moving towards from a 
technology solution.
    Mr. Michaud. Did you----
    Ms. Hickey. But for the ones that are waiting Congressman, 
I will tell you, we have also done a contract.
    The contract is lifting them up in paper and putting them 
into the Rules Based Processing System so we can get those done 
as well.
    Mr. Michaud. Do you have a date? That's my question.
    Ms. Hickey. I do not have a date, Congressman. There's 
never been a goal set around non-rating work that has a 
specific date associated with it.
    Mr. Michaud. Okay. Mr. Bertoni? Did you find any instances 
in which VA is intentionally manipulating the data to present 
better outcomes than what's really happening?
    Mr. Bertoni. I wouldn't say it's intentionally 
manipulating. I think, as I noted in my statement, just in 
several basic areas, they are not following general statistical 
practices.
    That looseness in their methodology translates to numbers 
that aren't accurate and aren't very helpful in terms of 
looking at trends over time, in terms of performance, accuracy 
rates, and are comparing offices in terms of relative 
performance.
    As I said, when we applied simple weighting, we had several 
swings in offices that suddenly improved in standing, 
relatively speaking. That's just good--that's not good metrics.
    And in an organization with a mission as important as this, 
the dollars involved, the numbers involved, you need to have 
precise estimates, and there's more work to be done to get 
there.
    Mr. Michaud. Okay. Thank you.
    General Hickey, quickly, there are some pretty serious 
allegations and compelling allegations made by Ms. Ruell with 
regard to the shredding of at least 96 boxes and 8 cabinets of 
military and returned mail documents.
    Can you provide us with any additional information about 
how VA handled this situation when it was highlighted by Ms. 
Ruell?
    Ms. Hickey. I can, Congressman. In fact, I reacted very 
quickly. When I first heard the conversation, Ms. Ruell 
reflected that it came down to me via an email. I immediately 
dispatched my director for pension service.
    He took a complete team up there. They went through every 
one of those boxes to make sure that there was not anything 
that was amiss in those boxes. And, in fact, I can attest to 
the fact that it's not.
    Let me just explain what is in those boxes. The pension 
service works a little different than the compensation service. 
They are not in VBMS yet, though I would like to see them in 
VBMS in the future.
    But what they do is they work the claim in paper first and 
then they scan in the documents afterwards. And once they have 
this document scanned in then there is a normal procedure for 
the proper disposition of that paper.
    We will address the same issue on the compensation side. 
We're working closely with DoD on what do we do with paper that 
we don't use anymore because it's all electronically scanned in 
the system. We will have to address that same thing.
    But I understand. I'm very concerned about any--any idea 
that we might be inappropriately shredding documents, and I 
will--that's why we're taking our time figuring out what we do 
in the compensation business around that paper.
    The Chairman. Mr. Lamborn, you're recognized for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Ms. Hickey, how many people work under you at the Veterans 
Benefits Administration?
    Ms. Hickey. Congressman, there are over 20,000 people.
    Mr. Lamborn. Okay. And in an average given year, how many 
of them get fired?
    And please consult with Mr. Murphy or Ms. Rubens if you 
need to.
    Ms. Hickey. I will probably ask Ms. Rubens to further 
elaborate. What I can tell you is that we go through a fairly 
extensive process before people are fired.
    Mr. Lamborn. No. No. I didn't ask you what your process 
was.
    How many in an average year?
    Ms. Hickey. I don't know that I have that information, but 
I will ask Ms. Rubens if she does.
    Ms. Rubens. Sir, I don't have the current number that were 
fired, for instance, within the last year. I do know that 
currently across the workforce today we've got 66 employees who 
are on performance improvement plans.
    Mr. Lamborn. Okay. And they would be ones eligible for 
firing if they didn't improve their performance?
    Ms. Rubens. Our goal first, though, is to help them improve 
their performance----
    Mr. Lamborn. Right.
    Ms. Rubens [continuing]. And look for other things that 
they've been successful in in other positions within the VA.
    Mr. Lamborn. But you can't tell me how many people get 
fired in an average year?
    Ms. Hickey. We could do that, Mr. Lamborn. I don't have--or 
Congressman Lamborn. I apologize. I don't have that immediately 
available. I'm happy to provide it.
    Mr. Lamborn. Given all the procedure you have to go 
through, it's probably a fairly small number, I would guess.
    Ms. Hickey. I believe that it is probably, appropriately, a 
small number. If we can, certainly, remind this great committee 
that I have 52 percent of those employees who are veterans.
    Mr. Lamborn. Excellent.
    Ms. Hickey. And I have about 46 percent who are a direct 
family member of veteran----
    Mr. Lamborn. And of those who are fired, how many of those 
are for cause versus how many of those are just let go without 
being given a reason?
    Ms. Hickey. Generally, we do not let people go without 
giving them a reason.
    Mr. Lamborn. Okay. Well, you heard Javier Soto's comments 
earlier in response to my and other people's questioning that 
he was let go on June 30th without being given a reason from 
the St. Petersburg Regional Office.
    Are you aware of that?
    Ms. Hickey. Congressman Lamborn, I was made aware of it in 
the hearing tonight.
    Mr. Lamborn. Okay. And he was not given any reason.
    He got the letter on June 30th. On the 24th of June, he had 
given a report--and I believe this was on behalf of Local AFGE 
1594--somewhat critical of the leadership on how they processed 
claims. And then--let's see--6 days later he's fired without 
being given a cause.
    Is this a normal activity or is this something out of the 
ordinary?
    Ms. Hickey. Congressman, this is not a normal activity. I 
will look into the very specifics of it. I will not discuss, 
out of privacy and protection for Mr. Soto, any specific issues 
associated with his employment that----
    Mr. Lamborn. Well, please give me----
    Ms. Hickey. That would not be respectful.
    Mr. Lamborn. It sounds to me like we could have a 
whistleblower here who is being retaliated against.
    Ms. Hickey. I will absolutely look into that.
    Mr. Lamborn. And that's a really serious matter to all of 
us on this committee, because we want whistleblowers to come 
forward when there is something going on wrong that the public 
needs to know about or the committee or even you need to know 
about.
    Ms. Hickey. I absolutely agree with you, Congressman.
    I want to know about it. I have employees that reach out 
directly to me via email. I was disappointed to hear that they 
were told they could not. That will be rectified immediately.
    I need to be an avenue by which employees can talk about 
their concerns as well, and I am open to that. I do that on a 
routine basis.
    In fact, I have a pulse check call that I do where I will 
only speak to bargaining unit employees, and it starts by 
saying, ``Management cannot tell you not to talk to me. 
Management can't even look at you funny. If they slip you a 
note or anything else that says do not tell me something, then 
I immediately want you to send me an email.''
    Mr. Lamborn. Well, you're saying some things that sound 
good, but the actions, unfortunately, haven't always matched 
the rhetoric.
    Ms. Halliday, let me ask you in my short remaining time--
you talked about how VBA's process misrepresented the actual 
workload and its progress toward eliminating the backlog.
    Could you elaborate just a little bit more on that, please.
    Ms. Halliday. Today we issued a report on the review of the 
special initiative to process the rating claims pending over 2 
years. As I had said in my oral statement, that--VBA used a 
process--a new process they put in place to issue provisional 
claims.
    What we found was those provisional claims, in spite of not 
having a final decision, were taken out of the backlog. And 
what happened then was VBA lost control over some of those 
claims so that they didn't get worked on a priority basis.
    We felt that, had VBA used its interim rating process, it 
had all the tools it needed to keep the integrity of the date 
of claim and to process these claims. They had to try 
something.
    They're working hard to try and clear the backlog, but we 
feel it misrepresented the workload because you essentially 
took incomplete claims out of a backlog that needed a final 
rating decision.
    Mr. Lamborn. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Brown, you're recognized for 5 minutes.
    Ms. Brown. Thank you.
    First of all, before I begin my questioning, I just want to 
say, on this note that was found in the bathroom, I hope no one 
ever loses their job for a note in the bathroom on a pad, and I 
don't think anyone has any business reading somebody's pad in 
the bathroom. That's the first thing.
    Now, to Ms. Hickey, I am impressed with the amount of--how 
we've been able to expedite the veterans' process not only for 
the veterans, but for the family.
    And can you explain the process? Because it seems like part 
of the problem is that you're going to a new system to help 
expedite it and it seems as if it's a problem with you trying 
to improve the system.
    Ms. Hickey. Congresswoman, I know from having worked in 
changed management environments that everybody adjusts to 
change differently. I'm sensitive to that.
    But I will tell you I don't know any other Federal agency--
and I did work in commercial industry for a while--nor any 
commercial company that has fundamentally taken a paperbound 
process and, in less than 18 months, built a system, scanned a 
billion images nearly and now works 91 percent of its work in a 
paperless environment.
    1.4 million claims our employees have done on this system. 
1.4 million. And you know what that does for veterans? It means 
they get answers faster and better.
    And the system isn't just a system. There are tools. There 
are helpful things in that system to help make that employee 
better at making that decision more consistently. That's the 
whole reason we put tools in it.
    I know--I heard the conversations, you know, from our 
employees up here at the table, and I know that our employees 
need help with the workload that's out there. I do. That is why 
we are building additional functionality all the time into that 
system to help it improve.
    What I can tell you is this: You don't do 1.17 million 
record-breaking one year, 1.3 million breaking the previous 
record this year, and have all measures of your quality--I will 
concede that there may be some ways to improve on that even 
yet--in that amount of time and not be doing stuff that's 
better for veterans.
    Ms. Brown. Don't you have an independent verifier, also?
    Ms. Hickey. We do.
    So I hear you loud and clear. I know that you don't trust 
what we're saying. So I went for the second time to another 
third party to ask for an independent verification of the way 
in which we assess our quality.
    It's a person that doesn't deal with Federal agencies at 
all and has no Federal look about them. They deal with 
businesses in the outside and how they look at quality.
    And, in addition to that, I have directed VBA to go after 
ISO 9001 certification because I want every veteran in this 
country and all of you to believe us when we say we're making 
good decisions not because of us, but because we care so much 
about those veterans, their family members, and their 
survivors, and they deserve nothing less from us.
    Ms. Brown. Thank you very much.
    You know, some of us come with pre-existing conditions, and 
perhaps we all don't have the same goals. I hope the goal is to 
make sure that the veterans get the services that they need and 
that we work together to make sure that happens and not to 
grandstand.
    I cannot sit here and say I think all of you all are just 
trying to hide the numbers. I don't believe that. I think it 
could be problems with the system, but we need to work together 
to figure out how we could improve the system.
    I, for one, was very excited when we launched the New GI 
Bill. And then, when I turned on the television, it was 
problems with the system, but it was problems with the 
stakeholders.
    The schools had to verify that the student was in school 
and they were enrolled and they hadn't dropped a class before 
they could get the additional the funding from us.
    So it is not just the VA. It's the VA, I keep saying, 
working with our stakeholders.
    Ms. Hickey. And, Congresswoman Brown, we now put $42 
billion into the hands of 1.2 million veterans and their 
beneficiaries in 4.7 days using exactly that model, which is 
exactly what we are trying to repeat, and doing so with some 
level of success, on the claims side.
    It was what is driving more and more of our dependency 
claims getting done. And, frankly, we've just released, last 
week, the ability for half of our survivors during the most 
difficult time of their life, to be automatically paid their 
burial claim.
    They don't even have to tell us. They don't even have to 
claim it. It's now, at first notice of death, we pay either the 
$300 or up to $2,000 claim and it just goes straight to them.
    Ms. Brown. Thank you so much for your service, all of you.
    And I yield back the balance of my time.
    The Chairman. Thank you.
    Mr. Bilirakis, you're recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Ms. Halliday, you remarked in your opening statement that 
VBA has self-reported a decrease in the national backlog by 
more than 50 percent since March 2013.
    In your opinion, do you see any issue with trusting these 
self-reported achievements by the Department? Of course, the 
Department has been plagued with inaccuracies and 
inconsistencies regarding reducing the backlog, but I want to 
get your opinion on this. Do you trust those numbers?
    Ms. Halliday. At this point I would say no, I can't trust 
those numbers. I think we have a lot of work ahead of us to 
address the allegations we have just received. They all seem to 
focus on data integrity, and they need to be looked at very 
carefully. So I don't want to say I trust them.
    Mr. Bilirakis. Thank you.
    All right. Next question, again, for Ms. Halliday.
    During your numerous inspections of the VA Regional 
Offices, you have consistently reported the same errors, 
inaccuracy and procedures, even after VBA has concurred with 
the previous reports and recommendations.
    Why do you think this happens over and over again? Why are 
we seeing these errors? Again, you know, it seems like these 
recommendations are not being followed. Can you comment on 
that?
    Ms. Halliday. Yes. We select medical disabilities to look 
at that we consider at high risk for processing errors. That's 
where we want to target our resources. We think that's the most 
important focus.
    What we find in something like traumatic brain injury-TBI-
type claims, the policy is very complex. It's very hard to 
ensure consistency in that application. So we continue to see 
errors with that.
    General Hickey has asked for the OIG's help in assessing 
the procedure for TBI claims and we just recently put a team 
together so we can show her exactly what our benefits 
inspectors, the teams that Mr. Arronte leads, are coming across 
so she can put the right controls in place.
    Brent, do you want to add anything?
    Mr. Arronte. The only thing I think that I could add is 
this year, when we started our inspections--and I'm speaking to 
Reno right now because this is the only office where this 
occurred--is we made a recommendation in the previous 
inspection of Reno regarding TBI claims to have a second-level 
review look at these claims before they're finalized because 
they are very complex.
    When we went back this year, we found an error rate that 
was not acceptable. And what we found was local management 
discontinued the practice of our recommendation, and the reason 
we were given is to process claims for the backlog.
    So if we make a recommendation and you follow it and it's 
working, why do you stop it?
    Mr. Bilirakis. I want to know why.
    General Hickey, why?
    Ms. Hickey. So, Congressman, I absolutely agree with this 
gentleman. I absolutely agree they should be following that 
process. They should not have diverted and not done a second 
signature requirement. That is just wrong. I won't give an 
excuse for it.
    Mr. Bilirakis. What are you going to do about it?
    Ms. Hickey. We are--I'm going to make sure that they are 
doing second signature reviews. And we can do that.
    And so we will send out additional teams from Compensation 
Service to make sure. I will also double down on the resources 
and make sure I'm there doing those second signatures. They are 
critical. He's absolutely right.
    They are the singularly most complex kind of condition we 
can do, because every experience a veteran has with TBI can be 
very different.
    So, therefore, there's not a very clear-cut way to always 
determine secondary conditions associated with TBI and the 
like. That was a mandate from us to do second signature. If 
they're not doing it, they're not doing the right thing.
    Mr. Bilirakis. All right. General, I have one more 
question.
    You mentioned in your testimony that employees will not 
receive a performance award unless they meet quality standards 
as well as production standards.
    However, we are all aware that, in previous fiscal years, 
every employee eligible to receive a performance bonus award 
received them.
    Do you still stand by what you stated in your testimony? 
And do you believe that every single employee eligible to 
receive performance awards did, in fact, deserve them?
    Ms. Hickey. So, Congressman, since the day I arrived--and I 
have mentioned to this committee before that I came to this job 
with a deep background in quality management, which is why I'm 
directing the ISO 9001.
    I know something about that and I know something about 
Malcolm Baldrige and how it makes you better and how it 
validates what you're doing.
    But here is what I'd say: I have said from the beginning we 
are a production--and quality-based organization, not or. There 
is no ``or'' between those two words.
    I have made serious investments, thank you to this 
committee for the budgets you have given us, in all kinds of 
capabilities to improve our quality.
    Mr. Bilirakis. General, I would like you to answer the 
question, please.
    Did they deserve those performance----
    Ms. Hickey. If they successfully navigated their production 
and quality, they did. But I will say in fiscal year 2012, no 
senior leader in VBA got a performance bonus.
    Mr. Bilirakis. Okay. Thank you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Takano, you're recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Ms. Halliday, do you know anything about the history of the 
Federal policy of performance bonuses in management? Can you 
just tell me a little bit about that, if you do.
    I just want to know if it's always been a part of our 
system in the Federal Government, whether it's something that 
was instituted.
    Ms. Halliday. To my recollection, performance bonuses have 
always been in place to incentivize and reward good results.
    I think for the past few years we really have done a better 
job Federal Government-wide at focusing on results.
    Mr. Takano. Mr. Bertoni.
    Mr. Bertoni. Yes.
    Mr. Takano. As far as the use of Federal performance----
    Mr. Bertoni. I can't speak to the history.
    I would say it's consistent across executive agencies that 
performance bonuses are there, and they should be performance-
based and they should be results-based.
    But certainly, when you combine the allure of performance 
bonuses with metrics that drive you in a certain way and drive 
certain behaviors, that's when it gets perverse and that's 
where executive agencies and otherwise have to be careful about 
the metrics they put in place and the performance bonus that 
they associate with that.
    Mr. Takano. Ms. Halliday, in this new area of looking at 
the VBA aside from the scheduling issues we've had in Phoenix--
exposed by Phoenix, is there any indication to you that 
there's--that the performance bonuses and the metrics have 
combined into--have combined in a similar way, that there have 
been a--that there were some motivation to game the system for 
financial gain?
    Ms. Halliday. I can't speak to that.
    Mr. Takano. Okay.
    Ms. Halliday. Sorry.
    Mr. Takano. Okay. So you--there's nothing you've--nothing 
you've--nothing was revealed so far? All right.
    You say that you're targeting in your investigation high-
risk disability claims.
    Can you say more about the high-risk disability claims that 
you're looking at. It's TBI, you said?
    Ms. Halliday. During this round of our fiscal year 2014 
benefits inspections, we had selected to look at the management 
of temporary 100 percent disability evaluations, TBI claims, 
and the SMC and ancillary-type benefits that veterans get for 
the more seriously disabled issues that they face.
    Mr. Takano. Okay. Something that--arose in the previous 
panel's discussion about congressional advocacy. When 
congressional offices call in, it seems to divert attention of 
the staff and then the other parts of the backlog get maybe 
less attention.
    Do you find that to be sort of corroborated by anything 
you've looked at?
    Or, Mr. Bertoni, you can also comment as well.
    Mr. Bertoni. I can't speak to that issue. We haven't done 
any work in that area. That was outside of the scope of what we 
did.
    Mr. Takano. Okay.
    Ms. Halliday. I'm not 100 percent sure exactly what you're 
asking, but we get a lot of complaints through the OIG hotline 
and we are looking at those complaints as to whether they're 
systemic problems or isolated problems within VBA.
    Is that what you're asking? Because I think the 
congressional offices get many of the same calls.
    Mr. Takano. I was just listening to the testimony of the 
previous panel, and one of the complaints was that 
congressional offices often get attended to and they have to 
neglect what they were doing on other claims. Well----
    Mr. Bertoni. I could speak to that a little bit.
    I just think it's one of many competing workloads, and 
there's a lot of lines of work and activity that's done--that 
has to be done.
    Congressionals get attention. I know that I get the calls 
from the public. I push it forward to the various committees.
    So it certainly gets attention from us, and I'm sure it 
gets attention from VBA when they get those calls. So I'm sure 
it's a workload that's--it gets attention and, amongst 
competing workloads, you have to make choices.
    Mr. Takano. Ms. Hickey.
    Ms. Hickey. Congressman, here's what I will say. We have a 
prioritization for claims and we have some categories of those 
claims where, when you call us about those, they will 
absolutely get attention because they are in the priority 
bucket.
    If you are a Medal of Honor recipient, a former prisoner of 
war, a homeless veteran, someone who's very seriously injured--
ill or injured, someone who--I'm going to miss a few; so, 
please bear with me.
    But there's a group of people who need our prioritization, 
and you often call us with people who are in that bucket or if 
the claim right now, today, is 9 months or older.
    Now, though we have done 99.9 percent of all the 1- and 2-
year claims, we still are working 9-month-old claims and then 
we're going on to the next budget.
    But when you call us with an old claim, which typically is 
when you will hear from a veteran--and we understand that--then 
we will do it because it is in the priority bucket.
    If you were to call me for a claim that was just sent in 
last week that didn't have any of those other priorities on it, 
you would probably get a letter from us that says we'll work it 
when it gets into the right prioritization.
    Mr. Takano. Thank you.
    Mr. Chairman, my time has expired.
    The Chairman. Dr. Roe, you're recognized for 5 minutes.
    Dr. Roe. All right. Thank you, Mr. Chairman.
    I want to just go back to where the chairman began with 
this legal pad here. I really find this offensive. And the 
reason I find it so offensive is because we've heard over the 
last 6 weeks or so--and our job, as the chairman said, is 
oversight. We have a constitutional obligation to do this.
    When you see someone really just rub this in the staff's 
face--this is their job to go and get this information--I find 
this astonishing what's on here. I truly do. I don't see how 
anybody could explain and, secondly, anybody who is still 
working.
    And I think Mr. Lamborn asked a minute ago how many people 
had been fired. Well, there would be one, if they were under my 
watch, who had so rubbed their nose--or thumbed their nose, I 
should say, at the Veterans' Affairs Committee, whose job--this 
is our job.
    You're doing your job and you're explaining it tonight. And 
when we have lost--and that's one of the things, General 
Hickey, that I am really very concerned about, is the loss of 
trust that we've had in our VA.
    I mean, I think, if you look at any organization in this 
country a year ago, we would have held the VA up as the shining 
star on the Hill. I really believe that--shining city on the 
Hill. I believe that. And we've truly lost that now.
    When veterans now file a claim that they know what they're 
going to get--has theirs been moved over to a stack that's not 
going to get looked at?
    And I think it sounds--you were in my office, and I 
appreciate you coming by the other day. I certainly think 
you're making a yeoman's effort.
    But somewhere downstream, it's failing, it isn't working. 
So I know that--you heard me say, if you were here before, 
about what resources do you need. And I certainly have heard 
the Inspector General's testimony, have read it.
    What resources do you need, if any, from this committee to 
make sure that this backlog is done, that those metrics are 
made? What do you need?
    Ms. Hickey. So, Congressman, I sat here a few months back 
in a budget hearing, and I believe I said at the time I need an 
absolute, unequivocal 100 percent IT budget, 100 percent, not a 
dollar less.
    And now, in a world in which we are now building a new 
scheduling system, that's even more critical, because now 
there's a heavily competing interest there. We've got to have a 
full and complete IT system.
    Dr. Roe. Well, we have--as Sergeant Major Walz said, we've 
spent--no pun intended--a widow's pension on getting you all 
the IT money that--I can't--it's mind-boggling to me.
    When I hear somebody say ``money'' and I've seen the VA and 
DoD take a thousand million dollars--that's a billion--and 
flush it and I have no earthly idea where that money went, to 
build a system that's integrated--I don't even--I asked the 
secretary, ``Where did a billion dollars go?'' No answer.
    And so I don't know that adding more money to--I mean, you 
say an IT program. If we give you that money, if we provide 
that money, this very generous Congress does that--because we 
have provided the resources for the VA--is that going to be 
enough or am I going to be sitting here a year from now, if I'm 
fortunate enough to get re-elected, and am I going to hear the 
same thing?
    Ms. Hickey. So, Congressman, you were talking about IEHR, 
which is not a VBA program.
    Dr. Roe. I understand. I do understand that. I'm just 
talking about IT money that the VA has used.
    Ms. Hickey. Let me tell you what you have given us.
    All of you have given us over the last 3 years in VBA--for 
the first time in our history, we have had dollars funding IT 
systems we should have had 20 years ago. 20 years ago we should 
have had a paperless IT system like the rest the world went to, 
and we didn't.
    We were still 2 years ago--touching 5,000 tons of paper--
that's 10 Empire State Buildings. That's--I mean, that's 10 Mt. 
Everests, 200 Empire State Buildings--with little rubber 
fingertips on our fingers.
    And today we are doing it in a paperless environment. You 
have given us the resources to scan a billion of our veterans' 
most precious documents into an electronic system so they're 
not laying around in boxes.
    Dr. Roe. Okay. I understand.
    Let me go. My time is limited and it's about up.
    And I want to go back to the attorney--to the Inspector 
General and say, how does a claim--I want to make sure that we 
get this for the record--that looks like--that gets moved from 
way back here, that's supposed to be current, that gets--how 
does that happen? How does a record go from the time it's back 
here, a long-term claim, and it gets moved to a stack that is 
current? How does that happen?
    Ms. Halliday. We're going to let Brent answer that. He 
works with this all the time.
    Dr. Roe. Just walk us through that----
    Mr. Arronte. Okay.
    Mr. Roe [continuing]. Fairly quickly.
    Mr. Arronte. There's--there's several ways. We could talk 
how they changed the date of claim, but let's talk about the 
provisional ratings with the 2-year initiative. That report was 
just issued and it should be fresh.
    When they did the provisional rate, that provisional rating 
had an end product. And you heard the First Sergeant talk and 
describe what an end product was. So let's say the end product, 
just to make it easy, was a 110.
    The number 110 controlled this provisional rating. Under 
their special initiative, when they issued that provisional 
rating to the veteran, that 110 was gone. So that--that claim 
came out of the inventory. So they moved it to put it under an 
end product 400 to control.
    But end product 400s are not reported in the inventory that 
you hear from these Monday Morning Workload Reports. So now 
that claim technically doesn't exist in the inventory.
    When the veteran submits new evidence to support the 
contentions in that claim, now VBA will create a new end 
product and process that claim in 1 day.
    So it was an old claim pending over 2 years. They moved it 
to an end product that is not reported in the inventory. So 
that claim technically doesn't exist. When new evidence comes 
in, now it's a new claim that's 1 day old or 2 days old. Then 
they work it in 2 or 3 days.
    Dr. Roe. Well, why would you do that? Why in the world 
would you do that?
    Mr. Arronte. Good question.
    And that's one of the issues in this report that we found, 
is if VBA would have used their intermediate rating process, 
one of the aspects of that intermediate rating process is to 
keep that end product going. And it stays in your inventory so 
you have a true reflection of your inventory and you can't lose 
it.
    Dr. Roe. I thank you for your indulgence, Mr. Chair.
    The Chairman. Thank you.
    Ms. Brownley, you are recognized for 5 minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    General Hickey, I appreciate you being here and appreciate 
your testimony.
    And I'm just having a terrible time trying to reconcile 
between what the IG says and what you say. And the IG says 
there's been incremental progress, data--and there's data 
integrity issues.
    You say that we're right on the mark, that our data is 
good, that the checks and balances and the audits that you are 
doing are sound.
    And so, you know, when two entities are, you know, at polar 
opposites, then, yeah, you're right. I--you know, I lack of 
trust in what's being put forward.
    So I guess my question is: Do you work with the IG's 
department to sort of reconcile some of these issues to try to 
get to a place where there is a stronger agreement between the 
two of you on these issues?
    Ms. Hickey. We absolutely do, Congresswoman, all the time. 
We have a process by which we go in a back-and-forth way from 
an early draft of their thoughts and what they're seeing. And 
sometimes we reverse our position and sometimes they reverse 
theirs.
    Ms. Brownley. And do you agree--disagree----
    Ms. Hickey. There have been a few times where I have not 
concurred on some of their comments. But, in general, we learn 
a lot from our IG and we value their input.
    I understand that you are--that we're putting you in a 
bind. That's why I'm going to go get an independent review by a 
standard which the world recognizes.
    Ms. Brownley. I understand. Thank you.
    So, Ms. Halliday, do you--I mean, do you agree with what 
General Hickey just said?
    Ms. Halliday. General Hickey is giving you a big-picture 
perspective from their view in all the initiatives they've 
worked.
    What I have given you is a very close inspection of certain 
initiatives that I do not feel have achieved what--that they 
were expected to achieve.
    Ms. Brownley. But have you had conversations back and forth 
on these specific initiatives that you have----
    Ms. Halliday. Yes.
    Ms. Brownley [continuing]. Made public?
    Ms. Halliday. Yes. Yes, we do. We have monthly meetings 
with VBA leadership. I bring my teams in. We talk about the 
issues in our national audits. We talk about issues that we can 
talk about.
    There are some things as far as criminal investigations we 
may not touch on. But, normally, in the audit area, we have 
very good discussions.
    Recently, I feel that General Hickey has tried to say, ``I 
want the information early'' so that she can take corrective 
action. And I think, if you'll look, the management advisory 
that I issued on the Philadelphia VRO was done after 2 days.
    My team, even though they only found 30 instances of 
manipulation of the date of the adjudicated claim, at that 
point, we knew we had a problem.
    And instead of waiting till we completed all the work, did 
all the samples of all the mail bins and everything else, I 
engaged General Hickey immediately so that corrective action 
could be taken.
    So I do think that there is a responsiveness that is better 
today than it was a couple years ago easily.
    Ms. Brownley. Thank you.
    And, General Hickey, have you--with the new acting 
secretary and the new leadership, really, in the VA, but 
specifically the acting secretary--we've talked a lot about 
this--is--he believes that we've got to build back the trust 
and build it back one veteran at a time.
    So what directives has he given you with the VBA? And what 
have you done in terms of, you know, very short-term directives 
to your department and/or changes that you have made in the 
short term?
    We've talked a lot about short-term issues and longer-term 
issues, but I'm interested in what you have done differently in 
the short term.
    Ms. Hickey. So thank you, Congressman.
    I will tell you three things.
    First, the acting secretary has directed that--how we put 
some best and brightest minds together to figure out if there 
are any other vulnerabilities and the ways in which people can 
do workarounds.
    You all have used a different language around that, but we 
are doing that. We are putting that together so that we can 
look at it.
    We have already asked a small group of people to do some 
brainstorming in that respect to see if we have some places we 
need better, stronger controls.
    Second thing, I have directed a 100 percent facility and 
desk audit--and we even threw in the car--the government GSA 
cars--for making sure we had the full 9 yards for every piece 
of mail, document, anything that might be out there. So we are 
doing--and it's been directed, and it's a rapid-response 
requirement they must do.
    Ms. Brownley. My time is up. I yield back.
    The Chairman. Thank you.
    Mr. Runyon, you are recognized for 5 minutes.
    Mr. Runyon. Thank you, Chairman. General Hickey, I have a 
couple questions for you.
    Obviously, just to point out to my colleagues again, when 
we're talking initiatives and workloads, I think Ms. Halliday's 
conclusion of her oral statement says a lot to that. It's 
literally maybe 10 sentences long and a lot of conflict in 
there.
    General Hickey, when we look at the 125 no-claims-pending 
initiative, what claims of VBA are exempt from that?
    Ms. Hickey. So the focus is on the entire rating bundle. 
And the rating bundle claims are the ones that were described 
and prescribed in the year--fiscal year 2000, well before when 
I was here or many of the folks sitting in this room were part 
of this process.
    It was done under an entirely different process. We were 
measuring and reporting 350 different metrics, and it was 
driving you all nuts and driving veterans nuts as well.
    So there was a big effort back in fiscal year 2000 where 
they bundled them together, which is why you hear the term 
``rating bundle'' and ``non-rating bundle.'' They put like 
things together.
    And so the 125 effort and goal, even back in 2005, before 
this former secretary was here, was put on the table, focused 
on rating bundle.
    So that's what I tell you. Generally, these are claims that 
require a rating adjudicative decision.
    Mr. Runyon. Do you have any idea--I get asked this all the 
time at home--how many claims that VBA deals with--don't 
categorize it--do you hold? No category. How many claims do you 
hold?
    Ms. Hickey. So, Congressman, I will ask you the question: 
Are you talking about the education claims we do or outside of 
this----
    Mr. Runyon. Everything----
    Ms. Hickey [continuing]. Or are you talking compensation 
and pension?
    Mr. Runyon. Everything that you hold. I get asked that 
question all the time. I never have an answer.
    Ms. Hickey. I can get you that number. But when we do 5 
million education claims in 4.7 days, disbursing $42 billion to 
1.2 million, we count--that's work we're doing. When we're 
doing loan guarantees, which we're doing record-high levels and 
rates for those as well.
    Mr. Runyon. Well, I raise the question because we sit here 
and talk about how none of these metrics add up. And I think 
the IG agrees with some of it.
    But we--we'll look at the fully developed claims 
statistic--and it's posted on the VBA administration's reports 
Web site--as of 7/12/14, that a fully developed claim took 
148.6 days to complete.
    Now, if we--we sit here and we start imagining the massive 
workload that we have, are we ever going to get there when it's 
taken beyond 125 to spit out a fully developed claim?
    Ms. Hickey. So, Congressman, I have under my watch done 
some deeper dive analysis on our ability to do this. And I will 
tell you, as a simple description of how we will.
    We have done more than 300,000 claims in backlog in the 
last year. We don't have that many left in backlog this year. 
We are at 272,000, I think, today. That's less than 300,000. If 
we did 300,000 last year, by the dedicated men and women of VBA 
who are working hard every day, I think we can get there next 
year.
    And what I do know is this. We're not just bringing the 
backlog down, we're bringing the inventory down as well. And 
when you think about flow mechanics, when you're bringing 
inventory down, you cycle faster on the ones you've got in 
inventory.
    So I believe we will. I think we have data that says we 
can. And I think veterans want us to.
    Mr. Runyon. But then we'll go to Ms. Ruell, who was 
testifying under oath that leadership through the fast letter 
was manipulating what was a backlog and what wasn't. And this 
is the dilemma we're in.
    Ms. Hickey. I hear you, Congressman. And I heard Ms. Ruell 
as well. I heard her back when she first brought up the issue. 
I responded very quickly to it. And I will tell you I told her 
as she got up to leave the table, but shame on us for not 
telling her better.
    We have changed processes because of what she originally 
told me in that email. Fundamentally, we are moving pension 
into an advanced scanning operation away from a back-end 
scanning operation. Two of the pension management centers have 
already done that. And the last one was Philly, and it was 
scheduled to do it for early fall.
    So she has made a huge impact by raising that issue of that 
concern, and we have adjusted the process in VBA as a result.
    Mr. Runyon. I think the one big process--and I think we all 
agree, because we've spent a lot of late nights sitting up here 
together. And we talk about this in the VA committee. I sit in 
that chair all the time.
    And we talk about stakeholders' input. Your stakeholders 
are the people that were on that panel before you. And that 
really, really needs to be addressed.
    Ms. Hickey. So, Congressman Runyon, I would absolutely 
agree. I will tell you what I do day to day. So I will also 
tell you I have a high degree of respect for Mr. Ron Robinson, 
who was sitting in my position right here a little while ago, 
to the point where I was one of the people, when I first showed 
up, he started emailing.
    And I started asking questions about what was going on in 
the regional office where people were not feeling cared for, 
not feeling compassion, and not being treated very well, to the 
point I got on an airplane. I flew down there.
    I sat with him for a complete day, from 7:00 in the morning 
till way late in the afternoon, and I had the director at that 
time--regional office director sitting there with him. And I 
was going with them back and forth in conversation.
    As a result of that, that R.O. director was put on a 
management plan that required that R.O. director to take 
certain actions to improve what was going on in the R.O. And we 
tracked it hard.
    And when it did not improve--and I still heard from Mr. 
Robinson--I changed the leadership at that R.O. It now is led 
by a Bronze Star winner who led a team up and down the roads of 
Baghdad, avoiding IEDs, and brought all of her of troops home.
    And I will tell you I've been back to that R.O. Since, and 
the employees in the town hall stood up and said to me--
multiples of them did--``Thank you for bringing this new leader 
to us.''
    I think I've reacted right, and I appreciate what Mr. 
Robinson did in raising that issue to my attention.
    Mr. Runyon. Thank the chairman. Yield back.
    The Chairman. Thank you very much.
    Ms. Titus, you are recognized for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    And thank you, General Hickey, for being here and for 
coming to talk to me. And I know you're taking a personal 
interest in the Reno office, and I very much appreciate that. 
Seems like every time an example is offered for the way things 
are not working, it's the Reno office.
    I want just to get some good management in there. But I'll 
make this--take this opportunity to make the pitch to move the 
office to Las Vegas, where most of the veterans are, and at the 
very least, when we get new management--and I hope that's 
sooner rather than later--that you put that manager in the Las 
Vegas office. It will be a lot easier to recruit somebody to 
come take the job and live in Las Vegas, I believe, than in 
Reno. So please keep that in mind.
    Having said that, though, I would just ask Ms. Halliday: 
This--the VA believes that the whole problem of the found 
claims or the discovered claims is limited to a particular 
office, Philadelphia or wherever that might be.
    But we've seen through numerous hearings that sometimes, 
when a problem crops up in one regional office, it turns out 
pretty soon we find that it's happening other places, too.
    Do you have any indication that that's the case? Are you 
looking into it? Are you checking into places like Reno, where 
they've been under a lot of scrutiny to move things along so 
there might be an incentive for them to take some of these 
shortcuts?
    Ms. Halliday. We do have allegations that the same 
conditions that have been identified up at the Philadelphia VRO 
are occurring at some of the other VROs.
    The issue here is now that General Hickey has revoked the 
fast letter. So as that information gets out, the corrective 
action from a national perspective is in place.
    We are still going to look at the allegations we have just 
received in the past month or so and really run them down to 
the ground so we're sure that we understand exactly why it 
happened and to what extent it's affecting veterans because we 
want to make sure that data integrity is put back into the 
system for these date of claims that have been changed.
    One of the problems--I would like to say one other thing. 
The Philadelphia VRO did not report the transactions that fell 
under this fast letter to VBA headquarters. So it made it even 
more challenging to identify how many transactions there were.
    And my team is still up there looking, and they will 
probably be there for a couple more weeks before we even start 
to draw sound conclusions here.
    Ms. Titus. If you don't have whistleblowers from some of 
these offices, are you still going to go to places where there 
might be the potential there?
    Maybe, General Hickey, you want to address that.
    Ms. Hickey. So, Congresswoman, let me just tell you the 
minute we knew that we had an issue in Philadelphia we 
immediately did a deep dive analysis and pulled up the data to 
see if there were any other data anomalies in the system.
    And we found and immediately sent the list to the IG that 
said, in the data analysis, we think there are some--I won't 
say they're doing something wrong because we don't know that 
yet.
    But we found that data in some of them worth looking at. We 
forwarded that to the IG. They've asked us for the complete run 
of the complete data. We've provided that as well.
    But I would ask Mr. Murphy if he has a quick second to 
respond to you on this topic, too.
    Mr. Murphy. We did an analysis against the percentage of 
found claims that were in the inventory versus the total 
inventory in the station so that we compensated for a little 
office, like a Reno, as opposed to a St. Petersburg in Florida. 
We didn't just want to do a stack based on total volume.
    And we came out that anything that came too far off of the 
average was that--those top five regional offices, and that's 
the data we forwarded to the IG
    And then, in order that we not be looked at as you're going 
back and changing data in here, I pulled all of those claims 
and all the details of those claims first, then went out to the 
regional offices and said, ``Now let's go look at these claims 
and see if they were handled appropriately.''
    So I can go back and re-create what was there when the flag 
went up for what happened in Philadelphia.
    Ms. Titus. Can you keep us posted on what you discover at 
the Reno office?
    Mr. Murphy. Yes, ma'am.
    Ms. Halliday. We can.
    And I just want to say one thing about why we did the found 
claim. It was a pro-veteran position to take. And let me 
explain what a found claim is real quickly.
    15 years ago you may have come to us and said your leg hurt 
and you filed a claim and we granted you for your knee. 
Somewhere in the writing--handwriting documents you gave us you 
have mentioned your ankle hurt, but 15 years ago, whoever rated 
that claim didn't notice or didn't do anything about your 
ankle.
    Now you come back because your knee is worse. And you came 
in 2 months ago or a month ago, and we're starting to work your 
claim. And that VSR who's sitting there going through that 
claim suddenly sees this comment from 15 years ago about your 
ankle. And they're now in this position of, ``Oh, my gosh. Now 
am I going to go do this really icky, sticky 15-year--I'm going 
to have this 15-year-old claim.''
    I wanted to remove the disincentive from our system to grab 
that ankle, give that veteran the effective date all the way 
back to when they first mentioned it rather than have any 
disincentive in the system to doing it and ignoring it. So 
that's why we did the found claim process.
    Ms. Titus. So even though the date of the claim was the new 
date of when the benefits were issued, they go back to the 
original date?
    Ms. Hickey. All the way back to when they first mentioned 
in their handwritten note to us that their ankle hurt, too.
    Ms. Titus. Thank you.
    Yield back, sir.
    The Chairman. Dr. Benishek, you're recognized for 5 
minutes.
    Dr. Benishek. Thank you, Mr. Chairman.
    Secretary Hickey, you mentioned you did an independent--you 
had an independent reviewer study your process?
    Ms. Hickey. I had one years ago with IDA, and I'm repeating 
it again right now.
    Dr. Benishek. So who is that that's doing the independent--
--
    Ms. Hickey. I cannot tell you what the name of the 
individuals are. We acquired them because they had some 
experience in doing this with health environments--workers' 
comp, health environments in the outside industry.
    Dr. Benishek. You don't know the name of the firm?
    Ms. Hickey. I don't. I'm sorry. But I can provide that to 
you.
    Dr. Benishek. Did they give you a report?
    Ms. Hickey. They have not yet. They have given me some 
interim discussion.
    Dr. Benishek. Well, it seems as if you--you said you've had 
an independent review and they rated you better than what the 
IG is saying.
    Ms. Hickey. Actually, we had an independent review by IDA 
years ago. We--this one, they've given me some independent 
comments, but I haven't got a report yet.
    Dr. Benishek. So you don't really have an independent 
evaluation yet.
    I'm kind of curious about this mail issue. Earlier you said 
that--or you implied that the mail was destroyed after it had 
been scanned, and that wasn't the impression I got from Ms. 
Ruell's testimony.
    She seemed as if to say that the mail was placed in a box 
because it was too complicated to understand. So that seems 
like a different story to me.
    I have a question I'd like to further go into a little bit.
    You know, in 2009, the Inspector General audit uncovered 
improper shredding of mail in several regional offices, and the 
VA concurred with several of the IG recommendations back then. 
But here we are again 5 years later with the same sort of 
issue.
    So I guess I have a question. And this relates to many of 
the IG reports that I've followed up in my committee and my 
Subcommittee on Health as well, is that nobody seems to be 
responsible for following through with the IG reports.
    Because I never can get the name of the individual who's 
responsible for complying with the IG report. Even when the VA 
concurs, it seems like there would be somebody who's 
responsible for making that happen. And, yet, I can never get 
that happening--or find that person's name.
    So did that occur in 2009? And why did you stop doing the--
you know, why did you stop dealing with this--why are we still 
dealing with this mail issue 5 years later?
    Ms. Hickey. So, Congressman, in 2008, well before there was 
even a records management officer--there is now.
    Actually, as a result of that 2008 effort, there is now in 
every single regional office a records management officer who 
has that responsibility.
    Dr. Benishek. He must not be doing a very good job if Ms. 
Ruell had to testify about those boxes and you had to react all 
of a sudden and do something about it, like it was an 
emergency.
    Ms. Hickey. Congressman, I will--I can't answer that 
question at this point.
    Dr. Benishek. Well, that's the problem, you know, because 
of the fact--like with Mr. Robinson you mentioned, too, that 
he--he talked to you. You took it under your interest to solve 
his problem.
    Well, the problem is, Ms. Secretary, that you've got 20,000 
people working for you. Is every one of them who has a problem 
going to come to you and then you're going to solve that?
    I mean, this problem that Ms. Ruell spoke of, you know, a 
supervisor who has been firing people and is still there, you 
know, after apparently providing retribution to people trying 
to improve the system, you need to have a system where those 
people are removed and you need to make it stick.
    Because not everybody can reach you and have you intervene 
and solve their little problem. You need to have a--you need to 
have a management that can manage 20,000 people in an effective 
manner.
    Now, how are you going to do that?
    Ms. Hickey. So, Congressman, we have several complaints 
that we forward to the IG that come directly from our leaders 
and our staff.
    They are raised by an employee, up a trusted chain of 
command. The chain of command raises the issue, and we forward 
it over.
    I will give you by example--and Ms. Halliday mentioned it 
today--the Baltimore Regional Office mail situation was raised 
by, through the chain of command. The IG was called by the 
chain of command and invited the IG to go and assess what was 
going on.
    We have that happen all the time. I know there are places--
I am very sensitive to the comments I heard specifically by Ms. 
Ruell, but the others as well.
    We have to have an environment where our employees can----
    Dr. Benishek. Are you going to do that? It's not working 
now.
    Ms. Hickey. Congressman, it works in some places. It 
doesn't work well in others. And where it does not work well, 
we will address that situation.
    Dr. Benishek. I'm out of time.
    But none of us have any belief that--unless something 
radically changes with the whole system, that there's really 
going to be some change.
    I'm out of time.
    The Chairman. Ms. Kirkpatrick, you are recognized for 5 
minutes.
    Ms. Kirkpatrick. Many of my constituents in Arizona 
Veterans Service Organizations believe that the focus on ending 
the VA claims backlog has incentivized some VA claim processors 
to provide zero percent disability ratings or low ratings in an 
attempt to quickly complete claims and reduce claims backlog 
numbers.
    Files from several veterans in my district and files that 
the Disabled Veterans of America gave my office suggest that 
some of these claims were improperly given a lower rating based 
on the evidence submitted with the claim. As the claims backlog 
numbers continue to decrease, we have seen an increase in the 
number of appeals by 18 percent.
    So my question, General Hickey, is: What is the VBA doing 
to ensure that claims are properly adjudicated the very first 
time? What mechanisms are in place to prevent examiners from 
rushing through claims and improperly awarding lower disability 
ratings? In other words, can you describe your quality 
assurance process?
    Ms. Hickey. So I will start the discussion, and then I will 
ask Mr. Murphy, who has oversight for that for me, for all of 
VBA, to discuss it.
    I will tell you we have significantly ramped up our efforts 
in this area. As indicative--and I think even the GAO 
commented--there has been some extra effort that's been put 
into this.
    We have now the following: We have now quality review team 
specialists that I took 600 people off the line doing claims--
that's how much I value giving the right answer to the veteran 
the first time--650 people that could have improved our backlog 
numbers faster.
    But I said no. It's an and equation. We have to do them 
better. So there are now quality review team specialists in 
every single regional office.
    They, like their STAR counterparts, must take and pass the 
skills certification test to hold that position. That's not an 
absolutely easy test to do and to pass, but they do. They are 
in the regional offices doing two things.
    One, they are doing something new for us called in-process 
reviews. It is, basically checking areas where we typically 
make mistakes and pulling and looking at them on a higher level 
frequency. And if I find it while the claim is in process, I'm 
going to come to you, as an employee, and not say ``gotcha.''
    I'm going to come to you, as an employee, and say, ``Let me 
show you what you did. If you fix it right now, it doesn't 
count against your performance standard'' so that we got out of 
the ``gotcha'' culture and got into a ``help you'' culture and 
a ``train you'' culture. We do 250,000 of those nationwide 
every year.
    The second thing we did was those quality review teams do a 
five-employee poll at the end of the month for their claims to 
see what their overall individual quality is.
    The next thing we did was a fundamental change of our 
Challenge system. I thank this committee for the resources to 
do that.
    But we take and pull everybody in, just like basic 
training, when you become one of these individuals, and you go 
through an intense program to be trained on how you do it.
    The next thing--and thank you for the omnibus add on this.
    We have recently--and we're doing it right now, less than 
60 miles that direction. But we have what we call SPARC 
training, which is employees identified either through 
volunteerism or people challenged or both--either their 
production or their quality or both. We are running them 
through a refresher program that specializes in helping them 
with problems they make.
    The special monthly compensation that the IG just 
discussed, is hard to do. We built tools into the VBMS to help 
do it. But we are also retraining out there with the people who 
have been challenged to do that.
    So any number of other things. And if there's time, I'll 
let Mr. Murphy add. If not, happy to come over in a full 
roundtable with you and lay out every part and piece of what we 
do in this area.
    Ms. Kirkpatrick. I have about a minute left. Let me ask 
another question.
    The first panel suggested that using specialized case 
managers to review the claims might speed up the process.
    What's your thought about that?
    Ms. Hickey. I think that is exactly what we are doing in 
the segmented lanes. We did it in record-breaking--we got into 
a completely new organizational model as part of this 
transformation effort.
    We have the express lane. One or two medical conditions, 
not extraordinary complex. We have the special operations lane 
with really complex claims that require high-journey-level 
capability and experience.
    And then we have the core lane, which is sort of the same 
thing we do over and over again, but lots of medical 
conditions, just not in that special operations category.
    I think that is what we do well in terms of segmentation.
    I did hear and listen closely to the idea that some 
employees feel like they can't pick up the phone and call a 
veteran and get a piece of information they need.
    I hope they're watching right now and hearing me say not 
only can they, they should. I would love for them to engage in 
a conversation and get a piece of information they need to 
drive it all the way home.
    Ms. Kirkpatrick. Thank you.
    My time has expired.
    The Chairman. Mr. Huelskamp, you are recognized for 5 
minutes.
    Dr. Huelskamp. Thank you, Mr. Chairman.
    One thing--I want to follow up first on an issue from a 
couple years ago with Ms. Halliday in reference to the 
security--the VA database. And we tend to have a lot hearings, 
but not as much follow-through as I would like.
    Any assessment today whether the VA has secured their 
database, as insecurities were revealed in that hearing?
    Ms. Halliday. Are you talking about our Federal Information 
Security Act compliance?
    Dr. Huelskamp. You testified before this committee that the 
database of 20 million veterans and their families was--had 
significant potential to be hacked. And, of course, we had a 
whistleblower.
    Of course, the VA denied that occurred, the whistleblower. 
There's a pattern here. I want to follow up on that hearing, I 
think, from last June.
    Ms. Halliday. When we did our current review this year for 
2013, information security was still the most--the last 
standing material weakness in the VA. There are still problems. 
There are still many security vulnerabilities that need to be 
corrected. OINT, within VA, had put together a CRISP initiative 
to try and work some of these vulnerabilities. They--they 
improved last year, but our contractor still said that there 
were problems.
    There was not a formal process in place to really make sure 
that we didn't have repeat findings from the year before. And 
the current audit is in progress for this year.
    Dr. Huelskamp. I look forward to seeing that. And I ask 
that question, Mr. Chairman and committee members.
    Because we had a lot of testimony and very concerning 
testimony about hacking. And the VA, again, denied that 
occurred, finally admitted what the whistleblower brought 
forward, and said, ``We're going to fix it.''
    And what I heard from you is, ``We're not for certain, but 
we think it's not quite fixed yet.''
    Ms. Halliday. It's not.
    Dr. Huelskamp. It is not fixed yet. And we hear from Ms. 
Hickey, ``We're going to fix this one as well. We're really 
going to get to that.''
    And I want to ask a question about--you brought outside 
this room a listing of your current disability claims backlog.
    Does that include every disability claim or only those that 
make the performance reports?
    Ms. Hickey. They include, Congressman, all the ones that 
were decided in fiscal year 2000 as part of the rating bundle 
and then confirmed in fiscal year 2005 as part of the rating 
bundle.
    Dr. Huelskamp. What does it not include? This would suggest 
that all VA----
    Ms. Hickey. Congressman, it does not include non-rating 
work. That is not included in there, for which we are working 
hard on.
    Dr. Huelskamp. Are those disability claims?
    Ms. Hickey. They are not. They are a byproduct. Once you 
get a disability claim decision, then you have the opportunity 
to apply for other kinds of benefits.
    Dr. Huelskamp. Now, we heard from Ms. Halliday today that 
this data may have been manipulated. That may be inaccurate.
    And you're still--but do you still stand by this claim, 
even though it doesn't include all your performance data, which 
I think was why Mr. Soto lost his job, because he revealed 
that? Is that accurate?
    Ms. Hickey. Congressman, it includes everything in the 
rating bundle. I can provide you a list that shows you we've 
done 44 percent more work since 2011 in the non-rating bundle. 
I left that out there as well.
    You can see that we are doing far more work than we have 
done over the years and we're scheduled----
    Dr. Huelskamp. And you also make a claim on accuracy.
    Remind me again how you determine independently whether 
it's accurate or not.
    Ms. Hickey. We do it now four different ways, as was 
described by the GAO. We do it claim-based, which is our 
historical way. We do it issue-based, which is the new way.
    Dr. Huelskamp. Is that independently verified or is that 
internal to the VA?
    Ms. Hickey. Our process has been independently verified by 
IDA before. And in the IDA report, they----
    Dr. Huelskamp. It is not an ISO 9001 certified----
    Ms. Hickey. I directed ISO 9000. And I'm sorry that I--I've 
said it a couple times, but maybe I didn't say it clearly.
    Dr. Huelskamp. You said you were looking to receive 
certification.
    You're not certified today, are you.
    Ms. Hickey. No. I'm directing that we be certified under 
ISO 9001.
    Dr. Huelskamp. Okay. There's a long ways between 
certification and actually achieving that. You do know the 
difference, and I know the difference. You have not achieved 
ISO 9001 certification.
    Ms. Hickey. I just made the decision last week to go after 
ISO 9001 certification because I want to build confidence from 
our veterans----
    Dr. Huelskamp. That is the only way that this committee is 
going to gain trust, is that if you independently verify your 
data. And every bit of data here is not--none of this is 
independently verified. It's coming from internally to the VA.
    Am I wrong on that? Who has independently verified this 
claims data?
    Ms. Hickey. So, Congressman, I--that is why I'm going to do 
what we're going to do, because I want you to have confidence 
in it.
    Dr. Huelskamp. Okay. So there is no--I want this for the 
record.
    Is there independent verification of these backlog numbers, 
these claims work numbers, outside the VA or is that all 
internal?
    Ms. Hickey. I'm not going to say it's all internal. I don't 
know the answer. I will take it for the record and find out if 
there are outside people, other than IDA, that have already 
done it. And I have another group that is on contract right now 
to give us an independent verification.
    Dr. Huelskamp. Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Kuster, you're recognized for 5 minutes.
    Ms. Kuster. Thank you, Mr. Chair.
    And thank you very much to all of you for being with us 
tonight, tomorrow.
    I wanted to get back to the focus on veterans and, in 
particular, the issue about the fully developed claims because 
this is something that we've heard a lot about from the VSOs. 
And I, for one, thought that we could have a great deal more 
confidence in this.
    We've heard testimony this evening from our initial panel 
that this has not been a particularly successful process.
    And I just wanted to see if we could start at this end of 
the table and get comment from all three parties here as to 
whether you feel that the fully developed claim process is 
helpful to getting the veterans the decision that they need.
    Mr. Bertoni. Starting with me?
    Ms. Kuster. Yes. Thank you.
    Mr. Bertoni. I could say we were in on this early when we 
looked at init--2011, looked at the backlog initially. And 
fully developed claims were key to the transformation plan.
    The issue we have with that--conceptually, it made sense to 
sort of have this--this conceptual model to move more claims 
and serve more veterans in a way that was going to help the 
backlog.
    My issue, my concern, was that, when I looked at the 
numbers in the transformation plan, VBA was banking on doing a 
lot more in using that to break the backlog.
    When they--they were--at that time, they were at 4 percent. 
Their projection was to be at 20 percent. So they were make 
some pretty large assumptions that they were going to get from 
4 percent to 20 percent in an effort to break the backlog.
    At that time, I didn't think they were going to get there. 
I don't know where they are in terms of percentages. But if 
they don't, that's a significant amount of claims that aren't 
going to be processed and aren't going to be applied towards 
breaking that backlog. It's about 70,000 per year.
    Ms. Kuster. Okay. Thank you.
    Ms. Hickey. Congresswoman, we are at 40 percent today. Our 
VSOs out there, your State and County service officers out 
there, are really driving home this effort. So we are at 40 
percent, which is well ahead of where we expected to be.
    And so I have got to tell you I'm extremely appreciative of 
how seriously all of our Veterans' Service Organizations across 
the Nation are doing in this regard.
    Yes. Some of them--so, by the way, they still are done 
faster than the claims--we are doing not in a fully developed 
environment today. But we had been clearing out some old ones. 
So it's hitting the average.
    But we are working them. They are part of the 
prioritization bundle. In fact, that's how you get an early 
claim done in the current prioritization bundle. You submit it 
as a fully developed claim. We're basically doing those, 
working them back from oldest to newest.
    Ms. Kuster. And Ms. Halliday.
    Ms. Halliday. We also thought it was a good idea. But we 
are going to be looking in this year's protocol and our 
benefits inspections as to doing some testing there to see if 
it's really hitting the mark or if it could be improved.
    Ms. Kuster. Thank you.
    I think it would be very helpful. And I know the VSOs 
definitely want to be a part of the solution and help the 
veterans.
    And I think that you can appreciate this is a bipartisan 
effort in this committee, which is very rare in this Congress 
right now, that we are all veterans-focused and want to get 
these responses as quickly as we can.
    The next question I have is with regard to communication 
with the veteran during the process of the claim pending. And 
what is your experience?
    I was a little disappointed in the first panel, the 
expression that it was difficult to communicate with veterans, 
that because of the pressures on the employees that were 
processing the claims and because of their performance metrics, 
they didn't feel that they necessarily had time.
    And, yet, it seems to me, you know, that's sort of a false 
positive because, if you don't have time, you're not going to 
get the answers you need to process the claim.
    So, again, let's just start at that end, Ms. Halliday, if 
you would comment, and then General Hickey and----
    Ms. Halliday. I definitely feel communications directly 
with the veteran would help to make sure that you're very clear 
on what evidence and what conditions are present so that you 
can process the claim tightly, you know, very quickly.
    Ms. Kuster. Great. Okay. Thank you.
    General Hickey.
    Ms. Hickey. So part of what I would say is we do that by 
also working with the VSOs. In fact, we highly, highly, 
encourage our veterans to work with a Veterans' Service 
Organization.
    We know this is very complex. We know it's tough. We do it 
every day. We really feel strongly. And we train to that. We 
teach it in mandatory TAP.
    We say, ``Please use a Veterans' Service Officer to help 
navigate this system,'' a system that has been connected in law 
for many, many years and connected in process for many, many 
years.
    Ms. Kuster. It's complex.
    My time is up and I'm sorry to cut you off. But I'm being 
respectful to the chair at this late hour.
    The Chairman. Thank you very much.
    Mr. Coffman, you're recognized for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    As a Gulf War veteran, Secretary Hickey, I've got a 
question for you.
    After an April 2014 IOM report recommended using the term 
``Gulf War illness,'' you pushed back, instead favoring VA's 
current terminology, ``chronic multisymptom illness.''
    It was subsequently reported that the Department has DoDged 
references to ``Gulf War illness'' and research into the 
condition because officials fear a flood of new disability 
benefits claims and costly payouts, greatly complicating your 
highly publicized goal to eliminate the backlog of benefits 
claims by the end of 2015.
    This is confirmed by your December 2013 testimony before 
the Senate Veterans' Affairs Committee, where you stated--and I 
quote--``Every time we get--we get a new thing--you are right. 
I am telling you I will get to 2015 in 125 days except if I 
have a large perpetration of something like we experienced in 
the Agent Orange environment, 260,000 claims in our inventory 
overnight in October 2010. That will kill us.''
    In response to IOM, VA stated that the chronic multisymptom 
illness technology was preferred because it could be 
experienced by veterans from multiple conflicts, including the 
current conflicts.
    However, I note that 38, CFR, section 3.317, VA's 
regulation governing compensation for a disability due to 
undiagnosed, diagnosed, and medically unexplained chronic 
multisymptom illness, states specifically that it pertains to a 
``Persian Gulf veteran who exhibits objective indications of a 
qualifying chronic disability.''
    Further, I note that 38, CFR, section 3.2, VA's regulation 
governing persons of war, provides that the Persian Gulf War 
period extends from August 2, 1990, through a future data to be 
prescribed by the President, meaning that, legally, there is no 
difference in presumptive eligibility for veterans of the 
current conflict.
    Given VA's regulations cited above, can you further explain 
your comments on refusal to adopt the phrase ``Gulf War 
illness.''
    Ms. Hickey. Congressman Coffman, I did not refuse to adopt. 
I merely had a conversation. And my conversation was because I 
have concerns that we do not disenfranchise other veterans from 
other areas that may experience similar medical conditions that 
have been put into that category.
    Do we not think that veterans from World War II or Korea or 
even today's wars have fibromyalgia? They just didn't know what 
it was back then. But we do not think that they do? Do we not 
think that they weren't exposed to some of the other things 
that have been lumped together in that bucket?
    Mine was not to say Gulf War may not be experiencing those 
conditions. My comment was to say other veterans from other 
eras might be as well. And is it fair to categorize that under 
one era of a veteran rather than under the conditions 
themselves that might apply to any veteran from any era. I 
didn't want to disenfranchise any other veteran.
    Ms. Coffman. In a March 2013 hearing before the Senate 
Veterans' Affairs Committee, Joseph Thompson of the National 
Academies testified that, in order to achieve the 2015 goal, 
``everything will have to go exactly according to plan.''
    He also noted that the department lacked any search 
capacity, in other words, VA could not accommodate the addition 
of new presumptive benefits.
    Based on these statements, are VBA's 2015 goals restricting 
the Department's ability to adequately assess veterans' 
benefits needs?
    Ms. Hickey. Congressman, absolutely not. If I had IOM come 
to me tomorrow and say there was a highly connected issue--and, 
frankly, they don't really come to me. They come to the 
secretary or the acting secretary to say that.
    And if they said that, in those cases, that--there was a 
presumptive that should be declared, all bets are off and I'll 
be sitting over here telling you that I cannot meet 125 98.
    And we will do the right thing by veterans that deserve the 
answers to those questions. And if not is a new presumptive, 
that is a new presumptive. I won't stop a new presumptive 
because that's hurting veterans. I'm not here about doing that.
    I'm here about taking care of veterans. And, no, absolutely 
not. I would never try to prevent that from happening because 
that is just absolutely not in my DNA.
    Mr. Coffman. Mr. Chairman, I yield back.
    The Chairman. Mr. O'Rourke, you're recognized for 5 
minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    To Secretary Hickey, I want to thank you for the progress 
you're making across the board and specifically at the Waco 
Regional Office in Texas, which serves the veterans that I 
represent in El Paso.
    We've seen wait times for first-time service-connected 
disability claims. You know, we're at 470, moving much closer 
to our ultimate goal of 125.
    For the IDES process, which had soldiers in the Wounded 
Warrior transition unit languishing at Fort Bliss because of 
delays at VBA, we're starting to make progress.
    And I share everyone else's concerns that these--that this 
progress and these numbers be verified by independent third 
parties who can confirm that this progress is real.
    But from everything that we're led to believe, things are 
moving in the right direction and at a pretty good clip.
    To Ms. Halliday--or, actually, before I leave Secretary 
Hickey, a lot of serious allegations raised in the previous 
panel by Ms. Ruell and Mr. Robinson and Mr. Soto.
    Can you provide answers to those that come back to this 
committee so that we could share them with the public?
    Ms. Hickey. Yes, I can, Congressman.
    Mr. O'Rourke. Thank you.
    And to Ms. Halliday, one of the things you said in your 
opening comments that struck me was that some of the success 
may be compromised by data integrity issues.
    Anything that Secretary Hickey has said tonight that 
alleviates those concerns that you raised in your opening 
statement?
    Ms. Halliday. No.
    Mr. O'Rourke. One of the numbers that you cited in your 
opening statement was--and I didn't catch the full statement; 
so, I'd like you to elaborate--32 percent of rating decisions 
were inaccurate. Those weren't all rating decisions. That was 
within a certain category.
    I wanted to better understand that and the discrepancy 
against the 90 percent accuracy rating that we hear from VBA.
    Ms. Halliday. Under our review of the special initiative to 
process rating claims pending over 2 years, we pulled a sample 
of 240 rating decisions that included both final ratings and 
provisional ratings and found that 77 of those ratings had some 
inaccuracies. That's where the 32 percent is coming from. It 
was focused on just this initiative.
    Mr. O'Rourke. Got you.
    Ms. Halliday. General Hickey did agree to go back and 
review all the provisionals. So many of those we are very 
hopeful would be corrected as this process moves forward.
    Ms. O'Rourke. And also for Ms. Halliday and then for Mr. 
Bertoni, we've heard in El Paso that perhaps a consequence of 
this focus on first-time service-connected disability claims is 
a rise in appeals.
    Now, the Secretary has told us that the appeals--the rate 
of appeals has not changed over the last 10 or 20 years. But, 
you know, we've heard anecdotally, again, at our town hall 
meetings that we hold every month veterans whose appeals, when 
they sign in to the eBenefits, haven't been touched. You can 
see when--the last time a ratings officer, or the appropriate 
title, has looked at one of those appeals.
    And, you know, veterans stood up at my town hall in April 
and said, ``It's been 2 years since anyone's touched this 
claim.'' That's anecdote. But that's also how I started to 
understand that we had a problem within VHA.
    Anything that you can tell me that would either confirm 
that we have a real problem there or, as the Secretary states, 
you know, that's natural, given the number of first-time claims 
that we're processing and they're coming through at the same 
rate and we're processing them apace?
    Ms. Halliday. Our numbers--well, we had a key point of 
concern at the increased appeals inventory at the VROs. The 
workload has continued to grow at an alarming rate.
    We had 220,600, approximately, as of September 2011. And as 
of June 30th, 2014, we see 268,000, just shy of that, which is 
about an 18 percent increase.
    We see that there is a significant increase of 25 percent 
on the notices of disagreements waiting for appellate review. I 
think that that's significant. It's growing over time.
    Mr. O'Rourke. And, Mr. Bertoni, I only have 10 seconds. I 
don't know if you can quickly add to that.
    Mr. Bertoni. In our review of the backlogs in 2012, we did 
visit several locations. And there was concern and anecdotal 
statements among staff that the focus on the backlog, the 
front-end focus, did divert staff away from that back end and 
was one of the causes for----
    Mr. O'Rourke. Divert staff from appeals?
    Mr. Bertoni. From the appeals side.
    Mr. O'Rourke. Okay. Thank you.
    Mr. Chair, thanks.
    The Chairman. Dr. Westrup, you're recognized for 5 minutes.
    Dr. Westrup. Thank you, Mr. Chairman.
    General Hickey, you know, we talk about independent 
reviews. And those are key in any business that you have, 
anything that you're running. The question comes in what do you 
do with the information that you get.
    And you talk about getting certification with ISO 9001, 
which obviously would be a feather in the cap. But there's also 
from that--I read something about ISO 9004 that makes 
recommendations on improving what you're doing.
    So I guess the--the question I have is: With either method, 
independent review or outside review like that--like ISO 9001, 
what do we do with the information? How do we go ahead and 
institute improvements that make us better?
    Ms. Hickey. So, Congressman, I will tell you that at the 
heart and core of what I bring to the table, and there's a 
negative side of it, which is a DNA that talks about process 
improvement.
    I don't sit on anything. We don't relax. We continue to 
look for ways to get better and to apply what we've gained and 
what we've learned.
    So, by example, we--and Mr. Murphy's organization gathers 
data consistently on the number of errors we make and what we 
make them on, not much different than sometimes what the IG 
looks at in terms of the way they look for errors.
    We take and immediately turn--when we start seeing a trend 
line on a particular error where we're seeing a rise in it, we 
turn that into training immediately.
    We turn that into conversations with our quality review 
teams and, in fact, tell them to start looking harder at those 
issues and to start to make improvements there as well.
    I've also mandated that we start doing more face-to-face in 
the morning--we call them huddles--at regional offices.
    Dr. Westrup. Are there obstructions in the system, though, 
that slow you down or prevent you from making improvements in 
the overall system?
    Ms. Hickey. Certainly there are. I made mention of it, and 
I will tell you this is even more significant in the appeals 
process.
    And that is the appeals process looks akin--and you all 
will know this well--to the Tax Code that's been wired together 
by law over many, many, many years, and it is hard to unwire it 
to make any process improvement in it.
    And so we struggle, frankly, with the appeals process in 
finding definitive major improvements to make in it.
    And when I don't have an issue with law, I will sometimes 
hit a stakeholder-vested interest, as we did, for example, on 
something that should make sense to everyone, which is a 
standard form that we should have in the application for a 
benefit.
    We heard from our stakeholders. They had some concerns 
about that reference. And it's still in rulemaking; so, I can't 
talk about it.
    But I will tell you we've heard them and I'm hoping we will 
have, very early this fall, a solution that makes a difference 
to both.
    Dr. Wenstrup. You talk about law and you talk about some 
blockades and you talk about trust. Congress is a body that 
doesn't have the highest approval rating itself, and trust in 
the American people is sometimes absent there as well, not just 
within the agency that you're working with.
    But I'd like to discuss your vision of oversight on the 
part of Congress, the OIG, GAO, and the VBA itself going 
forward.
    I mean, are there--everyone's got a role. But are we 
actually accomplishing something within our role? In other 
words, everyone weighs in. But at the end of the day, are we 
getting something done? Are we making changes?
    Ms. Hickey. If I stood from the veterans' perspective, I 
would tell you that 200,000 veterans this year alone will get 
answers to claims at a higher quality rate than they have ever 
gotten before in the history of this organization.
    So I think you all have made a difference. I think your 
staffs, when they come and visit us, sure, they put me on a 
little warning and a little heads-up and I get a little tighter 
in the way I look at things. When the IG tells me certain 
problems, then we look to see how we can apply solutions to fix 
it.
    Dr. Westrup. But do you feel you have access going in the 
other direction as well? You mentioned you're sometimes bound 
by laws. So do feel you have access to come back to us and say, 
``Hey, can Congress enact some changes so that we can make this 
better? Here's where I'm bound?''
    Ms. Hickey. I understand what you're saying, Congressman.
    I will tell you I will often times, before I take one step, 
come to you, find out what my stakeholders might think of my 
taking that direction.
    And often times, when I don't come to you, it's because my 
stakeholders have concerns about changing the law. They are my 
partners.
    Dr. Wenstrup. I understand that.
    Ms. Hickey. And I don't want to bring you something for 
which they have little to no support. And I know you all well 
enough to know you're not going to do anything if we don't have 
the Veterans' Service Organizations----
    Dr. Wenstrup. But I would hope you'd feel free to have a 
dialogue.
    Ms. Hickey. Thank you. I do. And I appreciate that.
    Dr. Wenstrup. Thank you. I yield back.
    The Chairman. Mr. Walz, you're recognized for 5 minutes.
    Mr. Walz. Thank you, Chairman.
    Thank you all for coming here tonight.
    And I feel like I've reached an age, Ms. Halliday, where I 
say things like, ``We go way back.'' And I appreciate the work 
we've done. And the quality of work you've done consistently 
over the years has improved the quality of care for our 
veterans, and you and your staff should be proud of that.
    General Hickey, it's--you've earned the gratitude of this 
Nation for what you've done in uniform and the work you're 
trying to do.
    You knew when you took this job it was a hard time and it 
was a hard job, and that's why you took it. It would have been 
easier to have retired after a groundbreaking career. And for 
that, I'm grateful.
    And you also know, like I know, is--that we're part of 
organizations that we get judged on the organization over 
individual merit. And if you think you've got a tough job, 
we've got one to do, too. That's okay. That's the way it's 
supposed to be.
    And that's why I do bring up--and I do want to make note 
that this note, to me, is more than just a note in a bathroom. 
This is a tangible example of the cultural problems.
    And this note and the disrespect shown to these staffers--
this was not an ignore the staffer. This was ignore the people 
of Southern Minnesota's 1st District, ignore the people of the 
8th District of Pennsylvania.
    And this attitude--I'm--they were doing exactly what I've 
sat here and encouraged them to do, go out and investigate for 
this committee so we could get data and prove it, be welcomed 
in there.
    And I can tell you--imagine if you're a Congressional 
staffer going out to find information. Imagine how intimidating 
it is to be an employee who tries to say what's right.
    And you heard these folks come forward. And it's just 
heartbreaking to me to hear folks who are trying to make it 
work to choose in there. So I know this troubled you. I know 
deeply.
    And I want to ask this question. You come from a successful 
career as a general officer in the United States Air Force.
    Did the Air Force work better than the VA?
    Ms. Hickey. Congressman, every organization--every large 
organization, has those people who are all in, as I use the 
words with my employees, who do absolutely everything right to 
the absolute max of their ability. And every organization has 
people that don't.
    And so you watch things that happened in my former beloved 
Air Force, and you're watching things that happen occasionally 
in my current beloved VA.
    I love them both because of the missions they do and 
because of the great people who participate in them day in and 
day out, working their tails off to make a difference for this 
Nation.
    Mr. Walz. And maybe--Ms. Halliday, maybe you, with the 
General, can together chime into this.
    This is not unusual in a large organization, for the 
disconnect between the 40,000-foot strategic vision and the 
granular level of somebody doing the work to have somewhat of a 
disconnect.
    But I would make the case that the lack of a national 
strategy and a clear mission up and down is causing us to see 
that.
    Do you see the disconnect when you do your work?
    Ms. Halliday. We do see some disconnect with that. I think 
you have to have very clear policy guidance and I think some of 
the Fast letter guidance that has gone out has really hit the 
core values of some of the staff in the VAROs, and that's why 
we're getting all the allegations we're getting today. I think 
you have to be very clear on your policy, you have to 
understand what the intended consequences are and the 
unintended consequences. You have to deal with both.
    I personally went up in Philadelphia to take a look at the 
issues up there, and when I met with the Deputy Under Secretary 
for benefits, they said they did recognize that a 
misapplication of the guidance was a risk and time and time 
again, my problem is, put in the controls if you recognize it's 
a risk. And I didn't see that, and I think----
    Mr. Walz. General Hickey has the responsibility.
    Ms. Halliday [continuing]. We have to work very hard.
    Mr. Walz. Does she have the power to make those changes, if 
you will?
    Ms. Halliday. She has the power and is responsible to put 
the controls in place, and I think that's where our oversight 
can help VBA the most.
    Mr. Walz. Tonight I was fascinated by this, because, 
General Hickey, and I said again knowing you and knowing you 
want these changes and knowing how personal it is to you, you 
mentioned that Ms. Ruell's suggestion came up and warranted 
change, and she didn't know that and didn't know it went down. 
That seems to me to be almost--why that wouldn't happen, and I 
almost half facetiously asked, did she get a bonus for making 
those changes? Because the issue here is you've got employees 
trying to improve the system, trying to make it, and there is 
such a disconnect there, that those things never connected.
    Ms. Hickey. So, Congressman, everything we are doing today 
was an employee initiative. It was an employee who said segment 
the work, do it according to these ways. It was----
    Mr. Walz. It's amazing how disenfranchised they felt, 
though and would you say--this is my last question. Was that 
panel an anomaly or do you think that's a fair representation?
    Ms. Hickey. Congressman, I would refrain from--because that 
would--to me that would feel like if I made a comment like 
that, that would feel like I was being disingenuous about the 
real feelings that they had, and I won't do that to my 
employees.
    Mr. Walz. Well, in all fairness to you, I am out there 
enough to say I would say that's fairly typical. Just so you 
know, from my perspective, that the expressed concerns were 
fairly typical of what I hear out there, whether they've spoken 
out whistleblowing or just confiding on the side conversation.
    I yield back.
    The Chairman. Mr. Jolly for 5 minutes.
    Mr. Jolly. Thank you, Mr. Chairman.
    General Hickey, first, thank you for your service and 
incredible career, and I appreciate your clear dedication 
through your comments tonight. Frankly, I've got a soft spot 
for the KC-135, so I thank you for your career as well. But 
tonight you find yourself representing the VA. We can have as 
many oversight hearings as the day is long, but at the end of 
the day, short of major legislative changes, it's up to the 
administration to address the issues.
    Did the leg affairs office review your written testimony 
tonight?
    Ms. Hickey. Yes, they did, Congressman.
    Mr. Jolly. Okay.
    Ms. Hickey. They do all the time.
    Mr. Jolly. So in your testimony, you say you appreciate the 
President's involvement in improving the claims processing. 
What has the President done to show leadership lately on that 
issue?
    Ms. Hickey. So, Congressman, the budgets start in VA, the 
budgets come to you all through the OMB process, through 
approval in those processes that exist there, and so from that 
perspective, absolutely. I will also tell you that the whole 
effort on fully developed claims was an effort to bring some 
focus to that. Every day I get up and I have to make decisions, 
I need to have good leadership in front of me, and----
    Mr. Jolly. I understand.
    Ms. Hickey [continuing]. The President makes those----
    Mr. Jolly. Look, I appreciate that. And I'm saying this 
constructively. It's not a gotcha question.
    We're begging for leadership, everybody's begging for 
leadership and I'll tell you, I think the political 
establishment is always too late to identify a crisis and it's 
too quick to declare it resolved, and I'm afraid that the 
President of the United States it's going to do that in this 
instance, which is why I ask.
    You also mentioned in your oral testimony that you would 
appreciate the support for legislative solutions by this body. 
Your answer to Mr. Roe was a fully funded IT budget. Would that 
be the number one priority or are there other things we should 
consider as a Congress who's responsible for doing our job as 
well?
    Ms. Hickey. So, Congressman, one of the things that I would 
tell you first of all, yes, is a fully funded IT budget, and 
not just at one year, but all years, a fully funded IT budget. 
We are in a world that requires that in order to create real 
efficiency and effectiveness.
    And the second thing I would say is, and I thank the 
chairman for this. The chairman put together a round table that 
brought us all together to have discussions about appeals, and 
in that, he brought forth the VSOs and he brought us and he 
brought the Board of Veterans Appeals and other stakeholders to 
the table, so I thank the chairman for that effort.
    I will tell you that what's resulted in that is, frankly, 
the Disabled American Veteran leadership sat down and looked at 
me and said, listen, if you're having a hard time moving 
something forward, why don't you let us take the leadership 
with the other VSOs and we'll move forward. My daddy always 
said, there's no limit to the amount of work you can do if you 
don't care who takes credit. I don't care who takes credit, but 
we've got to do something about the appeals process.
    Mr. Jolly. So do we need legislative solutions that this 
body needs to enact? And I have to ask you very quickly, 
because I have----
    Ms. Hickey. I believe we do, and I would like for DAV to 
take the leadership on having that discussion with you.
    Mr. Jolly. Okay. My next question is related to Mr. Soto. I 
am in an interesting position tonight, because Mr. Soto works 
for a regional office that's in my district, and he essentially 
has now claimed that there's an office in my district that has 
retaliated against him. I'm going to meet with him in the 
morning and I will get a privacy release.
    I understand tonight you cannot discuss the circumstances 
of his case, but I think every member, and I know I receive 
them often, receive complaints from employees, and we try to 
handle them very judiciously. We understand that there are two 
sides to every story, and I understand that in this situation 
as well, but I cannot go to his supervisor and expect an 
impartial answer. So once I receive that privacy release 
tomorrow, I'm going to come to you and to leg affairs and I'm 
going to ask for an explanation and I hope that the VA is found 
to be in the right. I'll be honest. I don't sit up here ever 
hoping that the VA is found to be in the wrong. I hope it's in 
the right----
    Ms. Hickey. Thank you, Congressman.
    Mr. Jolly [continuing]. But I need an answer, because I can 
tell you this, every member of Local 1594 is going to call my 
office, not the VA, and they're going to ask what I'm doing in 
my capacity. So I'm sharing that with you on the record tonight 
simply to let you know how serious it is; not that I would 
expect you to have an answer tonight about Mr. Soto's case, but 
to tell you that I will be bringing that to you and to leg 
affairs very soon, and I need an answer.
    Ms. Hickey. And, Congressman, I'll provide it with the 
documentation that you told me that you will provide.
    Mr. Jolly. And if it's not timely provided, I will continue 
to come each week.
    Ms. Hickey. I will work to make sure it's timely provided, 
Congressman.
    Mr. Jolly. Okay. Otherwise, I will come to your office, 
which I have recently done with another agency, and it's very 
effective when a member of Congress sits in the lobby of an 
administration office. So I appreciate your understanding. 
Thank you.
    Ms. Hickey. Thank you, Congressman.
    Mr. Jolly. Mr. Chairman, I yield back.
    The Chairman. Mr. Fitzpatrick for 5 minutes.
    Mr. Fitzpatrick. Thank you, Chairman.
    Ms. Halliday, I just want to follow up on some questions 
that Mr. Takano was asking about performance measures and 
evaluations and how long that's actually been going on within 
the Federal Government and you indicated that the Federal 
Government over the last several years has actually been doing 
better in providing bonuses pursuant to performance objectives, 
goals and objectives set at the beginning of the year and 
evaluation at the end. You weren't talking about the VA, were 
you? Were you talking about other Federal agencies?
    Ms. Halliday. I was talking across Federal Government. 
There had been a change to really look at performance in terms 
of results, which is different than in the past. You know, 
years ago it was just if you had a good attitude, if you were 
trying hard, almost like a report card in school.
    But I really think that the government, Federal Government-
wide and OPM has made a strong effort to judge performance on 
results and it's very important. You could have an outstanding 
employee in one year, and that employee could be a fully 
satisfied person in the next year if they don't produce the 
results that are defined in their performance plan. I think 
that there's been a general improvement in that.
    Mr. Fitzpatrick. And where is the VA going wrong in that?
    Ms. Halliday. I don't have specific information. I know 
they had problems with their certification of their performance 
plan, I believe it was last year, and that a lot of the ratings 
were actually reassessed after the first and second level 
review to make sure that they were tied to results.
    I think that right now that there's a strong feeling that 
senior executives are getting bonuses for underperforming 
programs. I think you have to look very carefully at that, 
because in some cases, you're having a senior person come in.
    I'll use General Hickey as an example. She took over a 
tough assignment. You may not be able to turn that assignment 
immediately into a top performing organization, but you can 
move it forward with each step and I think sometimes you have a 
leader that actually can produce results, but it isn't as 
immediate as other people want, and you have to recognize that 
and incentivize it.
    Mr. Fitzpatrick. General Hickey, I also want to thank you 
for your incredible service to our Nation, but as Ms. Halliday 
said, you've taken on a very tough job here at the VA. You were 
here earlier when Kristen Ruell was giving the testimony about 
flawed data and duplicate payments within the VA. She was 
claiming there were duplicate payments. Her managers at the 
Philadelphia office, regional office, were claiming that wasn't 
the case. We wrote, you responded.
    Would you say now a couple years later, that she was more 
correct than the managers at the Philadelphia VA office on that 
question?
    Ms. Hickey. So, Congressman, there are duplicate payments 
and I can tell you that we do about 10,000 pension claims a 
month, and about 64 of them are duplicate payments.
    Mr. Fitzpatrick. But she was calling out a problem that she 
saw. You know, she deals with these issues every day, and she 
was identifying a problem that she did not think upper 
management was concerned about or understood or was even 
involved in.
    Ms. Hickey. Congressman, I can tell you that the management 
at the office did raise the issue to us and did have discussion 
with the pension business line leadership. So I think there has 
been conversation, but I appreciate the situation that she 
found herself.
    Mr. Fitzpatrick. And I appreciate that, you know, you have 
indicated, you know, to this committee and members of Congress 
that your door's open and you want transparency and you 
indicated that it isn't acceptable to you that others don't 
share that same commitment.
    You know, with respect to this memo that was provided to us 
midway through the hearing, there's been a lot of talk about 
the staffers' names that are on there, and that is very, very 
concerning, because of our constitutional obligation to 
oversight, but there are two names at the top of the memo with 
a circle around it, Cease and Ruell, not committee staffers, 
but employees of the VA, both whistleblowers, I believe, Ryan 
Cease, who was here today in the audience, and Kristen Ruell 
and I was wondering, perhaps Ms. Rubens, you can indicate for 
us, why is their name--they knew nothing about this meeting. 
They weren't involved in the meeting, they weren't invited in 
the meeting. Why is it that the two whistleblowers, who were 
doing, as the Secretary indicated, you know, changed processes, 
made a huge impact, improved the agency in the Philadelphia 
office, why are these people being singled out? They should be 
applauded, but they're being denigrated, they're being singled 
out and they're being made an example of. Why is their name 
even on this memo, if you know?
    Ms. Rubens. Congressman, thank you. I will tell you that 
when I got the call that the committee staff was on the way, I 
conveyed to the folks in the Philadelphia Regional Office a 
list of things that had been described to me to make available, 
parking and a room to meet in and claims files. And I said, I 
would expect they may want to meet with the IG, who was still 
on station----
    Mr. Fitzpatrick. Why is Kristen Ruell's name on this 
document?
    Ms. Rubens. I also indicated to the staff that I thought, 
in addition speaking to the IG, that the committee staff may 
want to speak to those whistleblowers. I didn't know who they 
were and did not know if they were going to be available that 
day, and suggested that we needed to make sure, if they were 
requested, that we make them available to the committee staff.
    Mr. Fitzpatrick. Thank you.
    The Chairman. Mr. Meehan for 5 minutes.
    Mr. Meehan. Ms. Rubens, I'm not sure I understand that 
answer. You said you didn't know who they were, and yet their 
names are on the top.
    Ms. Rubens. Sir, the Acting Director at the time was 
familiar with the employees and wrote down their names to make 
sure that if they were in the office that day and wanted to be 
addressed by the committee staff, that they be made available.
    Mr. Meehan. You had the Philadelphia office. You've heard 
testimony that there are 96 white boxes of essential return 
mail and eight small cabinets of military mail, some of which 
were holding claims that had been existing for as much as 3 
years. Were there, in fact, 96 white boxes and eight small 
cabinets with that kind of mail?
    Ms. Rubens. Sir, I was just appointed to the Director's 
position in Philadelphia. My understanding from the report is 
when that was initially raised, the Under Secretary asked the 
pension fiduciary service director to send a staff up there and 
I would need to review the final report to identify----
    Mr. Meehan. This was raised in February of 2012.
    Ms. Rubens. Yes, sir.
    Mr. Meehan. It's now 2014.
    Ms. Rubens. Yes, sir. And there is a report and I 
apologize----
    Mr. Meehan. Where are those boxes? What happened to those 
boxes?
    Ms. Rubens. My understanding is that those were boxes of 
mail that needed to be scanned into the system, that those 
claims had been processed and I believe that was the finding 
from the pension and fiduciary service.
    Mr. Meehan. That is not what was explained. What it said 
was they were important pieces of mail, potentially. Do you 
know how many there were?
    Ms. Rubens. No, sir, I don't.
    Mr. Meehan. So there were 26 boxes, and you have no idea 
how many claims could have been associated with those boxes?
    Ms. Rubens. My understanding of those--the mail in those 
boxes, were that those claims had already been worked and----
    Mr. Meehan. Well, that's not the testimony. The testimony 
was they were claims that had not been sufficiently identified, 
and therefore, they were incomplete and as a result of their 
incompleteness, those veterans who had made those claims were 
not being communicated with, some of whom were not being 
communicated with for months and even years with respect to the 
claims that they were making.
    Ms. Rubens. I will be happy, upon arrival at the regional 
office, to investigate further and ensure that the full answer 
is provided.
    Mr. Meehan. What happened to those 96 boxes of documents? 
We have heard testimony that they may have been shredded.
    Ms. Rubens. Sir, my understanding is that those were boxes 
of mail that needed to be scanned into our virtual VA system, 
that the regional office has continued to make progress in that 
regard to ensure those documents on claims that have been 
completed are also part of the electronic virtual VA system.
    Mr. Meehan. General, do you have--do you know more about 
this?
    Ms. Hickey. Congressman, I believe the number, if I'm 
recollecting correctly, and I'll ask the IG to correct me 100 
percent if I'm wrong, is 68 boxes, and I believe it was 
documents that were in paper that----
    Mr. Meehan. It's 96. This is the document. 96.
    Ms. Hickey. Is that what it was?
    Ms. Halliday. We think it's a different number that Kristen 
Ruell has identified. In our review----
    Mr. Meehan. But is there a different set of boxes? So 
there's Triage A. Is there Triage B?
    Ms. Halliday. When we went into the Philadelphia VARO, we 
identified 68 mail bins full of claims and associated----
    Mr. Meehan. Are they different than the 96 other mail bins?
    Ms. Halliday. I can't answer that.
    Mr. Meehan. So we might have over 150 mail bins of 
unresponsive--on which we don't know how many hundreds of, 
potentially thousands of pieces of veterans' correspondence 
could be included within them?
    Ms. Hickey. So, Congressman, the mail has been used to do 
the claim already. The claim has been completed. It's----
    Mr. Meehan. No, General, it has not been completed. The 
testimony we received is that, that document was not able to be 
appropriately--it was either return mail or other kinds of 
correspondence in which identifiers required further follow-up 
to be able to identify. Am I missing something?
    Ms. Hickey. Congressman, I will take and go deeply into 
this and come back to you personally and meet with you and 
bring whoever I need to explain it so that it can meet your 
needs and your understanding so we ensure that you are well 
informed.
    Mr. Meehan. And I need to know how many there were, how 
many bins, and how many of these, if I'm hearing testimony, 
that there could be as many as 150 separate bins. This is not 
ambiguous. This is clear----
    Ms. Hickey. Congressman, I'll look into it and get back to 
you and make sure that we bring people capable of explaining to 
you what work is done. In fact, I would invite--if you have the 
opportunity, I know you're very busy, I would invite you to 
actually come up to the regional office where we do this work 
and----
    Mr. Meehan. General, I will be there. I've been in Horsham 
and I have been in the Philadelphia hospital as well. We didn't 
expect that we were having these troubles on this side of the 
aisle as well, too, with benefits, and I will be there.
    Ms. Hickey. Great. I will make those arrangements, 
Congressman.
    Mr. Meehan. Thank you, General.
    The Chairman. Mr. Meehan, it's my understanding that Ms. 
Ruell talked about the 92 boxes some 2 years ago, and the 68 
boxes that we're talking about are boxes that were currently 
discovered.
    Mr. LaMalfa, you're recognized for 5 minutes.
    Mr. LaMalfa. Thank you again, Mr. Chairman, and colleagues 
on the committee.
    First, what Mr. Jolly had mentioned a few minutes ago to 
General Hickey: We hear the same concerns on people that have 
stepped forward to provide information in the Oakland office 
that have been retaliated against or interviewed or practically 
harassed about other issues when they thought they were coming 
forward to help, instead they're hauled in for review hearings 
on things that they actually were helping on, instead or made 
to feel like they're in trouble over that. So I would like to 
have the opportunity to approach you later, as Mr. Jolly 
mentioned, with some of these folks, because they've been 
retaliated against, and I think one is even on at least 
suspension or maybe been let go. So I would like to have that 
opportunity. Okay?
    Ms. Hickey. That's fine.
    Mr. LaMalfa. And then as well when we talk about the 
bonuses, you know, I think you reward the people that are 
grinding out the work at the ground level, making veterans' 
claims be finished and finished accurately and with good 
quality. That's what we're talking about bonuses, especially 
catching up on the backlog.
    When you start getting to mid level management or the top 
level executive management, there's a little less justification 
when we're talking about these backlogs, these, you know, 
veterans living in their car because they can't get an answer 
back or waiting years and years and years, or hearing about 96 
boxes or 56 or 58 or 14,000 files in Oakland, California. You 
know, the captain of the ship goes with the ship, and if the 
ship goes down, the captain goes down with the ship.
    So at the upper level, I think it's highly inappropriate 
for veterans that are living in their car or contemplating 
suicide even, when we're seeing top level people receiving 
bonuses. So I would like to consult with you as well on who's 
receiving them at the top level and why and how we justify 
that, and I'd like to see that reformed as we've done 
legislatively a couple efforts to limit that around here. So, 
and that's just--again, that's a small part of the problem, but 
it's big in the eyes of the people.
    Ms. Hickey. And, Congressman, I did not give any bonuses to 
any VBA executives at the height of the backlog in 2012.
    Mr. LaMalfa. Well, they call them different things, and 
that's to kind of give us the----
    Ms. Hickey. They got basic salary. They got no bonuses.
    Mr. LaMalfa. We'll investigate that more later.
    Now for other reference, how many claims are currently 
pending at the Board of Appeals?
    Ms. Hickey. I have appeals at the Board of Veterans 
Appeals, but because they've already been--claims decisions 
have already been made, 72 percent of those are already being 
paid.
    Mr. LaMalfa. I mean a raw number. How many are--how many 
have been appealed?
    Ms. Hickey. I can get that for you in just a second, sir. I 
don't have off the top of my head.
    Mr. LaMalfa. We don't have a lot of time, so maybe a 
general number.
    Ms. Hickey. I'll flip quickly. Right now I have 276,000 
appeals--things that the Board of Appeals at the board----
    Mr. LaMalfa. 270----
    Ms. Hickey. Not at the Board of Veterans Appeals; in the 
whole end-to-end process. That includes VBAs portion, BVAs 
portion, VSOs portion, because they have a chance or 
opportunity to do things, and it does not include the court.
    Mr. LaMalfa. Whatever it is, that's a huge number. How long 
do you expect for them to grind through that with veterans who 
have already waited years in many cases to get through the 
first point, and then to find out that their case has been 
tossed and pushed back to the Veterans Board of Appeals?
    Ms. Hickey. So, Congressman, I'm not going to blow any 
smoke on this. We need a better way to do this process, this 
appeals process. It is not--we are not doing the best we can do 
by veterans in this appeals process. I can tell you we are----
    Mr. LaMalfa. Because 97 percent of them get remanded back, 
is my understanding, to the regional office once again, and so 
it's time lost for veterans----
    Ms. Hickey. It is----
    Mr. LaMalfa [continuing]. Big time, especially when they're 
in a bad way.
    Ms. Hickey. First of all, VBA's part of this is to do three 
things. Those three things that we do, we have done 25 percent 
more than we did 4 years ago, but I will tell you this, the 
remand is not necessarily because we made a wrong decision. The 
remand can be because the veteran came in in a very open 
process that never ends and brought in a brand-new thing that 
didn't exist at the time of the initial decision.
    Mr. LaMalfa. And additional information is a good thing----
    Ms. Hickey. It is.
    Mr. LaMalfa [continuing]. But it shouldn't have been in the 
appeal board probably to begin with because of bad decisions 
made at the local level.
    Ms. Hickey. It should be a new claim. There should be a 
claim for increase or a new claim. I agree with that.
    Mr. LaMalfa. And there's some funny business, as Mr. 
Arronte kind of alluded to, with what's a new claim, what's an 
old claim on the date. We don't believe that the dates are 
still being maintained back to the--we're getting information 
on that, that once it becomes a new claim, that it's hard to go 
backwards, like on the ankle example you had, forward.
    Ms. Hickey. We can do that for you, Congressman, and we are 
working on that right now. I can tell you those claims, the 
full complete body of those claims, 14,000 of those, 10,000 of 
which we were able to grant on provisionals, that we would not 
have been able to take care of those 10,000 veterans the way we 
did by doing that provisional process. That said, I understand, 
so that's why we are doing a 100 percent review----
    Mr. LaMalfa. Thank you.
    Ms. Hickey [continuing]. Of them.
    Mr. LaMalfa. Thank you.
    Ms. Rubens, in the Oakland office, 14,000 claims were found 
stored in cabinets back in 2012. You had visited that office 
and discovered these files were actionable; not just stored, 
what have you, these were actionable claims that needed to be 
taken care. They dated back to the early 1990's, and you 
directed the office to process these claims immediately, yet we 
find until very recently, they hadn't hardly even been moved.
    So what was your follow-up on seeing to those files, those 
claims that were stored in the cabinets somewhere dating back 
to the 1990's?
    Ms. Rubens. Sir, in fact, in 2012 when we identified the 
volume of work that needed to be addressed in the Oakland 
Regional Office, there were a number of steps undertaken, to 
include a large number of claims to be brokered so that they 
would get immediate attention by some of our highest performing 
offices. We also provided many help teams to come in to Oakland 
to help to train them, to identify the system issues and to 
ensure that they continued to work those claims, oldest claims 
first.
    Mr. LaMalfa. We know that some of those are still not done, 
we know some of them are stashed and still not completed, so 
the----
    Mr. Chairman, I'll yield back. Thank you.
    The Chairman. Thank you very much, Mr. Lamalfa.
    Thank you to the members, thank you to the witnesses, both 
the first and the second panel.
    I think, Ms. Hickey, the concern that we have is that the 
American public, when you say you have cut the backlog in half, 
they think that half the veterans have gotten their disability, 
but that's not true, because the Veterans Board of Appeals is 
going through their process, there are other machinations that 
are being handled. So, what we're trying to do is get to the 
bottom of how many veterans are actually receiving a check for 
their disability claim, not how many you have moved out of the 
VA, because we know that you don't count them when they go to 
the court. Is that true?
    Ms. Hickey. Congress--or chairman----
    The Chairman. Yes or no.
    Ms. Hickey [continuing]. We have three different processes.
    The Chairman. Yes or No? No, ma'am. Yes or no. When you 
goes to the Veteran Court of Appeals, it goes----
    Ms. Hickey. The Veteran Court of Appeals is not counted in 
any VA metric. It's not a VA organization.
    The Chairman. Well, but understand there are still 
veterans----
    Ms. Hickey. Absolutely----
    The Chairman [continuing]. That are----
    Ms. Hickey. Un----
    The Chairman [continuing]. That are----
    Ms. Hickey. Totally agree with you on that.
    The Chairman. So it is true to tell the American people 
that the backlog that veterans are now experiencing is still 
there?
    Ms. Hickey. Congressman or, Chairman. I am so sorry. It's 
late and I'm getting a little flustered with my words, so 
forgive me, please.
    Chairman, the backlog is of rating claims. That has been 
the commitment----
    The Chairman. Okay.
    Ms. Hickey [continuing]. From the beginning.
    The Chairman. I got that. I got that.
    Ms. Hickey. That group----
    The Chairman. Ma'am, will you----
    Ms. Hickey [continuing]. Has been reduced.
    The Chairman. Will you please admit, though, that there are 
still veterans waiting for their disability claims, because 
they have gone to the court.
    Ms. Hickey. I will admit, Chairman, that there are veterans 
waiting on particular decisions on an initial claim, which we 
are paying, 72 percent of everybody in the appeals process is 
already getting resources from VA for any number of medical 
issues they have claimed.
    The Chairman. Okay. I apologize members. I thought would be 
an easy yes or no answer, but obviously it wasn't.
    And I would ask unanimous consent that all members would 
have 5 legislative days with which to revise and extend their 
remarks. Without objection, so ordered.
    This hearing is adjourned.
    [Whereupon, at 12:57 a.m., the committee was adjourned.]
                                APPENDIX
              Prepared Statement of Jeff Miller, Chairman
    Good evening. I welcome everyone to tonight's hearing.
    We will review the Veterans Benefits Administration's 2015 goals 
for disability benefits claims processing as well as the viability of 
those targets, which, the former-secretary established several years 
ago at one hundred and twenty five (125) days to complete, and ninety-
eight percent (98%) claims-based accuracy.
    We are going to delve into the actions that VBA has taken in its 
singular focus to declare victory on disability claims in 2015, and we 
will endeavor to determine what price is being paid by veterans, by 
employees--the human capital of the regional offices--and by the 
American taxpayers.
    We have spent significant time on the Veterans Health 
Administration in recent weeks, and have exposed the rampant corruption 
and dishonesty, the bullying and retaliation, the corrosive culture, 
and the work-place fear that has flourished within that administration.
    Now, we look to VBA and seek answers on its part in creating the 
same, the very same, environment within its ranks. I received 
correspondence from a VBA employee, who is with us tonight, who wrote:
    I quote, ``here are excerpts from the report by the white house 
deputy chief of staff, Rob Nabors,'' detailing, one: the VHA's fourteen 
day scheduling standard is arbitrary; two: the VHA needs to be 
restructured, it lacks transparency or accountability in management; 
and, three: a corrosive culture has led to personnel problems; 
highlighting poor management, distrust between VA employees and 
management, and a history of retaliation toward employees raising 
issues.
    The employee then stated in the letter, quote ``if `VHA' is 
replaced by `VBA' and `14 days' is replaced by `zero claims over one-
hundred and twenty five (125) days and ninety-eight percent (98%) 
accuracy,' these excerpts from the report apply equally to the VBA.'' 
End quote.
    To determine the scope of this statement, at the end of last week, 
the committee asked AFGE to inquire whether employees nationally 
agreed, or disagreed, with the sentiment . . . and, in less than two 
days, fast responses were received from eighteen regional offices.
    Not one RO employee responded in disagreement. In fact, sixteen ROs 
agreed, unequivocally. Let that sink in--VBA is still running, guns 
blazing, on this questionable path, without a real plan, without real 
change . . .
    Let's begin tonight by reminding everyone again of VBA's real 
mission, quote, ``to provide benefits and services to veterans and 
their families in a responsive, timely, and compassionate manner.''
    You have seen the perverse consequences of the fixed-metric goals 
within the Veterans Health Administration . . . tonight we look at 
VBA's targets, and we will hear what is being done to push claims out 
the door, at any cost.
    One hundred and twenty five (125) days and ninety eight percent 
(98%) claims-based accuracy would be a laudable goal, if it were at all 
realistic. Weeks before tonight's hearing, we asked VBA to provide this 
committee information on the research and analysis that was conducted 
prior to setting this goal, as well as information on performance 
standards.
    VBA declined to provide timely and complete response, and, in fact, 
emailed just hours before this hearing. The purported responses fail to 
fully answer the questions asked, which we will discuss again later.
    The VBA's 2015 goals were outcomes directed by the then-Secretary 
of Veterans Affairs, to make progress. They were a call to action. 
However well-intentioned, they have now become a distraction from 
accomplishing true progress.
    Employees have been working for a year on 20-hour-per-month 
mandatory overtime schedule, with no end in sight. In fact, we know 
that VBA has not ruled out actually increasing the 20-hour overtime 
mandate.

    We will hear from GAO later about how seventy-five percent (75%) of 
the regional offices they surveyed have agreements with the local 
unions that all veterans' disability claims' work done on this candle-
burning overtime shall be exempt from quality review.
    I look forward to hearing from VBA on how that is being sold as a 
``veteran friendly'' practice . . . Essentially, it's the equivalent of 
saying, ``just make a decision and we'll hope the veteran doesn't 
appeal.''
    Chronic incidence of unchecked, oppressive, and vindictive 
management fester within many of the regional offices, and the honest, 
expert input of VBA employees has been silenced, ignored, and, at 
times, punished.
    I am told that the performance requirements on ``production'' and 
``accuracy'' have been weaponized, to keep employees in check. To what 
end? It is certainly not in the name of service to the veteran.
    It is, instead, to create an appearance of success--just as VHA 
attempted to do, by cooking the books on scheduling times and, 
notifications involving disease.
    VA OIG will testify to the potential of over $1.3 billion dollars 
of improper payments.
    The oldest claims initiative, a push that required all claims that 
were two years old, or older, to be rated within sixty days, introduced 
a scheme called the ``provisional rating.'' This was another hard and 
fast deadline dictated by central office, and VBA promised, ``don't 
worry, we'll get them done right . . . ''
    ``They won't be going out the door without service treatment 
records, without medical exams, if necessary.'' What was found within 
the Regional Office?
    Guidance that read, I quote, ``a new VA exam request will have a 
negative impact on our ability to meet the goal that has been mandated 
by our leadership.'' End quote.
    So, VBA employees were directed to move forward with the evidence 
of file . . . even if a medical exam was necessary to decide these 
aging claims.
    Contained in the guidance, I quote, ``I understand that this may be 
difficult to do and may appear to go against the values of how we do 
work.''
    ``I want to assure you that  . .  and, here it is typed in bold 
face, ``there will be no negative consequences for you, the employees, 
as a result of following this guidance. The only possible negative 
consequences are those that exist if we fail to meet our goals for this 
project, and for any actions that keep us from doing so.'' End quote.
    VA OIG's report, issued earlier today, found that regional office 
staff incorrectly processed eighty-three percent (83%) of the 
provisional rating decisions reviewed.
    Who is paying the price for VBA's self-defined ``success? '' There 
are the roughly two-hundred and eighty thousand (280,000) veterans 
languishing in three, four, five years of appellate backlog . . . and 
the nearly two-hundred and forty thousand (240,000) veterans waiting on 
dependency award adjustments.
    We then have the complicated cases, the old cases, which were 
``lost'' and then subsequently ``discovered'' under a contrived and 
disingenuous interpretation of VBA's guidance of May 20, 2013.
    Even more egregious, VBA has recently put out guidance to the 
regional offices that, unless a veteran puts specific words on their 
claim form--a form that provides no space for comment--that the claimed 
condition has existed, quote, ``since service,'' then a medical nexus 
exam will not be ordered; the claim will be denied.
    Robert Gates, former Secretary of Defense, recently released his 
memoir, entitled ``Duty,'' which he dedicated to the men and women of 
the United States Armed Forces. He writes about VA, and about his 
dealings with a former VA Secretary.
    Secretary Gates notes, ``I was staggered when he said his 
Department was in good shape and had no problems;'' and, he continued, 
``I had been around long enough to know that when the head of a cabinet 
department says his organization has no problems, he is either lying or 
delusional.''
    So, I will close my remarks by speaking to VBA directly. Whatever 
``hooray'' you shout, whatever ``win'' you attempt to claim in 2015, 
you shall not be celebrated.
    It has been made clear that there is not a corner that VBA 
leadership will not cut, nor a statistic that they will not manipulate, 
to lay claim to a hollow victory.
    What we all want to see . . . both my Republican and Democrat 
colleagues . . . is progress, not deception. With that, I now recognize 
Ranking Member Michaud for his opening statement.

    Chairman Miller Statement before Panel 2:

    Prior to recognizing our first witness for testimony, I am going to 
address a recent issue, and I am going to provide a timeline for the 
Members' information.
    I instructed my Committee staff to visit the Philadelphia Regional 
Office on July 2, 2014. As of June 20th, specific concerns had been 
raised on the management, or more accurately, mis-management, of that 
Regional Office. And, I wanted staff to spend a day on the ground, to 
perform a technical review of various files, view the office, and meet 
with individuals who work there.
    So, let me just run through what occurred on this unannounced 
visit. My staff alerted the office of congressional and legislative 
affairs of their imminent arrival at approximately 9:00 a.m. My staff 
arrived at approximately 9:20 a.m., and were greeted by an employee of 
the Philadelphia Regional Office; they were accompanied to a conference 
room on the fourth floor.
    Within moments of arrival, while awaiting the acting director of 
the RO, one of my staff went to the restroom on the fourth floor. There 
was another individual in the restroom who had set a yellow notepad not 
far from the sink.
    When my staff member passed by, she noticed that there was writing 
at the top of the page, circled, which contained the last names of two 
employees at that Regional Office, who had acted as whistleblowers to 
improper activities in the past.
    My staff then looked at the remainder of the page. On it was 
written my staff members' names, information of their status as 
Committee staff . . .
    And then the word ``ignore,'' followed by my staff member's name. 
And, I find that it is time to address this attitude point blank.
    But before I do, to finish the timeline for the members' benefit, 
the person who exited the restroom with yellow notepad in hand was the 
acting director, Lucy Filipov, of the Philadelphia Regional Office.
    The Acting Director met with my staff moments later in the 
conference room, and when questioned on who had provided notice of the 
visit, stated that she had not spoken with OCLA, but instead had only 
spoken with Diana Rubens moments earlier regarding the Congressional 
staff's arrival.
    Ms. Filipov began the meeting with two comments. First, she said 
that the Philadelphia Regional Office endeavors to do all things with 
integrity, and to give proper benefits to veterans. And, second, she 
made a curious statement, when taken in the context of Ms. Filipov's 
possession of a notepad with the names of two validated whistleblowers 
written upon it----
    She said that ``it is difficult to have employees, or ex-employees, 
who say that we are not doing that.''
    When we hear from Ms. Halliday of the Office of Inspector General 
in a moment, I believe that this professed commitment to integrity, and 
service to veteran, is going to be seriously challenged on the basis of 
verified data-manipulation, leadership's failure to follow reporting 
protocols, and OIG's on-going investigation into a myriad of 
inappropriate practices.
    While in the conference room on the fourth floor, the Veterans 
Service Center Manager told Ms. Filipov that the appeals team was on 
their way up with files and computers, to facilitate my staff's access.
    Then, in an exchange that transpired three separate times, Ms. 
Filipov directed that the Congressional staff be accommodated in a room 
on the third floor, despite repeated protestations of the Veterans 
Service Center Manager. Both Ms. Filipov and the Veterans Service 
Center Manager exited the conference room, and upon their return Ms. 
Filipov dictated that my staff would be accommodated in a room on the 
third floor.
    This room was found to be wired with activated cameras and 
microphones, and so it should be no surprise to anyone that the staff 
requested relocation to a different room--a room that VA OIG had 
vacated, which was, presumably, free of recording devices.
    Now, back to my message--the acting director was in possession of a 
note, upon which was written ``ignore'' my staff. Am I surprised? Based 
upon the bureaucratic arrogance that VA has consistently demonstrated, 
I should not be surprised, but in fact . . . I am shocked.
    As my colleague, Ranking Member Michaud observed at our hearing on 
whistle-blowers last week, VA is widely known to have a culture of 
denying problems and not listening to feedback--be it from Congress, 
veterans, or its own employees.
    VA ignores its employees, who highlight concerns on inconsistent 
quality reviews, who convey the irrationality of performance standards; 
not based not upon scientific study or even upon an understanding of 
the tasks and workload, but are fixed with an eye towards the 2015 
deadline . . . standards that have been increased as of May 1, 2014, 
despite the workforce's inability to meet even the less stringent 
``standards'' that were in place.
    VA ignores its whistle-blowers, who report practices that go 
against the principles of the Department. And Acting Secretary Gibson 
has noted that he is deeply disappointed in the failures within VA, to 
take whistleblower complaints seriously.
    VA ignores Members of Congress, such as highlighted when members 
have been denied access to VA facilities. VA ignores VSOs, when they 
are found to be inconvenient, such as when VBA obstructed the American 
Legion's Regional Office Action Reviews and limited the Legion's 
ability to fruitfully conduct its visits, converse with claims 
processing staff, and review disability benefits claims in accordance 
with its long-standing practice of seeking quality.
    And, VA ignores Committee staff. Frequently, my staff visits 
Regional Offices, to perform technical, legal, claims' review. By way 
of example, on recent visits, fourteen appeals-files were reviewed from 
two regional offices; twelve were found to have remandable error.
    Yet, when my staff convened with regional office staff, to 
demonstrate the errors and seek correction for the veterans' affected . 
. . often, the Regional Office staff refused to acknowledge even the 
most rudimentary of mistakes. Quite simply, this oversight complicates 
the VBA's messaging of ``we're doing great.''
    So, while VA may ignore employees, ignore whistleblowers, ignore 
VSOs, ignore members, ignore Congressional staff, and ignore, let's not 
forget, the veterans . . . let me stress that you will not ignore me, 
nor my colleagues who are here with me tonight. And, be on notice that 
you will not ignore Congressional Committee staff, acting as my agents.
    This Committee has a constitutional oversight duty, and I intend 
that it shall be carried out unhindered, on behalf of the American 
public, and on behalf of our Nation's veterans.

                                 <F-dash>

           Prepared Statement of Mike Michaud, Ranking Member
    Thank you Mr. Chairman.
    Good Evening. Tonight, we will have an opportunity to continue an 
important discussion we`ve touched on in several of our previous 
oversight hearings: the Veterans Benefits Administration, and their 
progress in reaching goals related to the claims backlog.
    With the scandals at the Veterans Health Administration weighing 
heavily on us, tonight the Committee wants to assess the current state 
of play at the VBA. The agency appears to be making some progress on 
its goal of eliminating the claims backlog by the end of 2015.
    I do, however, have concerns, and the VAOIG shares the concern, 
that the resources needed to achieve VA's backlog goal are being 
directed and applied disproportionately, ultimately harming other 
veterans' services.
    I refer in particular to non-rating workload, Quick Start, Benefits 
Delivery at Discharge, Independent Disability Evaluation System and 
appeals to name a few.
    We have heard, over and over again, of the dangers and failures of 
a system geared toward defining success based on narrow, fixed metrics.
    That is not how good customer service is delivered, and it is not 
how our veterans perceive success. And why should they? What good is it 
for a veteran if VBA processes his or her rating in an acceptable 
period of time, but then takes years to add a dependent?
    From July 2010 to July 2014, the number of backlogged dependency 
claims cases has gone from 9,367 to 192,322. This represents a nearly 
two-thousand percent increase.
    Since March of last year, the number of pending appeals has gone up 
12 percent and continues to increase.
    And there are personnel issues, as well. We have heard reports of 
unacceptable practices and challenges in many VA facilities.
    At the Baltimore VA Regional Office, the OIG found that as many as 
nine thousand-five hundred documents--including claims, claims-related 
mail and various other documents containing personally identifiable 
information, had been improperly stored.
    Lax measures and practices with regards to veterans' personal 
information is simply unacceptable.
    Again, to me, this says VA's focus on narrow performance measures 
are not realistic for defining success.
    Veterans define good, timely care and service on their whole 
experience--from start to finish. That's what makes sense, and it's 
something we must confront in today's hearing and in the longer-term, 
as we continue our important work to reform the VA.
    The VA cannot morally claim success in delivering better care to 
our veterans by touting their progress on the backlog if that progress 
has come at the expense of delivering other key services to veterans in 
a timely manner.
    This work takes on increased urgency as more and more veterans are 
coming home from service abroad, in Operation Iraqi Freedom and 
Operation Enduring Freedom.
    To fix the current shortcomings in the delivery of services, we 
need all the facts. And we need honest, frank discussions. That's what 
I'm hoping to get out of today's hearing. Because if we do not base our 
reform efforts based on what is realistically achievable and what the 
facts are, we are setting the VA--and more importantly, our veterans--
up for failure down the road once again. And I think we can all agree: 
that is not an option.
    So, tonight Mr. Chairman, I appreciate your calling this hearing 
because it gives us a chance to take a hard look at what VBA need to do 
to ensure that it is providing its claims workforce with the training 
and other tools needed to deliver timely and accurate benefits to our 
Nation's veterans and their families in all areas of their 
responsibility.
    Thank you, Mr. Chairman and I yield back.

                                 <F-dash>

                  Prepared Statement of Kristen Ruell
    My name is Kristen Ruell. I work at the Philadelphia Regional 
Office as an authorization quality review specialist. I possess a law 
degree and have previously clerked for the PA Supreme Court.
    Mr. Chairman, committee members, Veterans, and guests, I have been 
identified as a whistleblower. I started reporting various types of 
data manipulation and illegal payments and glitches in the VETSNET 
operating system, a system that is responsible for paying out VA 
benefits, since July 2010. I have met with Congressman Mike 
Fitzpatrick's office, contacted the OIG, OSC, Department of Justice, 
Oversights and Investigations, the Secretary and Under sectary's of the 
Department of Veterans Affairs, the IRS, ORM, EEO, the media and have 
filed many other complaints since July of 2010. I discussed what I 
perceived as gross mismanagement at the Philadelphia Regional Office. I 
raised many issues, including but not limited to; the improper 
shredding of military mail, beneficiaries receiving improper and/or 
duplicate payments, illegal processes with the recovery of funds after 
an improper payment has been made and not returned, notification of IRS 
referral regarding waived awards in error, and various other gross 
misinterpretations of the law. Instead of solving the problems, I was-
and continue to be-retaliated against by the VA. I have been targeted 
by the middle and upper management at the VA for over four years.
    Significant problems arose after the conversion of the VA's 
operating system from the Benefits Delivery Network to the Vetsnet 
Operating System. The old system, the Benefits Delivery Network paid a 
recipient of VA benefits by a claimant's social security number. The 
new system, VETSNET, however relies on a PID (personal identification 
number). The PID is supposed to be a unique number assigned to one 
person only. However there is no way of determining if one individual 
has 2 or 3 PID numbers under 2 or 3 different names. Therefore, one 
individual could receive 2 or 3 times the payout and the system would 
never know unless the claimant self-reported duplicate payment or an 
employee noticed multiple payments for the same person.
    The VA has incorrectly stated that the benefits received by a 
claimant, even if they are 2 or 3 times what the claimant is entitled 
to, are non-taxable. This is untrue. Only the first payment is not 
taxable. In other words, the IRS has lost money as a consequence of the 
overpayments and incorrect payments paid by the VA.
    The payment of benefits by the VA under an incorrect Social 
Security number can result in significant problems for individuals who 
apply for other benefits with the Federal Government because of 
matching programs. These persons are told by other federal agencies 
that, according to their Social Security numbers, they are already 
receiving benefits from the VA and therefore may not be entitled to 
other benefits. This can cause significant hardship to citizens 
entitled to benefits who, through no fault of their own, are listed 
under their Social Security numbers as receiving benefits from the VA 
when in fact, someone else is receiving those benefits.
    The VA's problems are a result of morally bankrupt managers that 
through time and grade have moved up into powerful positions where they 
have the power to and continue to ruin people's lives. I can speak from 
experience. I do not believe in manipulating data to achieve monetary 
gain for myself while harming the Veterans and their survivors.
    After receiving an email from an employee in the Philadelphia 
Pension Management Center's triage department regarding improper 
handling of military and returned mail, I decided to investigate. See 
EXHIBIT 2. I was told that boxes were being taped up to be sent to the 
shredder. The contents in the boxes were claims that allegedly could 
not be identified. There were 96 total boxes. An employee informed me 
that the mail could be identified; it just could not be easily 
identified. Philadelphia had huge amounts of returned and military mail 
that was not looked at for years, due to the claims assistants being on 
production. If a piece of mail could not be quickly identified, it was 
tossed aside until a later date when more time could be dedicated to 
identifying the mail. Because of the backlog, that day never came and 
the mail sat in boxes untouched for years. The law says after you 
attempt to identify it, you need to hold it for a year (this has 
veterans dates of claims on it to prove the date payment of benefits 
should start, etc...) and then it can be destroyed (but not if you do 
not try and ID it and only certain types of things may be destroyed 
after a process of attempting to ID) there were also many other things 
in those boxes and they just held it to be shredded without following 
proper procedures. I found out about it from various employees who were 
scared. I stayed late to open the boxes and took pictures, reported it 
to Washington and Congress, and was told no shredding was done because 
I could not prove I saw it being shredded (which no one could because 
the shredding happens on the truck). There was circumstantial evidence 
it was getting shredded...I was then targeted and instead of doing 
something about this, they enacted a policy of no picture taking in the 
building! I saw DD 214s in these boxes and easily identifiable mail, 
and other things that are not supposed to be shredded.
    In 2013, the VA issued fast letter 13-10 regarding ``found'' or 
``discovered'' claims. A simple reading of this fast letter established 
that these claims would be few and far between. To qualify for a new 
date of claim, rather than using the date stamped when the claim 
actually arrived at a VA office, the claim had to be ``undiscovered'' 
and found in a claim's folder. Upon ``discovery,'' a memo was to be 
attached and signed by three people, one being no less that an 
assistant director. Upon completion of the claim, an email was to be 
sent to the VACO explaining the circumstances of the claim and why this 
claim was going to have an altered date of claim, a newer date. 
Additionally, the claim was supposed to be tracked in a program called 
MAPD, by way of a flash, which could be tracked. This fast letter was 
the VA's solution for solving the issues with the backlog, because by 
2015, the VA promised that there would be no claims pending older than 
125 days. The Philadelphia Regional Office took this fast letter to 
mean that they could change the dates of claims on every claim older 
than six weeks old, regardless of the circumstances. When investigated 
by the OIG, the Pension Center managers pled ``ignorance'' and stated 
that they misapplied and misunderstood the fast letter. Ironically, 
there is proof to the contrary.
    One member of the Pension Center management team, a GS 14, was 
instructing her employees to change dates of claims for many years 
dating back to 2007! SEE She has managed to move up the ranks of VA 
management to now teach other management supervisors the tricks of the 
trade. How could someone make such important decisions regarding our 
tax payer dollars and our Veterans but not understand a simple fast 
letter? If this was not intentional, why did Philadelphia skip the 
steps that would identify the large number of these ``memos'' 
indicating a manipulation of the date of claim? Why is the only trace 
of these cases a paper memo? Why is there proof of the same illegal 
behaviors years before fast letter 13-10 was introduced? Because these 
behaviors are intentional. They are used to minimize the average days 
pending of a claim to make the regional offices numbers look better. A 
veteran should have a date of claim of 2009 in some cases, but because 
of this memo, the Philadelphia RO instead used a date of claim of 2014, 
therefore making the claim appear ``new.'' He or she now has a recent 
date of claim, with no priority attached because the claim now has a 
new date of claim and will not show up on any reports for claims 
pending longer than 125 days. I personally witnessed supervisors state 
that they disagreed with these practices, but out of fear they 
complied, with thousands of these claim manipulations being done in the 
Philadelphia RO. I was appalled at the way this was manipulated and 
reported it through a friend that is now retired because of a VA 
settlement. This is currently being investigated, and demonstrates the 
systemic lack of morality haunting this agency.
    I have been admonished and suspended because I was unable to work 
mandatory OT (I had a problem with child care one month) and labeled 
``fraudulent'' by the Pension Center management, which after two and a 
half years were both reversed. No one else was given that severe of a 
punishment for things beyond their control. I was not promoted for a 
job when I was more qualified than at least one of the selectees and 
can prove it (and will because my case is pending an EEOC hearing). I 
was followed around the RO by management and my breaks were timed. An 
Assistant Pension Center Manager had my direct supervisor come outside 
and retrieve me from break, when we are permitted flex-time. I was 
falsely accused of slander. I was lied to on numerous times and 
``counseled.'' After my last whistleblowing attempt, my name was 
forwarded to the people I reported. The next morning, my car was dented 
and the following morning I came out to a big mess of coffee thrown on 
the hood and windshield of my car.
    I am currently awaiting the resolution of both an EEO complaint and 
an OIG investigation. Without some resolution to either one of these 
situations, I am not sure what my future holds. After receiving an 
annual EEO/Whistleblowing email encouraging employees to report illegal 
activities as well as taxpayer waste, I contacted the numbers provided 
thinking I was doing something the Department of Veterans Affairs would 
appreciate. I had tried using the chain of command, to only find out 
that the chain was corrupt. I did just that when I realized that the 
amounts of improper payments could be in the billions and included many 
supporting documents, sample cases, and case law. What I thought was 
helping the taxpayer, the agency, and the Veterans proved to be the 
exact opposite and the beginning of a horrible nightmare I have been 
living for four years. I noticed that this was not really what the VA 
wanted, and that they cover up nearly every impropriety to gain self-
benefit via bonuses and promotions and they target anyone that steps in 
the way.
    I noticed many employees around me were depressed and upon seeing 
me stick up for the Veterans, tax payer, and employees, others began to 
tell me horror stories of the Agency I was employed at. I am here 
because I care about Veterans and I care about the VA employees. The 
people that served our country and the employees that serve them 
deserve much more respect from the Department of Veterans Affairs.
    I would like to thank you on behalf of myself and the many voices 
that could not be here today for my invitation to appear here.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                   Prepared Statement of Javier Soto
    I, Javier Soto, thank the Chairman, and esteemed members of the 
House Veterans Affairs Committee, for the invitation to participate in 
this process and state:

        <bullet> The pressure to focus on production and complete cases 
        has resulted in less attention on quality to meet ``numbers'' 
        goals
        <bullet> Various changes, like ``changing the game,'' and 
        ``provisional ratings,'' seem to shift the burden to the 
        veteran to prove the claim, or hide claim processing times, and 
        may violate certain goals of the duty to assist (38 USC 5103A)
        <bullet> While quality control methods are touted nationally as 
        the measure of overall claims processing quality, local 
        internal employee quality reviews show high error rates 
        locally, and disagreements on what is a quality error and how 
        to evaluate evidence
        <bullet> In order to move cases faster, it seems the focus is 
        on less time for Veterans to submit evidence or for VA to 
        obtain it, to close the record faster, with the observation 
        that there may be an increase in denial of claims at my former 
        office as a result.

    1.  My statement is derived from experiences as a ``rater'' or 
Rating Veterans Service Representative while employed at the Veterans 
Benefits Administration, St. Petersburg VA Regional Office (``RO317''), 
where in four years I was promoted from GS-9 to GS-12, and received at 
least fully successful ratings.
    2.  I was hired to work on a Night Shift. We were promised 
verbally, by Kerry Witty, Director of RO317, and Mr. Scott Posti, 
Assistant Director, RO317 (at the time), that Night Shift would never 
go away as this program was meant to meet the goals of ending the 
backlog. Less than a year later, Night Shift went away. Further, about 
60% of hires on the night shift rater class are no longer raters or 
employed as raters.
    3.  It is my observation VA has steadily shortened evidence wait 
periods for various evidentiary items--private medical record requests, 
duty to assist time periods, research for certain other records, and so 
on. The result is usually a small window to get evidence ``on the 
record'' for consideration for the claim made. When the evidence 
submission window closes, the claim is rated based on the evidence of 
record. As a consequence, a denial for benefits results if no evidence 
arrived during the new shortened period of time.
    4.  There have been times at the Orlando office when managers will 
tell raters how to rate a claim (mostly urging closure without further 
review of issues that may need more review) but refusing to follow 
written procedure that would alert the Veteran of a difference in 
opinion as to how to develop or evaluate a claim. VA rules call for 
differences in opinions between management and a rater to be documented 
in a written memorandum. Management has refused to comply with such 
requests by employees.
    5.  RO317 management developed mitigation to the national 2013 
standards that I could not find approval for from VA Central Office. 
Employees at the lowest levels (not meeting standards) were declared 
fully successful based on ``unique station challenges,'' or similar 
statements. Later, I learned the HR manager, Bonnie Wax, directed the 
use of this terminology (while engaged in helping one employee on a 
performance issue at Orlando--when the Orlando office manager passed 
the employee based on unique station challenges--``as instructed'' by 
``HR''). Also, this term appears to be used to ``assign'' certain 
employees as `outstanding' without those employees meeting the 
outstanding criteria. An additional concern was that employees that did 
meet production and accuracy requirements received no upward mitigation 
(the ``middle'' group) despite an appearance of a ``curve'' for the 
standards at the high end and low end (those that managed to meet 
standards were lumped in with poor performers). On some occasions, to 
avoid litigating training issues a ``unique station challenge'' was 
declared and the employee made fully successful, when the employee 
filed EEO or other complaints.
    6.  Accuracy figures differ between RO317, STAR (National), OIG, 
and so on. At RO317, individual quality reviews (that evaluate employee 
performance on claims--not station performance that is reviewed by 
STAR) seem subjective or based on preference of the reviewer. Accuracy 
impacts production because it is used punitively against employees. 
Because of confusion over accuracy demands by the local quality review 
team, some employees report shifting rating practices to accommodate 
reviewer ``preference,'' not law.
    7.  Employees have reported to AFGE comments by managers of ``let 
the Veteran appeal'' or ``that's what appeals are for'' when 
questioning claims processing concerns.
    8.  We can't agree when raters and quality reviewers view the same 
evidence and differ as to what it means. VA law calls for one standard 
of review, but quality reviewers show no consistent standard locally, 
making it difficult to pinpoint a fix, and causing errors in rating 
claims. For example, consider the following sample of errors made by 
``quality'' reviewers:
    a.  Three errors were called by the local quality reviewers (QR) 
when I granted the earliest possible increase effective date on a claim 
(based on VA medical records). QR ignored my clear explanation that I 
relied on VA records and stated ``private records were too old.'' When 
the QR would not change their decision, which would have denied the 
Veteran thousands of dollars, the matter was challenged in various 
labor forums because VA would not consider it. Many months later the 
director finally relented and overturned the error--but refused to 
admit problems with the quality review process, and refused to issue 
guidance to QR that would avoid similar error calls in the future.
    b.  An error was called when QR decided the word ``and'' means 
``or'' in manual reference concerning who is covered for purposes of 
``Agent Orange'' claims in locations other than Vietnam. The rater 
noted that the ``manual'' (M21-1MR) states Veterans that meet two 
criteria (i.e., ``x'' AND ``y'') are to be referred for further review. 
The QR panel advised the argument ``AND'' means ``AND''--was not 
persuasive. On further challenge, management relented and stated: ``in 
fairness, if QRT finds it necessary to clarify this particular 
reference with Compensation Service, then [employee name omitted] 
should not be charged with this error.'' However, they denied a request 
to prevent such errors in the future.
    c.  In early FY2104 four quality review errors were called on 
raters at the Orlando Office of RO317 based ``interpretation'' of 
medical evidence. Raters at the Orlando office resubmitted the claims 
to VHA for clarification. VHA noted the raters were correct. The errors 
were reported to the director of RO317. Veterans Services Center 
Manager Sandra Smith has not answered calls for resolving the matter, 
and Director Kerrie Witty has refused to address this matter. The 
claims sit unaddressed as to the error concerns.
    9.  During the focus on initial claims, RO317 reported that appeals 
at RO317 had increased beyond the rate experienced at other offices. 
Also, other concerns have arisen. Some non-bundled claims sat ignored 
for the most part, resulting in losses to VA (i.e., grants requiring 
future exams in 6 months have gone without an exam for five years in 
some cases, resulting in extra payments not justified by law).
    10.  Review of internal quality review team ``minutes'' shows: They 
have had problems agreeing on what a local error is or should be; They 
feel caught between employees and management over the processing goals; 
and, quality reviews are time consuming for VBMS claims nation-wide. I 
could find no management address of these concerns.
    11.  RO317 has stated internally that its quality review team is 
100 percent accurate after complaints about mistakes by the quality 
review team. An Email to RO317 employees on January 27, 2014, urged 
employees to stop complaining to quality reviewers. Later, during this 
year, quality reviewers began using ``disclaimers'' for guidance given 
by quality reviewers due to their decisions being challenged as 
inconsistent. This matter was brought to the attention of the RO 
director in a recent ``town hall meeting'' with employees and she 
responded with ``I am not aware,'' ``I have to check into that,'' ``I 
don't know.''
    12.  The matter of quality and production has increased hostility 
in the workplace for all--employees, quality reviewers, and middle 
managers. Senior management has received bad reviews from employees in 
employee surveys. While management refuses to admit the problems 
continue, or exist, recent emails exemplify the conflicting quality 
process: An employee asked for guidance on whether to order an exam 
based on a Veteran submitted claim and evidence. Due to a fluke, two 
quality reviewers responded via email to the same question minutes 
apart (the question was entered into a ``request for help'' database). 
They issued opposing guidance to the employee (one said order the exam, 
the other said do not order the exam).
    13.  ``Changing the Game'' rules have resulted in exams denied to 
veterans during increase claims by pressure to rate on available 
evidence that may not meet legal requirements. As an example of the 
conflict here, various increase claims were completed using Changing 
the Game, under insistence of the Orlando Area Manager, without exams. 
The rater complying received various errors for not ordering exams.
    14.  A great concern in training and development of raters is that 
claims are not assigned for processing based on complexity of claim and 
tenure and experience of the employee. Tied to the push for 
``production,'' is a disregard for position description procedural 
guidance for new raters. This leads to needless quality issues and 
delays in claims processing.
    15.  We receive exams from VHA not properly filled out, missing 
medical opinions, with conflicting opinions and diagnosis, and 
incomplete. We complained to our managers but get no address to this 
problem. We also receive complaints from Veterans on being evaluated 
for complex conditions in ``five minutes.'' Exams are a critical part 
of the rating process.
    16.  A concern for fraud has arisen in e-benefits initiatives. At 
the Orlando Office of RO317, a script for convalescence was altered to 
increase 100 percent benefits for over 4 months from the 2 weeks called 
for by the doctor. The rater reported the matter to the management at 
Orlando Office of RO317. The reply by management was ``you should have 
just rated it and closed the claim.'' There has been no training or 
instruction in identifying medical frauds for raters as we race through 
claims.
    17.  Despite congress calling for a time motion study at VBA, I 
have not seen or heard of one performed for the latest performance 
standards. I did review data on a previous study (I think over 5 years 
ago) and those familiar with the study advised that VBA stopped such 
studies because they did not support the performance standards used by 
VBA.
    18.  Provisional ratings simply closed the end product (EP, or 
claim as ``tracked'' when initially filed), but resulted in a new 
``non-bundled'' EP being issued to track the provisional rating. The 
claim continues unaddressed and not is completed.
    19.  Because of changes seemingly appearing to conflict training 
and law, some raters refused to follow the new rules without written 
directives. The claims were reassigned to others willing to perform 
them as requested.

Summary

    I have the utmost respect for this job and the legal process here. 
I am also awed by the background and efforts of our Veterans that I 
have served by deciding claims. I was simply trying to help when after 
issuing a VSR accuracy report (showing RO317 quality review team was 
performing poorly, overturning their own decisions about 50% of the 
time on appeal) of June 24, distributed on June 26, I was involuntarily 
separated June 30, by Kerrie Witty, Director, because ``my services 
were no longer required'' (I was laid off in the middle of a backlog 
and a push to hire more raters). As a re-employed retiree I was 
determined to be at will and no longer needed.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

              Prepared Statement of Hon. Allison A. Hickey
    Chairman Miller, Ranking Member Michaud, and Committee Members, 
thank you for providing me the opportunity to discuss the Department of 
Veterans Affairs' (VA) commitment to providing all Veterans, their 
families, and Survivors with timely and accurate decisions on their 
benefit claims and ensuring the integrity of the data that we use to 
measure our workload performance in carrying out our mission. I am 
accompanied today by Diana Rubens, Director of the Philadelphia 
Regional Office, and Thomas Murphy, Director of Compensation Service.

Priority Goals

    It has never been acceptable to VA or to the dedicated employees of 
the Veterans Benefits Administration (VBA)-52 percent of whom are 
Veterans themselves--that our Veterans are experiencing long delays in 
receiving the benefits they have earned and deserve. Over the past four 
plus years, VBA has been undergoing the largest transformation in its 
history to fundamentally redesign and streamline the way benefits and 
services are delivered.
    As VBA undertook this major transformation, the Secretary of 
Veterans Affairs established as a priority goal for VBA to eliminate 
the disability claims backlog and ensure accurate decisions for 
Veterans awaiting VA's determinations on their service-connected 
disability claims. These rating decisions are at the core of our 
mission, as they have enormous financial impact on Veterans' lives and 
in many cases lead to eligibility for other important benefits, such as 
health care, vocational rehabilitation, waiver of home loan funding 
fees, and housing benefits. VA therefore established as one of the 
department's top three agency priority goals to process all disability 
rating claims within 125 days at a 98-percent accuracy level in 2015. 
In 2005, VA changed its strategic goal for processing all disability 
rating claims from an average of 100 days to an average of 125 days, 
and increased the accuracy goal to 98 percent. In 2010, former 
Secretary Shinseki changed the processing goal from an average of 125 
days to state that all claims would be processed within 125 days, 
reinforcing his commitment to fundamentally transforming the claims 
process to ensure all Veterans receive a timely decision on their 
claims. With the tremendous support that VA continues to receive from 
its partners including this Committee, the rest of Congress, Veterans 
Service Organizations (VSO), county and State Departments of Veterans 
Affairs, the Department of Defense, and other federal agencies, we are 
on track to meet this goal.

Transformation Progress

    We have made tremendous progress, reducing the disability claims 
backlog by over 55 percent, from the peak of 611,000 in March of 2013 
to 275,000 today. Last year, VBA completed a record 1.17 million 
disability rating claims, and we are on track to complete over 1.3 
million rating claims this fiscal year. Over 90 percent of the claims 
in our inventory are now being processed electronically in our new 
digital environment, the Veterans Benefits Management System (VBMS). 
The average age of the pending claims in the inventory is now 154 days, 
down 128 days or 45 percent from the peak of 282 days in February 2013. 
The reduction in the disability rating claims backlog and our increased 
production have not come at the expense of quality, which also 
continues to improve. We have increased our claim-based accuracy from 
86 percent in 2011 to 90.3 percent today. When we measure the accuracy 
of the individual decisions our employees make within each claim, our 
accuracy level is 96.2 percent. At the same time, we also remain 
focused on all of the other workload components of the wide range of 
benefit programs we are privileged to administer.

Initiatives and Procedural Changes Since March 2013

    The Committee requested that VBA specifically address certain 
initiatives and procedural changes implemented since the last Full 
Committee hearing in March 2013. The initiatives discussed below were 
designed to help us deliver benefits to Veterans more timely, manage 
our work more effectively, increase production, and ensure we are 
making the best possible use of our resources.

Claims Brokering

    Prior to fielding an electronic claims processing system, each of 
VBA's 56 regional offices focused primarily on processing benefits for 
Veterans in the state the office was located. The proximity of the 
beneficiary claimant to the processing regional office was important in 
VA's legacy paper-based system, where claims records and files were 
physically stored, processed, and/or mailed between the Veteran, the 
regional office, and the closest supporting VA medical facility. 
However, this geographically-based approach resulted in variances in 
regional office workloads and processing timeliness due to factors such 
as multiple National Guard and Reserve Component deployments from 
certain states, unanticipated staffing losses at regional offices, and 
shifts in the Veteran population in various states. To address these 
variances, VBA employs a ``brokering'' strategy, which balances the 
workload by sending cases from regional offices with high inventories 
to regional offices with greater processing capacity. Brokering has 
been extremely beneficial to managing workload before and during VBA's 
transition to an electronic claims process. For example, brokering has 
been of great assistance in reducing the backlog at the Baltimore 
Regional Office by 77 percent (15,744 claims brokered), the Los Angeles 
Regional Office by 62 percent (13,075 claims brokered), and the Oakland 
Regional Office by 74 percent (21,859 claims brokered). This assistance 
ensures that Veterans waiting too long for decisions receive the 
benefits they have earned.

National Work Queue

    Within VBMS, VBA is implementing the National Work Queue, a 
paperless workload management initiative designed to improve VBA's 
overall production capacity and performance accountability. With over 
90 percent of our pending claims inventory converted to digital format 
in the VBMS, VBA can more efficiently manage the claims workload 
centrally. The initial implementation phase of the National Work Queue 
involves moving claims electronically from a centralized queue to a 
regional office identified as having the capacity to complete the work. 
Through this process of matching inventory with claims processing 
capacity, VBA is improving performance nationwide, helping to ensure 
Veterans receive more timely benefits regardless of where they reside.
    In the future, claims will be routed nationally down to the 
individual employee level based on the nature of claim and the skill 
set of the claims processor. Under the National Work Queue, the first 
filter for assignment of a claim will remain the geographic proximity 
to the Veteran's place of residence. However, if there is not capacity 
to process the claim at the closest regional office, the claim will be 
completed by another skilled employee at a different regional office. 
VA believes the outcome-based strategic measures of this plan will 
allow VBA to make a focused assessment of the quality and consistency 
of claims processing. The success of the Oldest Claims Initiative 
validated the need for this national approach to workload management. 
More than 100,000 claims were brokered during this initiative, 
leveraging the full system capacity to achieve a much higher level of 
production.

Oldest Claims Initiative and Provisional Decisions

    VBA launched an initiative in April 2013 to expedite disability 
rating claim decisions for Veterans who had been waiting the longest. 
Over 513,000 of the longest-pending claims were covered under this 
initiative, including nearly 500,000 claims that received final ratings 
based on the availability of all relevant evidence. Approximately 
14,800 of these Veterans (less than 3 percent) received ``provisional'' 
rating decisions if evidence was outstanding, but all essential 
evidence, such as VA examinations and service treatment records, were 
available.
    Provisional decisions were issued during this initiative in order 
to provide benefits more quickly to eligible Veterans who had been 
waiting the longest for decisions on their claims, while at the same 
time giving them an additional 1-year safety net to submit further 
evidence should it become available, before a final decision. Veterans 
then have the same statutory 1-year period to appeal the final decision 
if they disagree.
    During the initial phase of the Oldest Claims Initiative, VBA 
identified that one regional office had misinterpreted the provisional 
decision guidance. Clarifying instructions were immediately issued to 
all regional offices and reinforced through conference calls with 
regional office managers. Authority to issue provisional decisions was 
withdrawn in November 2013 as we completed the initial phases of the 
Oldest Claims Initiative.
    The Office of the Inspector General (OIG) recently completed a 
review of VBA's implementation the Oldest Claims Initiative and found 
further problems with the implementation of the provisional decision 
guidance. As a result, the Under Secretary for Benefits directed a 
complete review of all provisional decisions on June 2, 2014. Regional 
office Quality Review Teams will determine if the ratings were 
completed properly, if a final rating is now warranted, or if further 
development is necessary. The final ratings will be completed no later 
than September 2014, or at least one-year after the provisional rating 
was issued (whichever is later), unless additional evidence needed to 
correctly decide the claim remains outstanding.
    The purpose of the provisional decisions was to get benefits to 
Veterans more quickly. Veterans who received provisional decisions had 
an additional one-year period to submit further evidence or seek 
review. The final rating process provides further assurance that 
Veterans who received provisional decisions are receiving the benefits 
they have earned.

Mandatory Overtime

    Mandatory overtime is a management tool that has been periodically 
utilized by VBA over the years and most recently initiated in May 2013 
to maximize productivity during the Oldest Claims Initiative. While in 
mandatory overtime, Rating Veterans Service Representatives (RVSRs), 
Veterans Service Representatives (VSRs), and Decision Review Officers 
work a minimum of 20 hours of overtime per month focused on completing 
priority claims--our oldest claims, fully developed claims, and 
special-interest claims (homeless, extreme financial hardship, former 
prisoners of war, terminally ill, etc.). During mandatory overtime 
periods in FY 2013, VBA's daily rating production increased by 30 
percent, or more than 1,000 additional claims per day. Staff at all 
regional offices worked mandatory overtime for six months in 2013 and 
resumed mandatory overtime on January 19, 2014 to accelerate the 
reduction in the backlog.
    To provide employees with a break from mandatory overtime in order 
to spend time with their families during the holiday season, optional 
overtime was in effect from November 24, 2013, through January 18, 
2014. Managers at each regional office continue to make exceptions to 
mandatory overtime, on a case-by-case basis, for employees requesting 
to be excused for hardship reasons, such as educational commitments, 
family needs, and medical conditions. In addition, all employees are 
provided a month in FY 2014 in which they may elect not to work 
overtime.

Surge Initiative

    Regional office closures and early dismissals due to hazardous 
weather conditions negatively affected VA disability claims production 
during the past winter season. To mitigate the impact, VBA implemented 
a short-term initiative from mid-February through the end of March 2014 
in order to maintain progress in reaching the Secretary's goal of 
eliminating the backlog in 2015. The initiative called for the 
temporary assignment of employees who have claims processing expertise 
but are performing other duties--such as supervisors, change management 
agents, and quality review specialists--to process claims in the 
backlog during regular and/or overtime duty hours. During the five-week 
initiative, VA employees processed more than 154,000 claims, reducing 
the backlog by 40,000 claims. The surge initiative mitigated the lost 
production over the winter months and put us back on track for 
continuing the progress being made in reducing the backlog.

Found Claims

    In May 2013, VBA issued guidance to regional offices that was 
designed to ensure there was no disincentive in our processing 
procedures for taking action on any previously undecided claim that may 
be subsequently identified in a Veteran's claims record (possibly many 
years or even decades later). As you know, Veterans are entitled to 
submit their claim in any format, including handwritten notes or 
letters. At times, this leads to claims being discovered later in the 
process. This 2013 directive instructed regional offices to use the 
date the claim had been discovered (``found'') in the claims record as 
the date of receipt of the claim for tracking purposes, while ensuring 
that the date the claim had been originally received is used as the 
effective date for any benefits awarded to the claimant. This ensures 
the full benefits due are paid to the Veteran.
    Prior procedures required employees to use the date of receipt of 
the original claim for tracking purposes, even if that date was decades 
ago. Logging such an old date of receipt could potentially harm 
employees' achievement of their regional offices' timeliness goals. 
Therefore, the new policy revised prior procedures that could be seen 
as a disincentive for conducting such a thorough review. This 
procedural change only affected the date of receipt of the claim for 
timeliness tracking purposes, and we believed the policy would remove 
the disincentive.
    Indeed, the guidance issued in May 2013 directed regional offices 
to proactively review all the evidence of record when adjudicating a 
claim in order to discern if any additional claims or medical issues 
were of record that had been overlooked in any previous adjudication 
process, ensuring the Veteran's rights were being protected.
    In accordance with statute and VA regulations, this May 2013 
guidance instructed regional offices to use the earliest date of 
receipt by any VA facility as the date of claim for the purpose of 
determining the effective date of any benefits awarded as a result of 
the found claim. In addition, special controls were put in place to 
manage and oversee this process. Authority to apply these procedures 
and establish a claim based on a discovered document was delegated only 
to Regional Office Directors and Assistant Directors. Regional offices 
were also required to notify VBA Compensation Service when any claim 
was established based on discovered documents.
    Recently, OIG received a complaint that a regional office was not 
properly following this guidance. The OIG dispatched an inspection team 
to that regional office and identified a misapplication of this 
guidance. As a result, VBA quickly took several measures. First, the 
fast letter was immediately suspended while VBA conducts a complete 
review of the implementation of this policy. Data analysis is being 
undertaken to identify regional offices that are potential outliers in 
the application of this policy, including on-site analysis at certain 
regional offices where potential implementation issues have been 
identified. This analysis has also been shared with the OIG. All claims 
impacted by misinterpretation of this guidance will be identified, and 
corrective action will be taken in each instance. Any employee found to 
have intentionally misused this policy will be held accountable. We are 
committed to identifying our problems and implementing solutions.

    Improving Claims Accuracy

    As evident in our priority goal statement for 2015, our commitment 
is not only to eliminate the claims backlog, but to ensure the 
decisions we provide to the Veterans, families, and Survivors we serve 
are of the highest possible quality. VBA's transformation plan includes 
major resource investments to improve the accuracy of our claim 
decisions, toward our goal of achieving a 98-percent accuracy level in 
2015:

        <bullet> Challenge Training was redesigned for new claims 
        processors that significantly increase quality and production, 
        especially in the first six months following completion of 
        training.
        <bullet> Station Enrichment Training (SET), based on the 
        success of Challenge training, is offered to regional offices 
        experiencing challenges in quality and production.
        <bullet> Specialized Adjudication Review Course (SPARC) and 
        Supervisory Technical Analysis of Data (STAND) training 
        sessions are being conducted from May through July 2014. SPARC 
        was developed to retrain 1,250 Veterans Service Representatives 
        and 900 Rating Veterans Service Representatives having 
        difficulty in meeting performance standards. STAND training was 
        developed for 750 coaches and assistant coaches to focus on 
        data analysis and personnel management tools.
        <bullet> Quality Review Teams (QRTs) were established in each 
        regional office to conduct in-process quality reviews as well 
        as individual employee quality reviews. Over 650 Quality Review 
        Specialists are trained and monitored by VBA's Quality 
        Assurance Staff.
        <bullet> Skills Certification tests have been implemented for 
        Veterans Service Center Coaches and claims processors.
        <bullet> Rater Decision Support Tools have been introduced into 
        our new automated processing system to provide more consistent 
        ratings.
        <bullet> Disability Benefits Questionnaires (DBQs) replace 
        traditional VA examination reports and are designed to capture 
        all medical information relevant to a specific condition at 
        once and up front. A total of 81 DBQs are available to VHA 
        clinicians, including 71 DBQs that can also be completed by 
        private physicians.
        <bullet> VBMS Automation--VBMS software releases in 2014 are 
        continuing to build more complex automation features into the 
        system, which help employees complete their work more 
        efficiently, reduce errors, and organize tasks. The new 
        functionality improves employees' visibility of the workload, 
        the status of claims and information needed to finalize 
        decisions.


Quality Assurance

    VBA's Systematic Technical Analysis Review (STAR) Program measures 
and reports statistically valid accuracy rates covering all types of VA 
claim decisions, both rating and non-rating. VBA's Compensation Service 
and Pension and Fiduciary Service have expert claim processors assigned 
to the STAR teams to assess the quality of over 14,000 rating decisions 
and an additional 14,000 authorization ( non-rating) decisions 
identified through a statistically valid random sampling each year. 
VBA's STAR program has been independently reviewed and validated by the 
Institute for Defense Analyses (IDA).
    Under the STAR program, VBA measures both claim-based and issue-
based accuracy. Claim-based accuracy measures the accuracy of the 
entire claim, regardless of the number of issues decided within that 
claim. The claim is either 100 percent accurate or 100 percent in error 
(even if only 1 error is made). Issue-based accuracy evaluates the 
accuracy of decisions on individual medical conditions. The STAR 
program measures both 3-month and 12-month accuracy. Site visits are 
also conducted by employees of VBA's Headquarters elements and the Area 
Directors to ensure regional offices are following correct policies and 
procedures. Site visits include reviews of performance and workload 
trends and anomalies in rating decisions.
    VA's OIG and our VSO partners also conduct assessments of VBA's 
accuracy, but use different methodologies than the STAR program. All of 
these reviews are important to VBA and help us to improve our 
processes. OIG benefits inspection reviews of regional offices focus on 
specific subsets of claims identified as more complex, needing special 
emphasis, or with known processing problems. As the OIG states in its 
benefits inspection reports, the results of these reviews are not 
reflective of the overall quality of the decision being made by the 
regional office. OIG also uses a broader definition of what constitutes 
an error, encompassing compliance with VBA's policies and procedures 
rather than only the accuracy of the outcome or entitlement. VSO 
reviews also have a narrower scope, as VSOs are only able to review 
claims of Veterans for whom they hold power of attorney, and their 
reviews are only conducted at a limited number of regional offices. 
Because the evaluation criteria and case-selection processes used by 
these organizations vary significantly from VBA's STAR Program, the 
results of these reviews cannot be directly compared.
    To provide an independent assessment of VBA's current quality 
assurance program, VBA has an independent third-party contractor 
reviewing of this program. We look forward to reviewing results and 
recommendations of this assessment.

Workload Management

    VBA has, for most of its history, used a system of ``end products'' 
to identify, track, and manage all types of claims and other workload. 
Our automated processing systems have been designed to incorporate this 
end-product methodology for managing work. With the introduction of the 
Balanced Scorecard approach in 2000, these end products were grouped 
into three categories or ``bundles,'' enabling some prioritization of 
the multitude of end products being measured for purposes of tracking 
performance. Our workload management and reporting systems continue to 
report work according to these workload ``bundles'':

        <bullet> Rating Claims: Includes Veterans' disability 
        compensation and pension claims and as well as Survivors' 
        claims for service-connected death benefits. These claims 
        requiring rating decisions comprise our most complex and labor-
        intensive workload. Our goal for eliminating the backlog and 
        providing all Veterans with a decision on their disability 
        claims within 125 days at a 98-percent accuracy level applies 
        to this claims ``bundle.''
        <bullet> Non-rating Claims: Includes claims that in most cases 
        do not require a rating decision but directly impact benefits, 
        such as survivors pension, burial claims, dependency claims, 
        income adjustments, and drill pay adjustments.
        <bullet> Other Non-rating Work: Primarily includes 
        administrative actions that are not necessarily claims for 
        benefits, such as correspondence actions, income matching 
        programs and other internal control reviews, and special claim 
        reviews.

    VBA uses two metrics to measure and report on the timeliness of the 
claims process. Average Days to Complete (ADC) tracks the length of the 
claim process, start to finish. Average Days Pending (ADP) provides a 
point-in-time measure of in-progress claims from start to current date. 
Both measures are important for managing our workload. As a result of 
our focus on the Oldest Claims Initiative, these measures have 
experienced significant fluctuations. By eliminating the oldest claims 
from the inventory, VA lowers the ADP for claims in the overall 
inventory. The focus on taking care of those Veterans who have been 
waiting the longest also causes the ADC to rise in the near term. ADC 
is a lagging indicator, while ADP is a leading indicator that provides 
a better measure of the current state of the claims inventory. VBA has 
implemented numerous transformation initiatives that not only result in 
more timely and accurate delivery of benefits, but also enhance our 
workload management and reporting systems. Development of VBMS, our new 
paperless processing system, is a critical component of our 
transformation. Electronic records and automated claims processing not 
only create significant efficiencies, but also improve workload 
management and data consistency through standardization. All disability 
compensation claims and supporting evidence received in paper form are 
now centrally scanned and converted into digital format at centralized 
sites. This conversion process also extracts important data and 
populates this data in the Veteran's electronic folder (eFolder). 
Through a phased implementation plan through the end of July, all 
incoming disability claims will be redirected by the postal service to 
closely controlled scan facilities, where they are immediately 
digitized for claims processing. When coupled with currently scheduled 
VBMS enhancements, centralized mail processing will result in near-
instantaneous establishment of end-product controls for a significant 
portion of the claims we receive.

Non-Rating Workload

    Rating claim decisions in many cases open access to other VA 
benefits and services. Claims for these additional benefits generally 
do not require another rating decision and are therefore tracked and 
managed in the non-rating work categories. As we complete more rating 
claims and add more Veterans to our disability compensation and pension 
rolls, we also receive more non-rating claims. There is a direct 
correlation. Even as we have focused on our priority goal to eliminate 
the disability rating claims backlog for Veterans who have been waiting 
the longest and are achieving record-breaking levels of production, we 
have not ignored non-rating claims. We continue to complete more non-
rating work each year; however, non-rating receipts also continue to 
rise. In fiscal year (FY) 2012, we completed 14 percent more non-rating 
work than in FY 2011. Last year we completed 2.46 million non-rating 
end products, which was 24 percent more than in FY 2011. This year, we 
expect to complete 2.84 million non-rating end products (a 44-percent 
increase over 2011).
    VBA has not lost focus on non-rating work, as demonstrated by our 
efforts to develop and explore innovative ways to automate and improve 
the timeliness and accuracy of non-rating claim decisions.

        <bullet> Online Dependency Claims--VBA developed a new Rules-
        Based Processing System (RBPS) to automate dependency claims. 
        Since inception, self-service features in RBPS have enabled 
        over 75,000 Veterans to add or change the status of their 
        dependents online. Over 50 percent of the dependency claims 
        filed through RBPS are now automatically processed and paid in 
        1-2 days.
        <bullet> Dependency Claims Contract--VA recently awarded a 
        contract for assistance in entering data from paper-based 
        dependency claims into VA's electronic rules-based processing 
        system. The contractor is entering the information from the 
        paper-based dependency claims just as a claimant would enter 
        information if filing the claim online. The contract calls for 
        40,000 dependency claims to be processed per month when 
        operating at full capacity. The contractor is currently ramping 
        up to that capacity.
        <bullet> Up-front Income Verification for Pension--A new data-
        sharing initiative with the Social Security Administration and 
        the Internal Revenue Service enables VBA to verify the income 
        of pension applicants before awarding benefits and eliminates 
        the annual income reporting requirement for pension 
        beneficiaries.
        <bullet> Burial Claims--VBA published a new regulation, 
        effective July 7, 2014, that allows automatic payment of the 
        one-time burial allowance to a Veteran's spouse without 
        requiring the surviving spouse to apply for the benefit. Under 
        this new regulation, as many as 62,000 surviving spouses will 
        now receive timely burial benefits each year.
        <bullet> Drill Pay Adjustments--Veterans cannot legally receive 
        VA benefits and drill pay concurrently. VBA is working to 
        streamline and automate the drill pay offset process through an 
        upfront agreement from National Guard and Reserve members.
        <bullet> National Call Center Initiative--Effective July 14, 
        employees at the St. Louis and Phoenix National Call Centers 
        are now also processing dependency claims. The initiative 
        begins on July 14 at the St. Louis and Phoenix Regional Offices 
        and will be expanded to all of our Call Centers shortly 
        thereafter.
        <bullet> Hiring Temporary Employees--VBA is in the process of 
        hiring 200 temporary employees, who will be provided 
        specialized training in processing the less complex non-rating 
        claims and work actions.


Centralized Data Collection and Reporting

    VBA's data is collected and analyzed at a central level by VBA's 
Office of Performance Analysis and Integrity. In 2000, VBA established 
the Enterprise Data Warehouse (EDW) to uniformly capture data across 
different systems used to administer all benefits and to provide a 
suite of reports and analytical tools that would be a consistent source 
of reliable information and data. EDW collects, integrates, and 
protects VBA's data. EDW was designed so that as soon as data is in the 
system, it is protected against any further modifications or 
manipulation, both for data integrity and to protect the personal 
information of Veterans stored in the EDW. VBA has made improvements to 
the EDW since 2000, and we have a very high level of confidence in the 
accuracy and security of the data.
    EDW allows VBA to centrally monitor workloads, check the status of 
all claims, and prioritize and allocate appropriate resources to 
regional offices. In addition to VBA Headquarters, our 56 regional 
offices use data from EDW to actively manage their workload and 
operations. Standardized reporting and retention of that reporting 
enable VBA to provide timely, consistent, and accurate data to internal 
and external stakeholders, including our VSO partners and Congress.
    In addition to being a data repository and source for reporting, 
EDW offers a suite of business intelligence tools to analyze data. 
These tools help VBA identify trends and anomalies and evaluate 
corrective actions if necessary. We can explore the underlying data 
associated with the changes we see, allowing us to pinpoint a group of 
claims, a particular time period, or portion of the claim process. This 
level of detail and specificity is invaluable to regional offices in 
achieving our goals to provide more timely and accurate benefit 
decisions.

Commitment to Data Transparency

    VBA provides publicly available data on our performance on a 
weekly, monthly, and annual basis through our reports web site: 
www.vba.va.gov/reports. Weekly performance metrics are available 
through the Monday Morning Workload Report where we report 11 
performance metrics for more than 50 different types of benefit claims 
including original and reopened compensation and pension claims, award 
maintenance, appeals, and survivor benefits, as well as the number of 
education claims pending under the Post 9/11 GI Bill and our other 
education programs. The data is available to anyone with a computer, 
access to the internet, and an interest in reviewing it. The Monday 
Morning Workload Report has been continually updated and expanded over 
the years--most recently after discussions with key stakeholders, 
including the House and Senate Committees on Veterans' Affairs, House 
and Senate Appropriations Committees, as well as interested Veterans 
Service Organizations. At the request of these stakeholders, we have 
added additional data to the weekly report on several occasions, even 
further expanding our transparency of metrics. The home page for Monday 
Morning Workload Report contains current and historical information, as 
well as definitions for data provided in the reports.
    Monthly reporting of VBA's performance data is available through 
the ASPIRE Dashboard, which provides information on how VBA and 
regional offices are performing in relation to 2015 aspirational goals 
for all benefit programs. ASPIRE provides data on VBA's six business 
lines (compensation, pension, education, loan guaranty, vocational 
rehabilitation and employment, and insurance) and includes a total of 
38 metrics broken out at the regional office level. We began reporting 
using ASPIRE in July 2011. Data in the ASPIRE Dashboard is updated by 
the 10th of the month for the previous month, and we are working to 
shorten the update time in order to make current data available earlier 
in the month.
    Each year, VA publishes its Performance and Accountability Report 
(PAR) to provide results on VA's progress toward providing America's 
Veterans with the best in benefits and health care. The PAR contains 
performance targets and results achieved against those targets for the 
preceding fiscal year. As such, the PAR is VA's report card and, in 
this context, communicates to the American people how well VA has done, 
the tangible public benefits VA has produced, and the forward-looking 
strategies we are employing to achieve and maintain excellence. In 
addition, VBA publishes an Annual Benefits Reports (ABR), a summary of 
benefits provided by VA to Veterans and their dependents. The ABR 
clearly summarizes the benefit programs delivered by VBA, identifies 
the current level of program participation by eligible persons, and 
profiles the beneficiaries.

Performance Standards

    Objective measures and performance standards are used to determine 
if our managers and employees are meeting or exceeding their job 
requirements. VBA awards its employees for exceeding standards of 
performance that include both production and quality elements. 
Employees will not receive a performance award unless they meet quality 
standards as well as production standards.
    New VSR and RVSR National Performance Standards were issued in May 
2014. Workgroups of subject matter experts, including VSRs and RVSRs, 
as well as Headquarters personnel, developed the standards. The 
workgroups were tasked with aligning the standards with the agency's 
priority goals. These standards were negotiated with union officials at 
the national level. The revised standards incorporate compliance with 
systems requirements for data input and tracking as a critical 
performance element. This additional measure will help to ensure that 
the information associated with all aspects of a claim is accurately 
and completely entered into our processing systems for both internal 
and external inventory control, as well as to support improved customer 
service through all communication channels (eBenefits, regional office 
public contact teams, National Call Centers, SEP, etc.). Our 
transformational initiatives, including ongoing enhancements to VBMS 
and development of the National Work Queue, necessitate on-going review 
of the performance standards. New workgroups are already working on the 
next review.

STAT Reviews

    VBA's Stat Reviews are a performance technique using statistical 
data (Stat) and visual displays of that data to monitor progress and 
improve performance. This process involves in-depth performance metric 
reviews with the Under Secretary of Benefits and other top VA leaders, 
as well as VBA's Office of Field Operations and other members of the 
VBA leadership team, to analyze and manage performance more 
effectively. VBA's Stat Reviews are based on highly successful 
performance management programs conducted government-wide.
    The Under Secretary holds day-long meetings with regional office 
directors to discuss challenges and successes, using extensive data-
driven performance measures for accountability. This allows VBA 
leadership to more easily identify what improvements are needed to 
produce desired performance results. Stat Reviews also help VBA 
leadership understand what is or is not working, while motivating 
regional office managers and employees to focus their energy and 
creativity on achieving specific results. The Stat Review process 
focuses on accountability to achieve workload performance metrics and 
encourages information-sharing of best practices across VBA regional 
offices.

Conclusion

    VBA is committed to complete transparency in communicating 
information about our workload and our progress in providing Veterans, 
their families, and Survivors with timely and accurate claim decisions. 
The current administration established as priority goal for VA to 
process all disability rating claims within 125 days at a 98-percent 
accuracy level in 2015. VBA has been clear and consistent in 
communicating our progress toward that goal, while also making 
information and data available for all categories of work processed by 
VBA. VA greatly appreciates the investments in claims processing 
improvements provided by the President and Congress to help us fulfill 
our vital mission of service to America's Veterans and their families. 
This concludes my testimony. I would be happy to address any questions 
from the Committee.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                        QUESTIONS AND RESPONSES
                        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
